<html>
<title> - THE DHS AND DOE NATIONAL LABS: FINDING EFFICIENCIES AND OPTIMIZING OUTPUTS IN HOMELAND SECURITY RESEARCH AND DEVELOPMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  THE DHS AND DOE NATIONAL LABS: FINDING EFFICIENCIES AND OPTIMIZING 
         OUTPUTS IN HOMELAND SECURITY RESEARCH AND DEVELOPMENT

=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,

                       INFRASTRUCTURE PROTECTION,

                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2012

                               __________

                           Serial No. 112-84

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] CONGRESS


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
77-379                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                 Zachary D. Harris, Subcommittee Clerk
        Chris Schepis, Minority Senior Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................    28
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Dr. Daniel M. Gerstein, Deputy Under Secretary for Science and 
  Technology, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Dr. Huban A. Gowadia, Deputy Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Dr. Daniel Morgan, Specialist in Science and Technology Policy, 
  Resources, Sciences, and Industry Division, Congressional 
  Research Service:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21

                                Panel II

Ms. Jill M. Hruby, Vice President, International, Homeland and 
  Nuclear Security, Sandia National Laboratories:
  Oral Statement.................................................    38
  Prepared Statement.............................................    40
Dr. Michael R. Carter, Senior Scientist, National Ignition 
  Facility and Photon Science Directorate, Lawrence Livermore 
  National Laboratory:
  Oral Statement.................................................    46
  Prepared Statement.............................................    48

                                APPENDIX

Questions From Chairman Daniel E. Lungren for Daniel M. Gerstein.    61
Questions From Ranking Member Bennie G. Thompson for Daniel M. 
  Gerstein.......................................................    73
Questions From Chairman Daniel E. Lungren for Huban A. Gowadia...    80
Question From Chairman Daniel E. Lungren for Daniel Morgan.......    83


  THE DHS AND DOE NATIONAL LABS: FINDING EFFICIENCIES AND OPTIMIZING 
         OUTPUTS IN HOMELAND SECURITY RESEARCH AND DEVELOPMENT

                              ----------                              


                        Thursday, April 19, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Walberg, Long, Clarke, 
and Richardson.
    Mr. Lungren. The Committee on Homeland Security--the 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order. The subcommittee is 
meeting today to examine the National Labs of the Department of 
Homeland Security and the Department of Energy; and the 
homeland security research and development they produce.
    I have been advised that we expect votes in 10 or 15 
minutes, one short order of votes, and then we will come back. 
Then we have votes 2 hours thereafter. So we will try and 
proceed and get as much as we can get done before we have those 
votes. I apologize for this but this is the last day of the 
week that we are in session, so they allow votes before noon. 
With the permission of the Minority, we are going to start. 
When the Ranking Member arrives, I will recognize her for her 
opening statement.
    First of all, I want to thank you for being here. I think 
this is an important issue because as much as anything else, we 
are going to stay on the cutting edge in the areas of 
responsibility for the Department of Homeland Security if we, 
in fact, maintain our technological edge. We have tremendous 
resources with the Department. We have tremendous resources 
specifically with the National Labs. The question is: Are we 
doing the best job to ensure that we get the best bang for the 
buck?
    The No. 1 stated goal of the DHS Science and Technology 
Director is to, ``deliver knowledge, analyses, and innovative 
solutions that advance the security mission of the 
Department.'' The Homeland Security Act of 2002 included the 
necessary statutory authorization for DHS to work with these 
labs in support of homeland security needs. It also established 
a special relationship allowing DHS to use the DOE Lab system 
on an equal basis. In addition, the DHS Office of National 
Laboratories coordinates with DOE to meet mission goals and 
avoid duplication.
    As I said before, these labs are wonderful resources which 
deliver critical homeland security capabilities. DHS Labs--like 
Plum Island--have provided crucial advances in Foot-and-Mouth 
Disease vaccine to protect our agricultural infrastructure. 
Plum Island, because its isolated environment offers unique 
safety features for this type of contagious science work.
    The Chemical Security and Analysis Center is another DHS 
Lab in Aberdeen, Maryland, which studies hazardous chemical 
release scenarios and how they impact our emergency response 
protocols. Our DOE Labs, some dating back to World War II and 
the start of the nuclear age, have been indispensible partners 
in our National security efforts. DOE and DHS Labs across the 
country bring together the best scientists to push the limits 
of research and bio-detection, cutting-edge nuclear detection 
capabilities for our ports and characterize the explosive 
threats in our aviation environment.
    Because the labs are such a significant piece of the 
Department's research and development efforts, we must ensure 
that they will be used efficiently and in-line with 
Congressional intent. The lab operations, along with S&T 
program costs, total hundreds of millions of dollars annually. 
Because of these substantial investments, our subcommittee has 
a responsibility to closely scrutinize the operations.
    Are the labs costs reasonable? Are there cost savings to be 
found? Is DHS prioritizing National Lab work appropriately? 
Does DHS view the labs as a short-term contract or long-term, 
strategic partner? Is existing laboratory capacity sufficient 
to meet our needs or is more infrastructure justified? The last 
question is of particular importance with regard to the 
proposed National Bio- and Agro-Defense Facility.
    It is my hope that oversight from this subcommittee will 
encourage S&T to work more efficiently with its shrinking 
budget in support of its homeland security mission. I look 
forward to the testimony from our witnesses today. Look, our 
Governmental system was born out of a skepticism of Government 
and, frankly, I think that is good. But if skepticism turns to 
cynicism, we are in bad shape. We have to wrestle, as you do, 
with these budget constraints that we have.
    We have an obligation not only to make those tough 
decisions, but to make those decisions explainable and 
understandable to our constituents so they, in fact, would 
support those programs that are necessary. That is part of our 
inquiry here today. So we very much appreciate your being here. 
Again, I apologize that we will have interruptions for votes. 
As soon as the Ranking Member gets here, I will recognize her 
for opening statement.
    [The statement of Chairman Lungren follows:]
                Statement of Chairman Daniel E. Lungren
                             April 19, 2012
    We meet today to discuss the Department of Homeland Security's use 
of the Nation's extensive National Laboratory infrastructure. This 
infrastructure is a valuable asset supporting our homeland security 
mission with innovative R&D technology products to secure the homeland.
    The No. 1 stated goal of the DHS Science and Technology Directorate 
is to ``deliver knowledge, analyses, and innovative solutions that 
advance the security mission of the Department.'' The Homeland Security 
Act of 2002 included the necessary statutory authorization for DHS to 
work with these laboratories in support of Homeland Security needs. It 
also established a special relationship allowing DHS to use the DOE Lab 
system on an equal basis. Finally DHS, through the Office of National 
Laboratories coordinates with DOE to meet mission goals and avoid 
duplication.
    These labs are wonderful resources which deliver critical homeland 
security capabilities. DHS Labs like Plum Island have provided crucial 
advances in foot-and-mouth disease vaccine to protect our agricultural 
infrastructure. This work can only be done at Plum Island. The Chemical 
Security and Analysis Center is another DHS Lab in Aberdeen, MD which 
studies hazardous chemical release scenarios and how that impacts our 
emergency response protocols.
    Our DOE Laboratories, some dating back to World War II and the 
start of the nuclear age, have been indispensable partners in our 
National security efforts. DOE Labs across the country bring together 
the best scientists to push the limits on biodetection, develop 
cutting-edge nuclear detection capabilities for our ports, and 
characterize the explosive threats in our aviation environment.
    Because the labs are such a significant piece of the Department's 
research and development efforts, we must ensure that they are being 
used efficiently and in line with Congressional intent. Hundreds of 
millions of dollars are being spent on our labs annually ($600 million 
estimated).
    Because of these substantial investments, we must carry-out 
rigorous oversight. Are these costs reasonable? Are there cost savings 
to be found? Is DHS prioritizing National Lab work appropriately? Does 
DHS view the labs as a short-term contractor or as a long-term 
strategic partner? Is existing laboratory capacity sufficient to meet 
our needs, or is more infrastructure justified? This last question is 
of particular importance with regard to the proposed National Bio- and 
Agro-Defense Facility.
    It is my hope that oversight from this subcommittee will encourage 
S&T to work more efficiently with its shrinking budget, to support the 
homeland security mission.
    I look forward to the testimony from our witnesses today from the 
Science and Technology Directorate and our Domestic Nuclear Detection 
Office, the primary customers of these labs. We also welcome two 
current DOE Lab employees and the Congressional Research Service for 
their perspective on these questions.

    Mr. Lungren. I would like to introduce our witnesses here. 
Dr. Gerstein is the Deputy Under Secretary for Science and 
Technology at Department of Homeland Security. Before joining 
DHS, he served as principal director of countering weapons of 
mass destruction within the Office of the Secretary of Defense. 
For policy, he served on four different continents, 
participating in homeland security and counter-terrorism 
peacekeeping, humanitarian assistance and combat, in addition 
to serving for over a decade in the Pentagon, various high-
staff assignments.
    Following return from active duty, Dr. Gerstein joined L-3 
Communications as vice president for homeland security 
services, a league and organization providing WMD preparedness 
and response, critical infrastructure, security, emergency 
response capacity genuine, and exercised support to U.S. and 
international customers. That is just a portion of his resume.
    We appreciate what you have done and we thank you for the 
service now.
    Dr. Gowadia.
    Ms. Gowadia. Gowadia.
    Mr. Lungren. Gowadia, excuse me.
    Dr. Gowadia is the Deputy Director of Domestic Nuclear 
Detection Office at the Department of Homeland Security. Prior 
to this assignment, she served as assistant director of DNDO's 
Mission Management Director, where she was responsible for 
ensuring an effective link between user requirement, 
operational support, technology development across nuclear 
detection architecture.
    Dr. Gowadia was appointed to the Senior Executive Service 
2006, to serve as DNDO's first assistant director of 
assessments, previously served as program executive for DHS' 
Science and Tech Countermeasures test beds. Again, an 
impressive resume and we appreciate your service.
    Dr. Daniel Morgan, a Specialist in Science and Technology 
Policy in the Resources, Sciences, and Industry Division at 
Congressional Research Service. I might just throw in that I 
think Congressional Research Service is an indispensable arm of 
the Congress and one that doesn't get a whole lot of attention 
but we thank you for your expertise and allowing us, sort of, a 
third-party review of things when we take a look at that.
    Dr. Morgan specialized in Research and Development programs 
at the Department of Homeland Security, Department of Energy, 
and NASA. He has a Ph.D. in Physics from University of Texas at 
Austin and B.S. in Physics and Math from MIT. Previously a 
study director at National Academy of Sciences.
    We thank all of you. We would ask you to attempt to 
summarize your statements in 5 minutes. We have your written 
statements; they will be made a part of the record in their 
totality. We would ask you to speak in the order in which I 
introduced you.
    Other Members are reminded that statements may also be 
submitted for the record.
    [The statements of Ranking Member Clarke and Ranking Member 
Thompson follow:]
              Statement of Ranking Member Yvette D. Clarke
                             April 19, 2012
    Mr. Chairman, thank you for holding this hearing on the National 
Laboratories and how the Department can best utilize these valuable 
resources to accomplish our homeland security goals.
    Mr. Chairman, I too, want to welcome our witnesses today, some have 
traveled from the great State of California, and we appreciate their 
participation. I also want to welcome Deputy Under Secretary Gerstein 
to the subcommittee. He is relatively new to his position, obviously 
well qualified, and since arriving has provided enthusiastic and 
knowledgeable leadership efforts to S&T. During his short time on the 
job, he has proven to be a valuable asset to Under Secretary O'Toole. I 
am looking forward to his testimony today.
    The Department, and S&T in particular, supports a broad range of 
scientific and engineering research and development. Its purposes are 
wide-ranging and address specific concerns such as chemical security, 
biodefense, transportation security, and nuclear detection.
    An important segment of the Department's laboratory's effort is 
that it fosters the development of our country's scientific, 
engineering, and technical workforce, which influences students at our 
universities and even high schools. When teachers and students can see 
that there is interesting and substantial work to be done in the 
sciences at our laboratories, they show an incredible amount of 
interest in striving to work there. Important things go on in our 
laboratories, and they are seen as good and significant places to work.
    Our scientists, researchers, engineers, and technicians work hard 
to deliver solutions grounded in science and supported by innovative 
engineering, and this strengthens U.S. innovation and competitiveness 
in the global economy.
    This committee has a long-standing interest in the strength of the 
Department's research and development enterprise and in providing 
support for its R&D activities.
    We must anticipate the needs of our laboratories and the DOE Labs, 
and provide the best support and oversight that can help provide 
solutions to our toughest scientific, technical, and programmatic 
challenges.
    However, recent and projected budget cuts passed by the Majority 
are driving difficult decisions such as the prioritization, and 
sometimes the elimination, of R&D projects. This is causing stress 
among competing priorities within the Department's S&T Directorate and 
its R&D portfolio.
    Congress will play a central role in defining the Nation's R&D 
priorities as it makes decisions with respect to the size and 
distribution of homeland security R&D funding.
    We have expressed our serious concerns about the drastic decreases 
voted on by this Congress, and passed by the Majority, in the level of 
Federal funding for homeland security R&D funding. As the fiscal year 
2013 appropriations process moves forward, it faces two overarching 
issues: The extent to which the Federal R&D investment can grow, and 
what little R&D funding available will be prioritized and allocated. 
The Department and particular, the S&T Directorate, will need to 
justify and make transparent its R&D investments.
    President Obama's science advisor, John Holdren, and others--have 
raised concerns about the potential harm of a ``boom-bust'' approach to 
Federal R&D funding as seen in past, like rapid growth followed by much 
slower growth, flat funding, or even decline.
    Critics assert that there has been a variety of damages from this 
boom-bust cycle, including interruptions and cancellations of needed 
research projects, decreased student interest in pursuing graduate 
studies, and reduced employment prospects for the large number of 
researchers with advanced degrees.
    More broadly, in a 2009 speech before members of the National 
Academy of Sciences, President Obama put forth a goal of increasing the 
National investment in R&D to more than 3% of the U.S. gross domestic 
product (GDP). But, as they say, the devil is in the details, and the 
details are what we are to hear about today.
    This subcommittee and full committee have been real supporters of 
the Department's R&D and National Labs, but we need a better, clearer 
understanding of how things have gotten better, how management 
oversight of R&D projects has increased, and what is the path forward 
as we look toward the drastic funding cuts coming out of this Congress.
    Mr. Chairman I yield back.
                                 ______
                                 
             Statement of Ranking Member Bennie G. Thompson
                             April 19, 2012
    Thank you for holding this hearing to review the Department of 
Homeland Security's involvement with the National Laboratories.
    When the Department was created, the use of laboratories by DHS was 
one of the first questions posed.
    We all understood that the labs could serve as important incubators 
for products and technologies that would enhance this Nation's 
security.
    We all understood that some of these efforts may be expensive to 
undertake and have very low profit margins--making them unattractive to 
the private sector.
    Yet, we all believed that research and development could yield new 
tools to fight terrorism.
    At that time, we agreed about the importance of research and 
development. We decided to permit DHS unprecedented access to labs 
owned by the Department of Energy.
    The Office of National Laboratories within S&T was created to 
coordinate research and development efforts within DHS Labs and DOE 
Labs.
    Regardless of the location, the goal of the research would be the 
same--to support the homeland security mission.
    The alignment of DHS Labs within the mission programs of the S&T 
Directorate has been changed over the years.
    This committee needs to understand how these reorganization efforts 
improve the ability of DHS' Office of National Labs to coordinate and 
oversee research and development projects that improve this Nation's 
security.
    Additionally, because research and development is often a long and 
expensive process, this committee needs to understand how the current 
climate of fiscal austerity will impact the work of these labs.
    In a previous hearing, we were told that budget cuts would severely 
hamper on-going research projects and may cause new research to come to 
a standstill.
    Given the budgetary decisions made by my colleagues on the other 
side of the aisle, it is extremely important that Members of this 
committee have a clear understanding of the Department's research and 
development strategy.
    While we certainly should know about the role of the Office of 
National Labs, our focus must be broader.
    We must have an in-depth understanding of the strategy and 
rationale that determines how homeland security research and 
development funds are allocated--both in the Government labs and in the 
private sector.
    Thank you and I yield back.

    Mr. Lungren. So, Dr. Gerstein.

  STATEMENT OF DANIEL M. GERSTEIN, DEPUTY UNDER SECRETARY FOR 
    SCIENCE AND TECHNOLOGY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Gerstein. Well, thank you, Chairman Lungren.
    Well, good morning to everyone. Good morning, Chairman 
Lungren, distinguished Members of the committee. It is a great 
privilege to testify here today on this very important National 
security topic, our laboratories.
    I would begin my remarks by putting our laboratories in 
context. In the 1930s and 1940s, the U.S. National Laboratories 
ushered in the Nuclear Age. In a monumental effort, nuclear 
weapons--engineers and scientists developed the nuclear weapons 
that saw the end of the Cold War, served as a deterrent during 
the Cold War stand-off, and continue to provide deterrents 
today.
    These facilities have redirected their work and combined 
with other National and international laboratories, including 
our own DHS Labs, to provide technology solutions for the major 
threats and challenges we face today as a Nation. From threats 
in cyberspace to home-made explosives to bio-defense, this 
network of labs leverages science and technology for the 
benefit of the Nation.
    In the DHS Science and Technology Directorate, our vision 
is to support the Homeland Security enterprise by being 
operationally focused, developing innovative solutions, and 
building partnerships. I want to use this framework to discuss 
the importance of the DHS S&T internal labs, as well as our 
vital collaborations with international, interagency, and 
university lab partners.
    First, operational focus. All of the labs that S&T operates 
have strong customer alignment. They seek to identify 
technology options and knowledge products that improve the 
effectiveness, efficiency, and safety of the entire homeland 
security enterprise. For example, our National Urban S&T 
Laboratory, NUSTL, located in Manhattan, is working with New 
York City on the Securing the Cities initiative, in 
coordination with DNDO, to provide a robust detection and 
interdiction capability against radiological threats.
    Our National Biodefense Analysis and Countermeasures 
Center, NBACC, and the Chemical Security Analysis Center, CSAC, 
both conduct science-based threat characterization studies that 
are used by first responders, local communities, the 
Department, and across the interagency for preparedness and 
response planning.
    Next is innovation; the seed corn of our future. At Plum 
Island Animal Disease Center, we are developing an innovative, 
recombinant Foot-and-Mouth Disease vaccine. That is a 
breakthrough capability, affecting our $1 trillion per year 
agricultural industry in the United States. Collaboration 
between one of our DHS Centers of Excellence at Texas A&M, the 
U.S. Department of Agriculture, and DHS is moving the vaccine 
toward licensure, after which a commercial company will sell 
it. Truly a great story.
    By its very design, NBACC is an innovative National 
security asset. Born out of the 2001 Amerithrax attacks, the 
laboratory is developing forensics and threat characterization 
capabilities that were not even contemplated at the time of the 
attacks.
    Finally, building partnerships. As a matter of the highest 
priority, we partner with DHS components, the interagency 
international partners, and academia. We are collaborating 
across a wide variety of critical mission areas. An example of 
this work is the recent Recovery Transformer Project, RecX, 
worked with Idaho National Labs, which demonstrated the ability 
to dramatically reduce down-time in the event of a large-scale 
power outage.
    I would be remiss if I did not discuss several important 
issues with regard to our labs. First is governance and 
sharing. We are working to encourage partnerships so that we 
can better collaborate across the entire laboratory enterprise. 
In these fiscally constrained times, this is both necessary and 
the responsible thing to do.
    Second, the fiscal environment is stressing the balance 
between infrastructure and R&D. We cannot have one without the 
other. The example is the National Bio- and Agro-Defense 
Facility, NBAF, that is intended to replace, modernize, and 
enhance the mission of the current Plum Island facility. Due to 
fiscal constraints, we are evaluating the affordability of 
building this facility; however, we must be careful not to 
mortgage our future in times of austerity and postpone the 
innovative solutions our Nation needs.
    Finally, I would like to share with you some strategies 
that we are using to achieve this long-term vision. A Mission 
Executive Council, or MEC, is composed of the Department of 
Defense, Homeland Security, Department of Energy and the 
intelligence community and it now meets regularly to discuss 
strategic planning for the utilization of the DOE Labs.
    S&T's internal portfolio review process has been allowing 
us to make informed, strategic decisions about how best to use 
the scarce resources that are at our disposal. We will continue 
to use this process in addition to implementing a systems 
approach for all of our S&T programs. Recently we have also 
held the first-ever consolidated laboratory review. All of our 
internal labs reported out on their on-going efforts and we 
began a strategic planning process that included discussion of 
common strategies, best practices, and cost-saving measures. We 
will continue to hold these meetings quarterly to improve our 
lab governance.
    In summary, let me state unequivocally that our S&T Labs 
and those of our partners are National assets. Just as our 
laboratories ushered in the Nuclear Era, we look forward to our 
network of laboratories identifying new and innovative ideas 
and capabilities. With this network as a foundation, we firmly 
believe that achieving our value-added proposition of 
operational focus, innovation, and building partnerships is 
well within reach.
    Thank you for giving me the opportunity to appear here 
today. I look forward to your questions.
    [The prepared statement of Mr. Gerstein follows:]
                Prepared Statement of Daniel M. Gerstein
                             April 19, 2012
                              introduction
    Good morning Chairman Lungren, Ranking Member Clarke, and 
distinguished Members of the committee. I thank you for this 
opportunity to testify today on behalf of the Department of Homeland 
Security (DHS) Science and Technology Directorate (S&T). My testimony 
today will describe the critical role of the laboratories--both DHS S&T 
Laboratories and the external laboratories including those from within 
the interagency, universities, and international partners--in 
supporting the missions of DHS as well as providing technology and 
knowledge solutions for a variety of interagency partners.
    In the 1930s and 1940s, the U.S. National Laboratories ushered in 
the Nuclear Age. In a monumental effort, scientists and engineers 
developed nuclear weapons that led to the end of World War II, served 
as a deterrent during the Cold War stand-off, and continue to provide 
deterrence today. The threats we faced were different, but the 
laboratories that helped the United States prevail in the past remain 
integral to our Nation's security. These facilities have redirected 
their work and joined with other National and international 
laboratories to provide technology solutions for the major threats and 
challenges we face as a Nation today. From threats in cyberspace to 
home-made explosives to biological agents, the network of interagency 
\1\ laboratories leverages American science and technology expertise 
for the benefit and protection of the Nation.
---------------------------------------------------------------------------
    \1\ The term ``interagency laboratories'' is intended as an 
umbrella term to reflect both the DOE-owned National Laboratories and 
the laboratories owned by other Federal agencies such as DHS and DoD.
---------------------------------------------------------------------------
    The interagency laboratories provide invaluable capabilities that 
are unmatched in their relationship with the decision-maker and end-
user. These capabilities are essential to the Department of Homeland 
Security (DHS), the Homeland Security Enterprise (HSE) and our Nation's 
Research and Development (R&D) enterprise. In the current budget 
environment, there will be a temptation to fund near-term priorities 
while sacrificing the future. In my judgment, this would be a mistake. 
On a daily basis, the technologies and knowledge products developed by 
our laboratories are helping the DHS and law enforcement operators 
perform their jobs more efficiently, effectively, and safely. Many of 
these technologies and knowledge products require long-term investments 
to come to fruition.
 dhs s&t value-added proposition for supporting the homeland security 
                               enterprise
    The mission of DHS Science and Technology Directorate is to 
strengthen America's security and resiliency by providing knowledge 
products and innovative technology solutions for the Homeland Security 
Enterprise. Accomplishing this mission requires a robust and vibrant 
system of laboratories.
    Established under the Homeland Security Act of 2002 (HSA), under 
section 302 of the HSA, the Secretary, acting through the Under 
Secretary for Science and Technology, is responsible for, among other 
things, ``conducting basic and applied research, development, 
demonstration, testing, and evaluation activities that are relevant to 
any or all elements of the Department . . . ''\2\ However, the reach of 
DHS S&T extends well beyond the operational components of the 
Department. The S&T Directorate works closely with our partners at all 
levels of the Homeland Security Enterprise, including first responders, 
State, Tribal, territorial, and local governments, and private 
industry.
---------------------------------------------------------------------------
    \2\ 6 U.S.C.  182(4)
---------------------------------------------------------------------------
    To meet the diverse needs of the Homeland Security Enterprise, DHS 
S&T pursues a strategy which is operationally focused, highly 
innovative, and founded on building partnerships between operators and 
scientists and engineers across the dynamic R&D landscape. To this end, 
S&T provides the HSE with strategic and focused technology options and 
operational process enhancements. S&T provides the technical depth and 
reach to discover, adapt, and leverage technology solutions developed 
by Federal agencies and laboratories, State, local, and Tribal 
governments, universities, and the private sector--across the United 
States and internationally.
  gaining operational capacity and innovation through our laboratories
    In the pursuit of high-impact technologies and knowledge products 
for the Homeland Security Enterprise, the S&T Office of National 
Laboratories (ONL) oversees and manages S&T's laboratory operations, 
infrastructure, and construction to support research, testing, and 
evaluation, and technology development needs. These laboratories 
provide specialized technical expertise and world-class research 
facilities to DHS and other partners. Together, S&T's five facilities 
support a diverse portfolio of capabilities to serve the Homeland 
Security Enterprise.
    Built specifically for DHS, the National Biodefense Analysis and 
Countermeasures Center (NBACC) is a one-of-a-kind facility dedicated to 
defending the Nation against biological threats. Located in Frederick, 
Maryland, this 160,000-square-foot facility is a critical resource for 
understanding the risks posed by malicious use of biological agents. 
The capabilities contained in this facility did not exist prior to the 
Amerithrax attacks in 2001. NBACC consists of two centers. The National 
Bioforensic Analysis Center (NBFAC) conducts technical forensic 
analyses in support of attribution investigations. As a partner with 
the Federal Bureau of Investigation, the NBFAC is available to support 
operations 24 hours a day, 7 days a week. The National Biological 
Threat Characterization Center (NBTCC) conducts experiments and studies 
to better understand the risks, vulnerabilities, and hazards from 
current and emerging biological agents. Together, they possess a 
variety of scientific capabilities including genomics, aerobiology, 
bacteriology, virology, toxicology, and bioforensic studies. NBACC was 
recently awarded accreditation as a Biosafety Level 4 (BSL-4) facility, 
making it one of six such facilities in the United States. As a true 
interagency facility, NBACC brings DHS, law enforcement, defense, and 
intelligence community partners together to better defend against high-
priority biological threats.
    The Plum Island Animal Disease Center (PIADC), built in 1954, has 
served the front line of the Nation's defense against diseases that 
could devastate markets for livestock, meat, and other animal products. 
Located off the tip of Long Island, the mission of PIADC crosses three 
areas: Animal disease diagnostics, research and development, and 
education. With the U.S. Department of Agriculture and DHS staff, PIADC 
is capable of diagnosing Foreign Animal Diseases (such as Foot-and-
Mouth Disease) and is working to develop countermeasures to such 
diseases. As a BSL-3 facility, its research programs include developing 
new diagnostic tools and preventatives (such as vaccines and 
antivirals) for Foot-and-Mouth Disease and other Foreign Animal 
Diseases. Since 1971, it has provided training to veterinarians on how 
to recognize Foreign Animal Diseases. Facility upgrades to this aging 
facility are underway to allow the laboratory to meet on-going mission 
requirements in foreign animal disease research. One major recent 
accomplishment includes the completed field-testing of the first 
licensed Foot-and-Mouth Disease vaccine, which could be manufactured in 
the United States.
    The Transportation Security Laboratory (TSL) protects our Nation's 
transportation systems through research, development, testing and 
validation of explosives technology detection systems. A key partner to 
the Transportation Security Administration (TSA) and based outside 
Atlantic City, NJ, testing at TSL helps S&T develop products related to 
explosive detection on persons and in checked baggage and small 
parcels, containerized cargo inspection, conveyance protection, and 
infrastructure protection. The laboratory has a long history of 
success, garnering international recognition for its role in the 
development of standards, protocols, and test articles necessary for 
detection technology assessments. One such success was the Explosive 
Effects and Survivability Group's (EESG) rigorous testing of the 
Hardened Unit Load Device, a blast-resistant aircraft cargo container.
    The National Urban Security Technology Laboratory (NUSTL) serves as 
a Federal technical resource and authority to State and Local First 
Responders and promotes the successful development and integration of 
homeland security technologies into operational end-user environments. 
Located in New York, NY, this unique laboratory provides a testing, 
evaluation, and assessment test bed in a true urban environment. NUSTL 
supports the Domestic Nuclear Detection Office's (DNDO) Securing the 
Cities (STC) initiative, which seeks to design and implement 
architecture for coordinated and integrated detection, and interdiction 
of illicit radiological materials. In this pursuit, NUSTL uniquely 
supports local responders agencies' training and exercise events, 
adding to the overall goal of building self-sufficiency among the 
partners. In fiscal year 2011, NUSTL supported DNDO training of almost 
1,000 students in 24 Preventive Radiological and Nuclear Detection 
(PRND) classes. In addition to training support, NUSTL has tested over 
6,000 radiation detectors for STC partners and other emergency 
responders, ensuring that each of these detectors works as specified. 
Between NUSTL's training support, technology testing, and the 
development of capabilities such as the Radiological Emergency 
Management System (REMS), the NUSTL Lab is working to build a first-
response capability in New York City which is uniquely capable of 
preventing and responding to radiological events and could serve as a 
model for other large cities. Staff at NUSTL also develop low-cost 
detection technologies such as the ``thin profile dosimeter,'' for 
which DHS was granted a patent.
    The Chemical Security Analysis Center (CSAC) provides a scientific 
basis for the awareness of chemical threats and the attribution of 
their use. Based in Edgewood, MD, CSAC draws upon expertise in chemical 
defense, chemical agents, and toxic industrial chemicals. The Center 
analyzes chemical threat characterization data, including toxic 
industrial chemicals and chemical warfare agents, and integrates 
science-based risk assessments using physical, chemical, and 
toxicological information that is widely used. In an emergency, CSAC 
can support other agencies and organizations with expert analysis. For 
example, with the recent ``Jack Rabbit'' project, CSAC scientists 
gathered scientifically validated data on an accidental release of 
toxic inhalation hazards for chemical release models, shelter-in-place 
guidance, hazard assessment at rail transit and chemical storage 
facilities, and improved planning, response, and mitigation strategies.
    A potential replacement for the aging PIADC is the National Bio- 
and Agro-Defense Facility (NBAF), which is currently awaiting 
construction in Manhattan, Kansas. Authorized for construction under 
the Department of Homeland Security Appropriations Act, 2009 (Pub. L. 
110-329, Div. D. Sec. 540), NBAF was expected to be fully offset by the 
proceeds from the sale of Plum Island. Since then, the financial 
landscape has changed significantly. Today, we face the overall funding 
constraints of the Budget Control Act of 2011 (Pub. L. 112-25), which 
are impacting both the Department and S&T's budgets. Additionally, due 
to the current economic climate, the sale of Plum Island is not likely 
to provide adequate funds in the foreseeable future requiring 
appropriated funds for construction, and estimated construction costs 
for NBAF have increased by more than 30 percent as a result of 
construction delays and additional safety engineering requirements. At 
the same time, Congressional appropriations have not kept pace with the 
costs to build the facility expeditiously.\3\ Given these fiscal 
challenges while considering the evolving security threats to U.S. 
agriculture, we have asked the National Academy of Sciences (NAS) to 
convene an expert committee, in conjunction with the interagency, to 
conduct a scientific assessment of the requirements for a large-animal 
foreign and emerging diseases research and diagnostic laboratory in the 
United States.
---------------------------------------------------------------------------
    \3\ In fiscal year 2012, Congress appropriated $50 million of the 
$150 million the administration requested for NBAF.
---------------------------------------------------------------------------
    While there is no current large animal Biosafety Level 4 (BSL-4) 
facility like NBAF operating in the United States, the challenge of 
building NBAF highlights the dilemma faced by all Federal Government 
research and development (R&D) organizations as they balance funding 
priorities for infrastructure and for research in a constrained budget 
environment. Effective innovation is the core of the U.S. economy and 
U.S. National security; it requires investment in both facilities and 
research and development (R&D). The United States must robustly fund 
both of these activities in order to maintain the capability needed to 
respond to the diverse threats against which the DHS is charged to 
protect the United States.
    To maximize the effectiveness of our labs, DHS S&T has been working 
diligently to bring these diverse facilities together to develop a 
shared sense of purpose for this critical mission; this will ensure a 
higher degree of focus and customer alignment. In January, leadership 
from each of the labs came together for the first time to discuss 
development of a corporate vision for the S&T Laboratories. We have 
already seen important results from this meeting in just the few months 
since. For example, although the communities they serve are largely 
different, NUSTL and CSAC Labs have found common interest in testing 
chemical detectors in a first responder environment. We are currently 
developing a corporate vision for our labs which includes fostering 
common best practices. These kinds of collaborative relationships are 
now explicitly part of the S&T focus, and we will continue to provide 
opportunities and oversight to encourage superior collaboration.
               building key partnerships outside dhs s&t
    Building upon our significant internal laboratory capabilities, we 
have developed a network of external partners which includes DOE and 
other interagency, university (through our DHS Centers of Excellence 
(COE) program) and international laboratories which provide necessary 
collaboration and important economies in these lean fiscal times. They 
also serve as a foundation for achieving our value-added proposition.
Department of Energy (DOE) Laboratory Partnerships
    The DOE National Laboratories play a critical role in assisting S&T 
in providing innovative science-based solutions to complex homeland 
security problems. S&T selects the best performer-based technology 
projects relying on a variety of factors, including the type of project 
deliverable (e.g. prototype, knowledge product, or demonstration), 
technical area of expertise, and cost.
    The DOE National Laboratories are particularly well-suited to 
provide multi-disciplinary research and development capabilities to 
solve complex National security problems. The National Labs possess a 
legacy of excellence in scientific discovery, including 48 Nobel Prize 
winners since 1977 and over 800 R&D 100 awards. The world-class 
facilities that make up the National Labs allow for multi-disciplinary 
research, including leading-edge work with: Advanced scientific 
computing research, material sciences, basic energy sciences, 
biological and environmental research, high-energy physics, and nuclear 
physics. Certain labs possess unique facilities and infrastructure that 
are not found in the private sector. These capabilities include super-
computing for biodefense activities and testing for certain 
characteristics of home-made explosives.
    The focused work of the DHS-DOE National Laboratory network has 
introduced significant technology innovations and knowledge products 
for the Homeland Security Enterprise. For example, innovations from 
Lawrence Livermore National Laboratory (LLNL) and Sandia National 
Laboratory (SNL) are spearheading explosives trace detection systems 
used to more rapidly screen passengers and cargo at airports. Advances 
in the development of a resilient electric grid are being performed 
with the collaboration of Oak Ridge National Lab (ORNL), Argonne 
National Lab (ANL), and Pacific Northwest National Lab (PNNL). The 
recent, highly successful deployment and demonstration of the Recovery 
Transformer Project (RecX) stands to dramatically reduce downtime in 
the event of a large-scale power outage; a highly valuable technology 
tool developed by Idaho National Lab (INL). These technologies and many 
other innovations from our National Labs are helping the Homeland 
Security Enterprise become more resilient, efficient, and effective in 
executing the DHS missions.
    Since joining DHS S&T in August 2011, I have been meeting with our 
partners at the DOE National Labs. At a recent trip to Sandia National 
Laboratory, I saw a demonstration of their capabilities with home-made 
explosives mitigation, cybersecurity, cutting-edge biological agent 
characterization, and many others. I have also met with Pacific 
Northwest National Lab, Lawrence Livermore National Lab, and Oak Ridge 
National Lab to hear about the work they are doing on behalf of DHS and 
to discuss further collaborations. I am preparing to attend 
demonstrations at Oak Ridge National Laboratory and also at DOD's MIT 
Lincoln Laboratory this year. These visits are not just for information 
sharing and interagency discussion. Visits like this help S&T 
leadership make informed decisions about where our investments are able 
to ensure the biggest impact and the most effective transition to the 
field.
Other Laboratory Partnerships
    No discussion of research and development laboratories would be 
complete without a mention of the other laboratories that support the 
HSE. DHS also relies on collaboration and support from laboratories 
across the interagency, such as those within the Department of Defense 
(e.g. laboratories within the Services) and National Institutes of 
Standards and Technology (NIST) within the Department of Commerce. 
Recent meetings with the Army's Picatinny Arsenal in New Jersey have 
focused on the development of a software interface that will allow the 
current families of command-and-control software to communicate between 
State and local fusion centers, first responders, and the military 
support to civil authorities components to more readily share critical 
information in times of disaster.
    The S&T Centers of Excellence (COE) also provide the Department 
direct and important access to laboratories within academia. The S&T 
Office of University Programs (OUP) coordinates these valuable 
partnerships with laboratories across the Nation. These diverse Centers 
of Excellence provide access to cutting-edge capabilities in such areas 
as cybersecurity, biodefense, and disaster mitigation to name a few. 
Recent efforts have provided important operational capacity as well as 
highly innovative solutions that have had an immediate impact. Examples 
include the Coastal Wave Surge Model from the Coastal Hazards Center at 
Jackson State University and UNC-Chapel Hill. Recently, this COE 
allowed the U.S. Coast Guard to track the likely storm surge and wave 
impact of Hurricane Irene and quickly share those data with operational 
partners.
    A final sector of laboratory collaboration extends beyond the 
borders of the United States. Leveraging the expertise and capabilities 
of our international partners allows us to not only jointly shoulder 
the financial burden but also benefit from the unique perspective of 
our allies. For example, DHS S&T is pursuing agreements with the 
governments of Canada and Australia to collaborate on work with 
agricultural biodefense. These agreements not only improve information 
sharing and the exchange of best practices, they provide a minimum 
response mechanism as the United States develops its own BSL-4 
agriculture capability. In addition to biodefense, DHS S&T engages 
internationally on diverse priority areas facing the Homeland Security 
Enterprise.
supporting the laboratories and bringing value to the homeland security 
                            enterprise (hse)
    Funding research at our various laboratory partners while managing 
the S&T internal laboratories represents a significant investment from 
DHS. The direct reimbursement from S&T to our external lab partners and 
the maintenance, operation, and research costs of our internal labs was 
$241.6 million ($100 million for S&T Lab operations, $38 million for 
research and, $103.6 million for DOE) in fiscal year 2011. Under the 
Department's fiscal year 2012 appropriation, the S&T R&D budget was cut 
by 56 percent, resulting in eliminating over 100 on-going projects, 
overall. Despite all of the budget turbulence, the maintenance and 
operations funding for the S&T internal laboratories has remained 
relatively constant.
    The value of these laboratories has been recognized by many DHS 
components as well, which have been keen to take advantage of the 
technical expertise and reach offered by these facilities. For fiscal 
year 2011, DHS invested over $300 million at DOE Labs. The three 
largest component investors for fiscal year 2011 were DHS S&T, the 
Domestic Nuclear Detection Office (DNDO), and Customs and Border 
Protection (CBP). These investments partially support laboratory 
overhead costs for research activities.
    The fiscal year 2013 budget request includes funding for critical 
Research and Development (R&D) programs to improve homeland security 
through state-of-the-art solutions and technology. The proposed R&D 
funding level in fiscal year 2013 is commensurate with that in fiscal 
year 2011 and will enable S&T to support the needs of front-line 
operational components, while conducting R&D work in priority areas 
such as: Explosives (aviation security); Bio-Threat Security; 
Cybersecurity; and First Responders. Programs receiving funding were 
carefully chosen to ensure high-priority initiatives maintain adequate 
funding. The increases are as follows:
  <bullet> Biological defense--$58.2 million.--S&T will focus on the 
        development of tools to detect either an intentional or natural 
        biologic event, with a focus on rapid point-of-care bio-
        diagnostic technologies, cost-effective indoor sensors, 
        bioforensics, and mandated CBRN risk assessments.
  <bullet> Explosives defense--$44.4 million.--S&T's efforts will 
        concentrate on technologies that assist TSA and other partners 
        in detecting explosives, with an emphasis on Home-Made 
        Explosives (HMEs) and other advanced threats.
  <bullet> Cybersecurity--$18.1 million.--S&T's Cybersecurity Division 
        is supporting the White House Comprehensive National 
        Cybersecurity Initiative with a variety of unclassified 
        research programs. S&T is the only funding agency in the U.S. 
        Government for unclassified cybersecurity research that 
        supports the public and private sectors, and the global 
        internet infrastructure.
  <bullet> First Responders--$23.2 million.--As the only Federal 
        organization that provides technical assistance to the First 
        Responder community, S&T will continue efforts to identify 
        technologies, formulate standards, and develop knowledge 
        products that enhance the productivity, efficiency, and safety 
        of first responders. Priority investment areas include: 
        Interoperable communications, data sharing systems, field-ready 
        detection equipment, and enhancements to protective gear.
    The balance of fiscal year 2013 funding level will allow S&T to 
resume R&D work in important areas that received little or no funding 
in fiscal year 2012 such as: Border Security, Chemical Attack 
Resiliency, Counterterrorism R&D, and Information Sharing and 
Interoperability.
       building a collaborative, cross-cutting laboratory network
    The importance of building collaborative partnerships between the 
diverse laboratories in this country cannot be overstated. In the 
pursuit of innovative products which maximize our use of resources, DHS 
S&T is seeking interagency collaboration. In fact, the increasing pull 
on the same resources led the major National security departments and 
agencies--DHS, DOE, DoD, and the Office of the Director of National 
Intelligence (ODNI)--to form the Mission Executive Council (MEC), an 
executive-level forum at which strategic planning for the utilization 
of the DOE National Laboratory capabilities is coordinated and 
discussed.
    The impetus for forming the council was to take collective stock of 
the technical capabilities required by the principal departments with 
National security missions (DoD, DHS, DOE, and ODNI) and to present 
them to DOE as a whole. Within the forum, the Mission Executive Council 
was developed to engage the charter members, fostering a better 
understanding of long-term mission needs and serving as an opportunity 
to partner with DOE to identify and preserve the mission essential 
capabilities that are stewarded by the National Laboratory Complex.
    By collectively identifying joint scientific and technical 
requirements, we believe we are securing in an efficient manner the 
necessary resources to conduct our respective missions. The increased 
visibility across the National security community of our joint needs in 
response to evolving threats fosters a sounder and more efficient 
planning and operating environment. DHS's participation is directed by 
the Deputy Secretary of DHS along with the leadership of the Under 
Secretary of DHS S&T and the Director of DNDO.
                               conclusion
    Our Nation's laboratories provide an invaluable capacity that 
assist in evolving our understanding of current and future homeland 
security risks and opportunities, as well as creating new and 
innovative capabilities, knowledge products, and process enhancements 
that will improve the Department's operational capacity today and in 
the future. Further, our laboratories allow us to share the costs, 
benefits, and ideas that are imperative to our National and homeland 
security and are in the very spirit of innovation and scientific 
discovery.
    Our experiences are evidence that we must continue to invest in 
both the infrastructure and the science as we rise to meet the threats 
and challenges of the 21st Century that we face today and in the 
future.
    Just as the National Laboratories ushered in the Nuclear Era, we 
look forward to our system of laboratories bringing forward new ideas 
and capabilities critical to the enduring security of our Nation. We 
look forward to continuing to expand the network of laboratories 
including internal S&T, DOE, other interagency, university and 
international facilities. With this network as a foundation, we firmly 
believe that achieving our value-added proposition--operational focus, 
innovative, building partnerships--in support of the Homeland Security 
Enterprise is within reach.
    In this pursuit, I am honored to serve in a leadership position at 
the DHS S&T Directorate and look forward to your questions.

    Mr. Lungren. Thank you very much, Dr. Gerstein.
    Dr. Gowadia, please.

   STATEMENT OF HUBAN A. GOWADIA, DEPUTY DIRECTOR, DOMESTIC 
   NUCLEAR DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Ms. Gowadia. Good morning, Chairman Lungren and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to appear before you today with Doctors Gerstein 
and----
    Mr. Long. Ma'am, is your microphone on? It is? Can you pull 
it a little closer? Thank you.
    Ms. Gowadia. Is that better?
    Thank you for the opportunity, again, to appear before you 
this morning with Doctors Gerstein and Morgan to discuss the 
important partnership the DNDO has with the Department of 
Homeland Security and Department of Energy National 
Laboratories. DNDO works closely with S&T to facilitate work 
with the laboratories to help deliver critical homeland 
security capabilities, bringing their unique expertise, skills, 
and infrastructure to bear on our nuclear detection and 
forensics mission.
    In addition, DNDO's strong, in-house, technical expertise 
on nuclear matters provides an important foundation for 
optimizing our work within National Labs. While my written 
testimony provides a larger overview of the range of programs 
we have at the laboratories, this morning I would like to 
highlight just a few illustrative examples.
    I would like to begin with our long-standing partnership 
with the Department of Homeland Security's National Urban 
Securities Technology Laboratory, or NUSTL. Although the lab 
participates in multiple DNDO efforts, primarily we leverage 
NUSTL's strong ties to local law enforcement agencies in the 
New York City region to support our Securing the Cities 
program. Here, we collaborate with State and local partners to 
design and implement the regional architecture to detect and 
interdict illicit nuclear materials.
    As I am sure you are aware, much of our Nation's expertise 
in nuclear weapons and technical nuclear issues resides 
primarily at the DOE National Laboratories. As such, they serve 
as important partners in preventing nuclear terrorism. At DNDO, 
we recognize the labs' strength in analysis and long-term 
research, particularly in addressing complex problems that have 
high technical risk and are not immediately attractive to 
industry for development.
    DNDO sponsors research and development activities across 
the National Laboratory Complex that have resulted in 
significant technical gains by way of new, more capable 
detector materials as well as cutting-edge technologies. For 
instance, Lawrence Livermore led a team that included Oak Ridge 
National Laboratory, Fisk University, and R&D, in the 
development of strontium iodide. This is a new scintillator 
that won an R&D 100 Award and will allow us to build cheaper 
detectors with enhanced resolution, thereby increasing our 
deployable capabilities.
    Over time, DNDO has steadily improved its specimen 
evaluation and red team capabilities by leveraging our enduring 
partnership with the laboratories. We rely on the DOE National 
Labs for these assessment activities since they are the 
Nation's repositories of special nuclear material and have the 
expertise, infrastructure, and ability to handle these 
materials, both in significant quantities and in threat-
relevant configurations.
    Additionally, in order to appropriately assess the global 
nuclear detection architecture, DNDO has engaged Los Alamos 
National Laboratory to develop the Probabilistic Effectiveness 
model. This allows us to simulate adversary tactics and 
capabilities and so we are able to define strategies to 
mitigate gaps and vulnerabilities in the architecture. DNDO is 
also responsible for supporting the Nuclear Detection 
Operations of our Federal, State, and local partners.
    Sandia National Laboratory plays a critical role in these 
efforts. Sandia scientists have developed the DHS isotope ID; 
this is an algorithm that is used by National spectroscopists 
to analyze radiation spectra and assist our law enforcement 
partners in the alarm adjudication process.
    In recognition of the Nation's dwindling nuclear 
experience, DNDO supports the intellectual infrastructure at 
the laboratories. We lead interagency efforts to restore and 
maintain a highly-qualified nuclear forensics workforce by 
collaborating with labs on a National, nuclear forensics 
expertise development program.
    Now, these are just a few examples of our important nuclear 
security work at the National Laboratories. I would have liked 
to share highlights on every lab with which we have 
collaborative efforts. But in the interest of time, I will 
suffice it to say that we have efforts across the entire 
National Laboratory Complex to ensure that they contribute to 
our mission. Recognizing their critical role in our nuclear 
security mission, we have obligated a significant portion of 
our budget to the laboratories for various projects on nuclear 
detection and forensics.
    In recent years, diminishing budgets have regrettably 
resulted in the commensurate decrease in funds we have invested 
at the labs. Large cuts in our transformational and applied 
research budget, as well as our systems acquisition budget, 
have negatively impacted the number and size of projects that 
we are able to fund. However, we continue to use our 
constrained resources as efficiently as possible to address 
critical homeland and, particularly, nuclear security needs.
    In conclusion, I would like to emphasize that DNDO has a 
robust and effective working partnership with the DHS and the 
DOE National Laboratories.
    Thank you, again, Chairman Lungren, Ranking Member Clarke, 
and distinguished Members of the subcommittee, for this 
opportunity to be with you this morning and talk about our 
collaborative efforts at the laboratories.
    [The prepared statement of Ms. Gowadia follows:]
                 Prepared Statement of Huban A. Gowadia
                             April 19, 2012
    Good morning Chairman Lungren, Ranking Member Clarke, and 
distinguished Members of the subcommittee. I am pleased to testify 
today with my colleague from the Science and Technology Directorate 
(S&T), Deputy Under Secretary Daniel Gerstein. I appreciate the 
opportunity to highlight the important work executed by the Department 
of Homeland Security (DHS) and Department of Energy (DOE) laboratories 
to support and implement the global nuclear detection architecture 
(GNDA) and advance technical nuclear forensics.
    As you know, the Domestic Nuclear Detection Office's (DNDO) unique 
mission requires coordination with multiple intra- and interagency 
partners to develop and enhance the GNDA; develop technical nuclear 
detection capabilities; measure detector system performance; ensure 
effective response to detection alarms; advance and integrate nuclear 
forensics efforts; conduct transformational research and development 
for nuclear detection and forensics technologies; and implement the 
domestic portion of the GNDA. Countering nuclear terrorism is a whole-
of-Government challenge, and DNDO works with Federal, State, local, 
Tribal, international, and private-sector partners to fulfill this 
mission.
                dndo work with s&t and dhs laboratories
    Within DHS, work at DHS National Laboratories is coordinated 
through S&T's Office of National Laboratories. DNDO works closely with 
S&T on operational support, test, and evaluation efforts relevant to 
the mission of both organizations, including evaluating nuclear 
detection capability of existing explosives detection systems and non-
intrusive inspection radiography systems that can be used for nuclear 
and contraband. DNDO and S&T leverage joint needs and efforts 
efficiently through established DHS processes and integrated product 
teams.
    A good example of our coordination is the Securing the Cities (STC) 
program. The STC program, initiated in the New York City region, is 
designed to enhance the Nation's ability to detect and prevent a 
radiological or nuclear attack in the highest-risk cities. In order to 
perform nuclear detection-focused activities, DNDO has worked through 
S&T to engage with the National Urban Security Technologies Laboratory 
(NUSTL), formerly the Environmental Measurements Laboratory, to support 
STC in the New York City region. With support from the DOE Brookhaven 
National Laboratory, NUSTL ensures the sustainment of nuclear detection 
equipment purchased for STC operational partners. This includes the 
initial receipt of detection equipment, operations checks, and 
distribution of STC equipment for all regional partners. NUSTL provides 
training equipment for radiation detection courses and radiological 
sources for training and exercise purposes. NUSTL also supports the STC 
program by providing for receipt, storage, and shipping of training 
materials, and provides subject matter expertise to the STC committees.
    Beyond STC, NUSTL also assists with DNDO's technology test and 
evaluation activities by providing test scientists and technical 
expertise supporting test plan development and execution. Most 
recently, NUSTL staff supported the Gryphon test campaign with a test 
scientist to help prepare and conduct the evaluation of airborne 
radiation detection equipment.
    Additionally, DNDO has collaborated with S&T's Transportation 
Security Laboratory (TSL) to evaluate the potential of existing 
explosives detection systems for detecting radiological or nuclear 
threats in baggage or small cargo at airports. DNDO worked with TSL to 
utilize their expertise and facilities for testing equipment used in 
airport environments. TSL focuses on explosives detection, and their 
specialized facilities, labs, and knowledgeable teams have proved a 
good partner for this effort.
                dndo work with doe national laboratories
    Much of the Nation's expertise in nuclear weapons and technical 
nuclear issues resides at the DOE National Laboratories and they serve 
as an important partner in preventing nuclear terrorism. This work is 
also coordinated through the S&T Office of National Laboratories. DNDO 
utilizes the National Laboratories across its mission space to execute, 
support, advance, and analyze our work on nuclear detection and 
forensics, as appropriate. My testimony outlines the funding spent at 
the National Laboratories and highlights some of the important, 
collaborative work conducted over the past few years.
Architecture planning
    DNDO engages with the National Laboratories to study the 
architecture and inform the development of plans for future 
implementations of the GNDA. This includes studies and analyses of the 
threat, adversaries, technical capabilities, and architecture pathways. 
This work informs the prioritization and implementation of the nuclear 
detection architecture by providing a framework for determining our 
ability to reduce risk and efficiently deploy resources.
    The National Laboratories support DNDO's efforts to analyze and 
improve the GNDA through the development of specific architecture 
studies, Concept of Operations analyses, and detector modeling efforts. 
National Laboratory support of DNDO architecture studies typically 
focuses on specific programs, operating environments, modes of 
transportation, and/or specific threats and directly feeds into and 
supports the ensuing solutions development process. The National 
Laboratories also provide important inputs and support for annual and 
Congressionally-mandated architecture documentation, like the Joint 
Interagency Annual Report on the GNDA and the Radiological and Nuclear 
Terrorism Risk Assessment.
Nuclear Detection Research and Development
    Part of DNDO's mission includes leading and conducting research and 
development activities for nuclear detection and forensics. The 
National Laboratories play a critical role in providing innovative 
ideas, establishing technical feasibility, developing prototype 
systems, and supporting characterization and analysis for 
transformational and near-term research and development projects.
    Annually, DNDO releases a competitive Call for Proposals (CFP) for 
Exploratory Research to the National Laboratories and other Federal 
centers. The competitive CFP solicits proposals that may lead to 
dramatic improvements in National capabilities for nuclear/radiological 
detection and forensics. Topics areas for this research are defined 
from prioritized gaps in the GNDA, technology needs defined by DNDO and 
DHS operational components, and remaining technology hurdles discovered 
in prior research. National Laboratories are encouraged to compete for 
project funding early-stage exploratory research. National Laboratories 
have contributed to advances in many technical areas including detector 
materials development, passive detection techniques, neutron detection 
and helium-3 replacement technologies, shielded special nuclear 
material (SNM) detection, modeling and algorithms, and nuclear 
forensics. In fiscal year 2012, DNDO is supporting 11 Exploratory 
Research projects at the National Laboratories, focusing on early stage 
and basic research that can be developed into new technologies for 
improving nuclear detection capabilities or operations.
    The National Laboratories also provide technical expertise, 
technology characterization planning, and data analysis support to 
DNDO's Advanced Technology Demonstration (ATD) Program. This program 
strives to take innovative technology that has been proven in a 
laboratory environment, often by a National Laboratory, from a 
laboratory bench-top prototype into a full-scale performance test unit, 
and characterize its performance in a simulated operation environment. 
The National Laboratories have played a major role in each of the eight 
ATD projects initiated to date. We recognize and leverage the fact that 
they have the proper mix of technical expertise and scientific rigor to 
assist in the development and characterization of advanced technology.
Program Support for Deployments
    Another important area of on-going work with National Laboratories 
is in the field of program support. DNDO uses National Laboratories to 
provide specialized technical support services. For example, DNDO has a 
long and continuing relationship with the Pacific Northwest National 
Laboratory (PNNL) to support deployment and calibration, as well as 
analyses, tests, and developmental technology studies for the Radiation 
Portal Monitor (RPM) program. In this role, PNNL has supported the RPM 
program throughout the purchase and deployment of current-generation 
systems and DNDO has further leveraged the laboratory's expertise to 
provide analyses of possible improvements, life extensions, and other 
related work on RPMs. Similarly, other National Laboratories also 
provide work to develop and test relevant technologies.
Test, Evaluation, and Standards
    Testing and evaluation of nuclear detection systems is a key area 
where DNDO leverages DOE National Laboratory facilities and expertise. 
For test infrastructure, DNDO has worked closely with DOE National 
Laboratories and other DOE facilities. Our standards-based testing must 
be augmented with Government-sponsored performance and scenario-based 
testing against threat quantities of special nuclear materials. This 
type of testing can only be conducted at specially-designed and secure 
facilities. To this end, DNDO constructed the Radiological and Nuclear 
Countermeasures Test and Evaluation Complex at the Nevada National 
Security Site. This facility was designed to be the Nation's premier 
test complex for evaluating radiological and nuclear detection systems 
against significant quantities of highly-enriched uranium and 
plutonium. DNDO also maintains testing capabilities across the National 
Laboratory complex to fulfill unique developmental, performance, and 
operational testing needs.
    For example, DNDO's collaboration with the European Union's (EU) 
Joint Research Center (JRC) and the International Atomic Energy Agency 
on a 3-year effort known as the Illicit Trafficking Radiation 
Assessment Program (ITRAP+10) to survey the world market for 
radiological and nuclear detection systems is supported by several DOE 
National Laboratories. Collectively, the United States and our European 
partners will test nearly 100 devices across nine different categories 
of detection equipment. To date, devices have been proposed for testing 
by 27 vendors from 11 countries. Testing is underway at the EU-JRC's 
facility in Ispra, Italy, and at the Savannah River National 
Laboratory, Oak Ridge National Laboratory (ORNL), and PNNL. ITRAP+10 
will provide the opportunity to ensure that standards for radiological 
and nuclear detection devices are clearly defined, comprehensive, and 
realistic, and promote greater homogeneity in United States and 
international detection standards. Once completed, the tests will 
provide Federal, State, and local law enforcement valuable information 
about which radiological detection and identification instruments can 
best serve their operational needs. In addition, manufacturers will 
gain insights that may allow them to improve devices that are already 
available or in development.
    In addition, DNDO's Graduated Radiological/Nuclear Detector 
Evaluation and Reporting (GRaDER) Program enables manufacturers to 
have their commercial, off-the-shelf radiological and nuclear detection 
equipment tested by various DOE National Laboratories that have been 
accredited by the National Institute of Standards and Technologies 
under the National Voluntary Laboratory Accreditation Program. The 
purpose of the GRaDER program is to determine whether these radiation 
detectors comply with National consensus and technical capability 
standards adopted by DHS, allowing our operational partners in Federal, 
State, local, and Tribal agencies to make better-informed decisions on 
the procurement of radiological and nuclear detection equipment. DOE 
National Laboratories are important partners in this effort.
Training, Exercise, and Assistance Support
    DNDO's training, exercise, and assistance activities use National 
Laboratories to help establish standards and templates for GNDA 
activities as implemented by State and local entities. These standards 
and templates will make it possible for the GNDA to be implemented in a 
consistent manner across the country, while allowing flexibility for 
local law enforcement to tailor their programs to meet their needs. 
Once established, these standards and templates will be sustained by 
DNDO and the National Laboratories.
Analyses and Reachback
    DNDO's Joint Analysis Center (JAC) provides a centralized support 
capability for the GNDA and its technical underpinnings rely on the 
expertise at DOE weapons laboratories. The JAC is a 24/7 information 
and analysis center that provides for situational awareness of the 
deployed nuclear detection architecture, timely information reporting, 
and facilitation of technical support for alarm adjudication and 
resolution. The JAC relies on the National Laboratory-based Secondary 
Reachback (SRB) Program to provide expert advice and analysis in 
support of detection operations and adjudication of alarms. SRB 
scientists also coordinate with the DOE Triage program to assist in the 
adjudication of detection alarms. The integration of both programs 
ensures efficiency and consistency by providing technically qualified 
experts available through Triage and SRB to support operations in the 
field. The JAC also relies on the Nuclear Assessment Program conducted 
at the National Laboratories to provide expert technical advice on 
efforts to define, monitor, and update the evolution of the GNDA.
Red Team Support
    DNDO's Red Team activities provide a valuable service for DNDO and 
our partners, allowing evaluation and assessment of deployed assets and 
capabilities in an operational environment against realistic threat 
scenarios. DNDO uses DOE National Laboratory expertise to provide 
technical, operational, and threat device support for Red Team efforts.
    For example, DNDO has engaged Lawrence Livermore National 
Laboratory (LLNL) to provide operational support to our Red Team's 
overt and covert testing program that assesses various operational 
elements of the GNDA. LLNL provides subject matter expertise in 
detector technology and assists with health physics and source handling 
to ensure all assessments are conducted in a manner which is safe for 
the law enforcement officers, the assessment team and the general 
public.
    Likewise, DNDO has engaged ORNL to research, develop, manufacture 
and deploy unique radiological signature test devices with unique 
nuclear signatures for use in our overt and covert testing program. 
These test devices allow DNDO's Red Team efforts to present realistic 
threat signatures to various operational elements of the GNDA, as well 
as enabling opportunities for technology test and evaluation scenarios 
against threat sources. These test devices present operators with 
radioactive threat signatures that are not normally seen in daily 
operations and provide a unique opportunity to exercise the 
adjudication process from the point of detection up through various 
levels of analysis and response.
    Finally, DNDO engaged Los Alamos National Laboratory (LANL) to 
develop the Probabilistic Effectiveness Methodology (PEM). PEM is a 
software modeling and simulation tool that replicates adversary 
motivation, capabilities, and intent; adversary transportation pathways 
(air, land, and sea), the performance of detector architectures, and 
individual detector performance. PEM allows for the identification of 
GNDA gaps and vulnerabilities from an adversary's perspective, modeling 
various elements of the GNDA and simulating adversary action. In 
addition, the PEM model can be used to reflect changes in the GNDA and/
or adversary capabilities that may impact those gaps and 
vulnerabilities.
Technical Nuclear Forensics
    The field of technical nuclear forensics involves examining 
materials recovered from radiological or nuclear events of an illicit 
or hostile nature in order to determine their character and origin. 
Technical nuclear forensics (TNF) enhances deterrence through improved 
nuclear security and augments effective National response to such 
incidents. TNF provides clues to identification and prosecution of 
illicit smuggling networks and aids attibrution of planned and actual 
attacks. The DNDO National Technical Nuclear Forensic Center mission is 
four-fold: (1) Provide centralized stewardship for planning, 
assessments, and integration of all Federal nuclear forensics and 
attribution activities, (2) advance the capability to perform nuclear 
forensics on nuclear and other radioactive materials in a pre-
detonation (intact) state, (3) through its expertise development 
efforts, ensure a robust and enduring technical nuclear forensics 
workforce and pipeline, and (4) maintain the National Strategic Five-
Year Plan for Improving the Nuclear Forensics and Attribution 
Capabilities of the United States and annually submit the corresponding 
Joint Interagency Annual Review. To fulfill this mission, the United 
States Government, and particularly DNDO, relies upon the pre-eminent 
expertise residing in eight DOE National Laboratories and two standards 
development laboratories to conduct nuclear forensics analyses and 
improve methods through research and development. Laboratory 
measurements determine physical, chemical, and isotopic properties of 
materials to provide insights about the material processing history, 
potential geographic origins, transport pathways, and intended use of 
the materials.
    As mandated in the Nuclear Forensics and Attribution Act, DNDO also 
leads an interagency effort to restore the expertise pipeline and 
provide a stable foundation to develop and maintain a highly-qualified 
nuclear forensics workforce through the National Nuclear Forensics 
Expertise Development Program (NNFEDP). This program is creating an 
academic pathway from undergraduate to post-doctorate study in a 
variety of nuclear and geochemical science specialties directly 
relevant to technical nuclear forensics, such as radiochemistry, 
nuclear engineering and physics, isotope geochemistry, materials 
science, and analytical chemistry. The NNFEDP addresses a pressing need 
to grow the next generation of scientists in these critical fields 
which have experienced a decline in recent decades. The program 
promotes an interdisciplinary approach that emphasizes collaboration 
among academic programs, universities, and the National Laboratories, 
to include providing nuclear forensics-related research and mentorship 
opportunities at the DOE National Laboratories to students at the 
undergraduate, graduate, and post-doctorate levels.
                        interagency coordination
    In order to effectively and efficiently use resources at the DOE 
National Laboratories, coordination across the USG is essential. While 
coordination and collaboration with partners has been on-going since 
DNDO's inception, the Mission Executive Council (MEC) was created in 
2010 as a forum for USG to identify and plan strategic science, 
technology, and engineering (ST&E) capabilities at the National 
Laboratories. The MEC meets regularly with representatives from across 
the interagency to ensure that the finite resources at the laboratories 
are managed appropriately and work is aligned with the most pressing 
National security needs. S&T and DNDO both have representation on the 
MEC to facilitate interagency identification of joint scientific and 
technical requirements that support National security efforts.
         overview of dndo funding at doe national laboratories
    DNDO has obligated a considerable amount of our funding to the 
National Laboratories for important work on the GNDA and technical 
nuclear forensics over the past 6 fiscal years. In fiscal year 2012, 
DNDO expects to obligate approximately $43 million to DOE National 
Laboratories, including current-year and prior-year appropriations 
funds. This decrease in funding from prior years is due to significant 
budget reductions in fiscal year 2012, especially in the 
Transformational Research and Development and Systems Acquisition 
areas. In recent years, the majority of funding obligated to DOE 
National Laboratories has been concentrated on efforts to support 
research, development, testing, and evaluation, as well as operations 
support activities, in contrast to earlier funding dedicated to program 
support for deployment. These investments partially support laboratory 
overhead costs for research activities.
                              path forward
    As I previously mentioned, coordination is a key element of our 
work with the DHS and DOE National Laboratories. This coordination 
extends to our planning and prioritization of projects. Our approach at 
DNDO is evolving at every level to be disciplined and rigorous, while 
prioritizing our work to make the best use of limited resources. We 
seek to use the available expertise at our laboratories to implement a 
responsive, agile nuclear detection architecture and strengthen our 
nuclear forensics capabilities. While overall funding to DOE National 
Laboratories from DNDO may be decreasing, due to present fiscal 
realities, they remain a vital asset for National security research, 
development, analyses, testing, and program support.
    Chairman Lungren, Ranking Member Clarke, I thank you for this 
opportunity to discuss our work with DHS and National Laboratories and 
the progress of DNDO. I am happy to answer any questions from the 
subcommittee.

    Mr. Lungren. Thank you very much.
    We have been called for votes but I am going to see if we 
could get Dr. Morgan to give his first 5-minute statement, if 
that is alright. Then, when we break we will come back and 
start with Ms. Clarke and her opening statement and then go to 
your questions--go to questions.
    Dr. Morgan, please.

     STATEMENT OF DANIEL MORGAN, SPECIALIST IN SCIENCE AND 
TECHNOLOGY POLICY, RESOURCES, SCIENCES, AND INDUSTRY DIVISION, 
                 CONGRESSIONAL RESEARCH SERVICE

    Mr. Morgan. Mr. Chairman and Members of the committee, 
thank you for the opportunity to testify today.
    My name is Dan Morgan. I am a specialist in Science and 
Technology Policy at the Congressional Research Service. My 
testimony will provide an overview of the DHS and DOE 
Laboratories and the statutory and policy framework for DHS' 
use of laboratories. I will then discuss the alignment of 
missions, planning, and prioritization and efficiency and cost-
effectiveness.
    Under the Homeland Security Act of 2002, which established 
DHS, the Department received laboratories from four other 
agencies; the Plum Island Animal Disease Center from the 
Department of Agriculture, the Environmental Measurement 
Laboratory, now the National Urban Security Technology 
Laboratory, from the Department of Energy, early plans for what 
is now the National Biodefense Analysis and Countermeasures 
Center from the Department of Defense and the Transportation 
Security Laboratory, which was then part of TSA.
    The first three of these immediately became part of the 
Science and Technology Directorate. The Transportation Security 
Laboratory was transferred to S&T Directorate in 2006. DHS also 
has plans to construct a new facility to replace the Plum 
Island Center. Several DHS components have additional, smaller 
laboratories and centers.
    The Homeland Security Act also provided specifically for 
DHS use of DOE facilities. DHS funds activities at 12 DOE 
facilities, including 10 of the National Laboratories. The S&T 
Directorate, the Domestic Nuclear Detection Office and at least 
eight other DHS components participate. Historically, DHS 
expenditures at DOE facilities have typically been between $400 
and $475 million per year.
    The Homeland Security Act gives DHS a special relationship 
with the DOE Laboratories. First, it allows work for DHS to 
have the same priority as work for DOE. Second, it directs the 
laboratories not to charge DHS more than they would charge DOE 
for similar work. The Homeland Security Act established the 
Office of National Laboratories within the S&T Directorate to 
coordinate DHS use of DOE facilities.
    Although this office reviews proposed work, it does not 
have the ability to prevent issuance of a contract and it does 
not oversee contracts after they have been issued. DHS has 
expanded the Office's responsibilities to encompass the S&T 
Directorate's own laboratories. This additional role is not 
mentioned in the statute. DHS use of DOE facilities is not 
limited to research and development. Indeed, in some years, 
expenditures on operational support exceed expenditures on R&D.
    Regarding the alignment of missions, the missions of the 
DHS Laboratories are generally aligned with specific DHS 
programs and missions. DOE sets the strategic direction for the 
DOE Laboratories. Their capabilities encompass many aspects of 
DHS' mission but not all and this could be a consideration for 
the committee in identifying areas where DHS needs its own 
capabilities. Coordination by the Office of National 
Laboratories could contribute to an alignment between 
laboratory missions and DHS missions. However, as I mentioned, 
the Office's gate-keeping and oversight functions are limited.
    Regarding planning and prioritization, past studies have 
examined these mostly at the program level. Planning and 
prioritization at the laboratory level raised some additional 
questions. What strategic plans has DHS developed for the DHS 
Laboratories and for its use of the DOE Laboratories? How does 
DHS determine whether to assign work to a DHS Laboratory, a DOE 
Laboratory, or another organization? How are DOE and DHS 
planning efforts coordinated?
    Finally, regarding efficiency cost-effectiveness, Although 
DHS has a special relationship with the DOE Laboratories, this 
doesn't include a management role. For this reason, the DOE is 
probably better able than DHS to address efficiency and cost of 
the DOE Laboratories. But compared with DOE, there has been 
only limited, outside scrutiny of DHS Laboratory management. 
DHS may find some applicable lessons learned in past 
assessments of other Federal laboratories and it could also 
draw on an existing literature on R&D performance measurement 
for guidance in developing metrics for efficiency and cost-
effectiveness.
    Thank you, again, for the invitation to testify today and I 
look forward to answering your questions.
    [The prepared statement of Mr. Morgan follows:]
                  Prepared Statement of Daniel Morgan
                             April 19, 2012
    Mr. Chairman and Members of the committee, thank you for the 
opportunity to testify today. My name is Daniel Morgan. I am a 
Specialist in Science and Technology Policy at the Congressional 
Research Service. My prepared testimony begins with an overview of the 
Department of Homeland Security (DHS) Laboratories; the Department's 
use of the Department of Energy (DOE) Laboratories; the statutory 
origins for both of these in the Homeland Security Act of 2002 (Pub. L. 
107-296); and related policies subsequently established by other 
legislation and by DHS and DOE themselves. It then discusses three 
specific issues that the committee asked CRS to address:
  <bullet> the alignment of the missions of the DHS and DOE 
        Laboratories with the overall DHS mission;
  <bullet> the planning and prioritization of DHS's use of the DHS and 
        DOE Laboratories; and
  <bullet> the efficiency and cost-effectiveness of that use.
                          the dhs laboratories
    The Department of Homeland Security (DHS) has a number of 
laboratories that conduct research and development (R&D), testing and 
evaluation, and other activities. Most notably, the Department's 
Directorate of Science and Technology (S&T) has the following five 
major facilities:
  <bullet> Plum Island Animal Disease Center (PIADC).--Located off the 
        coast of Long Island, New York, PIADC defends against foreign 
        animal diseases by performing diagnostic tests; developing 
        diagnostic tools, vaccines, and antivirals; and training 
        veterinarians to recognize diseases of concern. The PIADC was 
        established in 1952. DHS has plans to construct a new facility, 
        the National Bio- and Agro-Defense Facility (NBAF) in 
        Manhattan, Kansas, to replace PIADC and to engage in expanded 
        activities. In February 2012, however, DHS announced that it is 
        assessing whether and for what purpose a facility like NBAF 
        should be built. The assessment will include a review of 
        alternatives to the current plans.
  <bullet> National Biodefense Analysis and Countermeasures Center 
        (NBACC).--Located at Fort Detrick in Frederick, Maryland, the 
        NBACC has two parts: The National Biological Threat 
        Characterization Center (NBTCC), which aims to understand the 
        science of biological threats, and the National Bioforensic 
        Analysis Center (NBFAC), which aims to identify and attribute 
        the use of biological threats in terrorist and criminal 
        incidents. Construction of the NBACC facility began in fiscal 
        year 2006 and was completed in fiscal year 2010. Final 
        certification of the high-containment laboratories occurred in 
        September 2011. These laboratories operate at the highest level 
        of biocontainment, known as biosafety level 4 (BSL-4), which 
        allows NBACC to perform R&D on pathogens for which no vaccine 
        or treatment exists. Unlike the other S&T Directorate 
        Laboratories, NBACC is operated as a Federally-funded research 
        and development center (FFRDC) by a contractor, Battelle 
        National Biodefense Institute, LLC.
  <bullet> Transportation Security Laboratory (TSL).--Located in 
        Atlantic City, New Jersey, the TSL performs research, 
        development, and validation of solutions to detect and mitigate 
        threats against transportation, especially the threat of 
        improvised explosive devices. The TSL also provides 
        certification testing for Explosive Detection Systems.
  <bullet> National Urban Security Technology Laboratory (NUSTL).--
        Located in New York City, NUSTL is the new identity of the 
        former Environmental Measurements Laboratory (EML). The primary 
        mission of the EML was monitoring low-level radiation. The 
        NUSTL mission is to test, evaluate, and analyze homeland 
        security capabilities and serve as a technical authority for 
        first responders and State and local entities as they integrate 
        homeland security technologies into urban operational use.
  <bullet> Chemical Security Analysis Center (CSAC).--Located at the 
        Edgewood Area of Aberdeen Proving Ground in Maryland, the CSAC 
        aims to provide a scientific basis for the awareness and 
        attribution of chemical threats. The CSAC was established in 
        interim facilities in fiscal year 2006 and moved to permanent 
        facilities in fiscal year 2009.
    These laboratories generally do not receive appropriations 
directly. Their construction, operation, and maintenance are funded 
through the S&T Directorate's Office of National Laboratories out of a 
dedicated Laboratory Facilities budget line item. The fiscal year 2012 
appropriation for Laboratory Facilities is $176.5 million. Total 
expenditures at the laboratories are greater than this, however. The 
costs of particular projects and programs carried out at the 
laboratories are funded through the directorate's technical divisions 
out of funds that also support work at other Federal and non-Federal 
facilities. The appropriations for these activities do not specify how 
much will be spent at the DHS Laboratories. In addition, some of the 
laboratories receive funds from other agencies, such as the Department 
of Agriculture.
    The S&T Directorate and other DHS components also have several 
smaller laboratories and laboratory-like centers. For example, the 
Domestic Nuclear Detection Office (DNDO) has an Algorithm Test Bed at 
the Applied Physics Laboratory of Johns Hopkins University, and the 
U.S. Coast Guard has a Research and Development Center in New London, 
Connecticut.
                     the doe national laboratories
    In addition to these laboratories of its own, DHS makes use of the 
National Laboratories of the Department of Energy. The Department of 
Energy has more than 20 laboratories and technical centers in locations 
around the United States.\1\ All are Government-owned, but most are 
operated by contractors. Some focus on a single field of research, 
while others are multipurpose. Three--Lawrence Livermore National 
Laboratory, Los Alamos National Laboratory, and Sandia National 
Laboratories--are commonly referred to as the weapons laboratories 
because of their work on nuclear weapons, but the weapons laboratories 
also do work in other areas. The National Nuclear Security 
Administration, a semiautonomous agency within DOE, is responsible for 
the three weapons laboratories. The DOE Office of Science has 
responsibility for 10. Four other DOE offices are responsible for one 
each.
---------------------------------------------------------------------------
    \1\ The term National Laboratories has long been used to refer to 
the major DOE Laboratories. Since 2005, the term has been defined in 
statute (Energy Policy Act of 2005, Pub. L. 109-58, Sections 2(3) and 
991). Seventeen DOE facilities are designated as National Laboratories.
---------------------------------------------------------------------------
    The DOE National Laboratories generally do not receive 
appropriations directly. Rather, Congress appropriates funds for 
specific programs, and DOE then determines whether those funds are 
spent at a National Laboratory or in some other fashion (such as a 
contract with a private-sector company or a grant to a university). The 
annual DOE budget documents do, however, report how DOE funds were 
allocated to each laboratory in the previous year and provide projected 
allocations for the coming year. The funding of the various National 
Laboratories is quite disparate, ranging from the $25 million DOE 
anticipates spending at Ames Laboratory in Iowa in fiscal year 2012 up 
to the $1.95 billion it expects to spend at Los Alamos National 
Laboratory. Total DOE expenditures at the National Laboratories in 
fiscal year 2012 is expected to be $10.8 billion. In addition, other 
organizations, such as DHS, the Department of Defense and other Federal 
agencies, State and local governments, and private companies, can fund 
work at the National Laboratories through the DOE Work for Others 
program and other mechanisms.
    DHS funds activities at 10 of the 17 DOE National Laboratories: 
Argonne National Laboratory, Brookhaven National Laboratory, Idaho 
National Laboratory, Lawrence Berkeley National Laboratory, Lawrence 
Livermore National Laboratory, Los Alamos National Laboratory, Oak 
Ridge National Laboratory, Pacific Northwest National Laboratory, 
Sandia National Laboratories, and Savannah River National Laboratory. 
In addition, DHS funds activities at the Nevada National Security Site 
and the Oak Ridge Institute for Science and Education, DOE facilities 
that are not categorized as National Laboratories. Total DOE 
expenditures at these 10 facilities in fiscal year 2012 is expected to 
be $9 billion. From fiscal year 2007 to fiscal year 2010, according to 
DOE, annual DHS expenditures at DOE facilities ranged between $400 
million and $475 million. In each of those years, the facility 
receiving the most DHS funding was Pacific Northwest National 
Laboratory, and the facility receiving the second-most was either 
Lawrence Livermore National Laboratory or Sandia National 
Laboratories.\2\
---------------------------------------------------------------------------
    \2\ Department of Energy, Homeland Security Activities at 
Department of Energy Facilities, issued annually. The dollar amounts 
given here are for work conducted through the Work for Others program. 
The annual reports do not identify the customer for other types of non-
DOE-funded work, such as work performed under cooperative research and 
development agreements (CRADAs). These other types appear to represent 
only a small fraction of the total.
---------------------------------------------------------------------------
    While the S&T Directorate and the Domestic Nuclear Detection Office 
are among the heaviest DHS users of DOE facilities, they are by no 
means the only ones. Both Customs and Border Protection and the 
National Protection and Programs Directorate are also often heavy 
users, spending more than DNDO in some years. Between fiscal year 2007 
and fiscal year 2010, at least another six DHS components also 
sponsored work, though at lower levels. The title of today's hearing 
refers to research and development. The DHS work conducted at DOE 
facilities is not limited to research and development. Indeed, in some 
years, research and development account for less than half of the 
total, with the majority of work for DHS made up of operations support 
and other types of activity.\3\
---------------------------------------------------------------------------
    \3\ Department of Energy, Homeland Security Activities at 
Department of Energy Facilities, issued annually, and additional 
information provided to CRS by DHS and the DOE National Laboratories.
---------------------------------------------------------------------------
              statutory origins of dhs use of laboratories
    The Homeland Security Act of 2002, which established DHS, provided 
specifically for both DHS-owned laboratories and DHS use of the DOE 
Laboratories.
Statutory Origins of the DHS Laboratories
    Four of the five major S&T Directorate Laboratories described above 
became part of DHS at its establishment, under specific statutory 
provisions of the Homeland Security Act.
    First, the Plum Island Animal Disease Center was transferred to DHS 
from the Department of Agriculture by Section 310 of the Act. Congress 
has also given statutory direction regarding this facility's planned 
successor, NBAF, in each homeland security appropriations act since 
fiscal year 2009. These additional provisions include mandates for 
safety and security risk assessments, requirements for outside review 
of those assessments, and authority for DHS to use receipts from the 
sale of Plum Island to offset NBAF construction and PIADC 
decommissioning costs.
    Second, the National Biodefense Analysis and Countermeasures 
Center, referred to in the Homeland Security Act as the National Bio-
Weapons Defense Analysis Center, was transferred to DHS from the 
Department of Defense by Section 303 of that Act. At the time, it was 
in the early planning stages and did not yet exist as an actual 
facility. For the first few years of DHS's existence, the NBACC program 
conducted research without a dedicated DHS-owned facility through 
partnerships and agreements with other Federal and private 
institutions. Construction of the NBACC facility began in June 2006. As 
noted above, NBACC is operated by a contractor as a Federally-funded 
research and development center. The Homeland Security Act provides 
specific authority for DHS to establish or contract with FFRDCs in 
Section 305.
    Third, the Transportation Security Laboratory was previously the 
Aviation Security Laboratory of the Federal Aviation Administration. It 
became part of the Transportation Security Administration (TSA) when 
Congress created the TSA in November 2001.\4\ The following year, the 
Homeland Security Act incorporated TSA into the new Department of 
Homeland Security. Section 424 of that act required that TSA be 
maintained as a distinct entity for 2 years, but in September 2003, 
Congress directed DHS to consolidate the Department's R&D functions in 
the S&T Directorate.\5\ Following this direction, DHS implemented the 
transfer of TSL from TSA to the S&T Directorate in fiscal year 2006.
---------------------------------------------------------------------------
    \4\ Aviation and Transportation Security Act (Pub. L. 107-71).
    \5\ H. Rept. 108-280, p. 56. This was the conference report on the 
Department of Homeland Security Appropriations Act, 2004 (Pub. L. 108-
90).
---------------------------------------------------------------------------
    Fourth, the Environmental Measurements Laboratory, now NUSTL, was 
transferred to DHS from DOE by Section 303 of the Homeland Security 
Act.
    The fifth laboratory, CSAC, was established without specific 
statutory direction. The Under Secretary for S&T has the authority to 
establish additional laboratories under Section 308(c)(2) of the 
Homeland Security Act. He or she also has the general authority and 
responsibility under Section 302 to carry out R&D and related 
activities through both intramural and extramural programs.
    Most of the smaller laboratories and laboratory-like centers were 
also established under general authorities without specific statutory 
direction. Pre-existing facilities in other components, such as the 
Coast Guard R&D Center, became part of DHS under the Homeland Security 
Act when their parent organization was incorporated into the new 
department, but they are not specifically named in the act. Regarding 
DHS components other than the S&T Directorate, Section 306(b) of the 
Homeland Security Act specifically directed that the establishment of 
the S&T Directorate did not preclude other components from carrying out 
their own R&D and related activities.
          statutory origins of dhs use of the doe laboratories
    The Homeland Security Act (in Section 309) also provided 
specifically for DHS use of the DOE National Laboratories and sites. 
Note that the inclusion of the words ``and sites'' extends the 
provisions to facilities that are not designated as National 
Laboratories. For example, the same statutory provisions apply to DHS 
use of the Nevada National Security Site.
    Section 309 authorizes DHS use of DOE facilities through the Work 
for Others program, joint sponsorship arrangements, direct contracts 
with a laboratory's managing contractor, cooperative research and 
development agreements (CRADAs), licensing agreements, or any other 
method provided by law. In practice, it appears that Work for Others 
has been the primary method DHS has actually used. Section 309 makes 
additional specific provisions for each of these mechanisms as well as 
for cost reimbursement, interagency coordination, and other matters. In 
February 2003, 3 months after passage of the act, DHS and DOE entered 
into a memorandum of agreement to establish a framework for 
implementing this section.\6\ The memorandum addresses three types of 
DOE capability available to DHS:
---------------------------------------------------------------------------
    \6\ A copy of this memorandum is on-line at http://www.doecaa.org/
Docs/DOE-DHS_MOA.pdf.
---------------------------------------------------------------------------
  <bullet> DHS use of the resources and expertise of the DOE National 
        Laboratories and other sites, including production plants;
  <bullet> DOE assets making up the Nuclear Incident Response Team, 
        which come under DHS operational control in certain 
        circumstances; and
  <bullet> DHS intelligence activities using DOE intelligence 
        personnel, information, technology, and systems.
    The first of these three capabilities is the focus of today's 
hearing.
    Subsection 309(a)(2) of the Homeland Security Act gives DHS a 
special statutory relationship with the DOE Laboratories that allows 
DHS-funded work to have the same priority as work funded by DOE itself. 
Work funded by DHS is to be performed ``on an equal basis to other 
missions at the laboratory and not on a noninterference basis with 
other missions of such laboratory or site.''\7\ This language is in 
contrast with most Work for Others projects, which are conducted on the 
condition that they may not interfere with DOE activities. Provisions 
similar to this statutory language are repeated in the 2003 memorandum 
of agreement.
---------------------------------------------------------------------------
    \7\ Homeland Security Act of 2002 (Pub. L. 107-296), Sec. 
309(a)(2).
---------------------------------------------------------------------------
    Another aspect of the special relationship is provided by 
Subsection 309(e), which directs that DHS not be subject to 
administrative charges or personnel costs in excess of those that would 
be charged to DOE for similar work. In particular, the memorandum of 
agreement and the implementing DOE directive clarify that work for DHS 
is not subject to the 3% Federal administrative charge usually imposed 
on Work for Others participants to defray DOE's costs of managing and 
overseeing the Work for Others program.\8\ This 3% Federal 
administrative charge is a DOE charge, not part of the performing 
laboratory's overhead charges. Laboratory overhead charges generally 
apply to DHS projects the same as to any other project.
---------------------------------------------------------------------------
    \8\ DOE Order O 484.1, Reimbursable Work for the Department of 
Homeland Security, approved August 17, 2006, amended March 14, 2011, 
https://www.directives.doe.gov/directives/0484.1-BOrder-ac1/view. This 
order replaced DOE Notice N 481.1A, which is referred to in the 2003 
memorandum of agreement.
---------------------------------------------------------------------------
    Subsection 309(g) of the Act established the Office of National 
Laboratories (ONL) within the S&T Directorate and made it responsible 
for ``coordination and utilization of the Department of Energy National 
Laboratories and sites under this section in a manner to create a 
networked laboratory system for the purpose of supporting the missions 
of the Department.'' This makes ONL one of the few offices within the 
S&T Directorate that was specifically established by statute. The 
directorate has subsequently expanded the scope of ONL's 
responsibilities to encompass the construction and operation of the S&T 
Directorate's own laboratories. This additional role is not mentioned 
in statute.
    A DHS management directive establishes policies and procedures for 
DHS components engaging with the DOE National Laboratories and other 
FFRDCs.\9\ As part of that process, the ONL, acting on behalf of the 
Under Secretary for Science and Technology, reviews contract statements 
of work to ensure that they comply with the terms and conditions of the 
laboratory's prime contract with DOE. This review is designed to 
increase coordination among the components of DHS. It does not provide 
ONL with the ability to prevent issuance of a contract or other 
agreement. The ONL does not provide oversight of contracts after they 
have been issued.
---------------------------------------------------------------------------
    \9\ Department of Homeland Security, Establishing or Contracting 
with Federally Funded Research and Development Centers (FFRDCs) and 
National Laboratories, MD 143-04, May 25, 2007. This management 
directive replaced a similar directive (MD 10400) dated April 25, 2006. 
With respect to the use of DOE National Laboratories, the content of 
the two directives is effectively the same.
---------------------------------------------------------------------------
    The statute authorizes a broad scope for DHS use of DOE facilities. 
In particular, such work is not limited to R&D, or to the S&T 
Directorate. This is consistent with the patterns of use described 
above. DHS work at DOE Laboratories is not entirely free of 
restrictions, however. There are certain categories of DHS work for 
which the DOE Laboratories may not compete. The DOE implementing 
directive states that the DOE National Laboratories may not respond to 
DHS requests for proposals (RFPs) or other DHS solicitations that 
involve head-to-head competition with the private sector.\10\ They may, 
however, under certain conditions, respond to broad area announcements 
(BAAs) and other competitive solicitations that do not involve head-to-
head private-sector competition.\11\
---------------------------------------------------------------------------
    \10\ DOE Order O 484.1, Sec. 4j.
    \11\ DOE Order O 484.1, Sec. 4k.
---------------------------------------------------------------------------
    Some of the early proposals that led to the Homeland Security Act 
would have transferred one of the DOE Laboratories to DHS ownership. 
These proposals were rejected. Instead, Section 308(c) authorizes DHS 
to establish an intramural headquarters laboratory, if the Secretary so 
chooses, and provides criteria and procedures for the selection of such 
a facility. To date, a headquarters laboratory has not been 
established. In the early years of the Department, there was a proposal 
to designate certain DOE Laboratories as intramural for DHS purposes, 
and the rest as extramural. This proposal too was ultimately rejected.
           alignment of laboratory missions with dhs missions
    The committee asked CRS to address the alignment of the 
laboratories' missions with the DHS mission overall.
    The DHS Laboratories are focused on particular topics of specific 
interest to DHS. The Plum Island Animal Disease Center also hosts an 
active R&D program for the Department of Agriculture, and other DHS 
Laboratories work collaboratively with the Department of Defense and 
the Federal Bureau of Investigation. In general, though, the missions 
of the DHS Laboratories are aligned with specific DHS programs and 
mission needs. How that mission alignment is reflected in the 
organization of the S&T Directorate has varied from time to time as the 
directorate has been reorganized. For example, the PIADC and the NBACC, 
which now report to the Office of National Laboratories, formerly 
reported to the Chemical and Biological Countermeasures Division. It is 
not clear whether these organizational changes within the directorate 
have had any impact on the missions of the laboratories, or whether 
they were intended only to improve management efficiency.
    The situation with respect to the DOE Laboratories is more complex. 
The capabilities of the DOE Laboratories are vast and varied, and their 
missions are inherently much broader than the work they do for DHS. 
While the Homeland Security Act directs that their work for DHS is to 
be performed on an equal basis with their other missions, DOE remains 
their primary funder, as well as the overseer of their management and 
operating contracts. In practice, therefore, DOE retains the primary 
role in setting their overall strategic directions. Their capabilities 
include many topics directly relevant to homeland security, especially 
because of DOE's long-standing National security mission. The DOE 
Laboratories were not established with a homeland security mission in 
mind, so their capabilities may not encompass every needed topic. This 
could be a consideration for the committee in identifying areas where 
DHS should have its own capabilities.
    As noted above, the statutory responsibility of the Office of 
National Laboratories is to coordinate DHS use of DOE facilities for 
the purpose of supporting DHS missions. This coordinating role could 
contribute to alignment between laboratory missions and DHS missions. 
However, as already noted, the office's gatekeeping and oversight roles 
are limited. While it serves as one point of contact between DHS and 
the DOE Laboratories, it is not the only point of contact. Any DHS 
component can contract with a DOE Laboratory to do work.
    In 2007, the S&T Directorate announced an alignment of the DOE 
Laboratories with the directorate's research divisions. This alignment 
was not one-to-one. Each division was aligned with multiple 
laboratories, and several of the laboratories were aligned with 
multiple divisions. At the time, DHS stated that the alignment would 
help DHS and DOE staff to develop more enduring professional 
relationships and a better mutual understanding of each other's 
capabilities and needs. It is unclear whether this organizational 
alignment had an impact on the alignment of missions. The S&T 
Directorate's divisions have since been reorganized, so the divisional 
alignment with the DOE Laboratories may or may not still be in effect.
                      planning and prioritization
    The committee also asked CRS to address the planning and 
prioritization of DHS work at the DHS and DOE Laboratories.
    Within the constraints mentioned above, the DOE Laboratories can 
compete for some types of DHS funding. In such cases, DHS planning and 
prioritization are at the program level, and the selection of a 
proposal from a DOE Laboratory comes at the end of the process when 
awards are made. Program-level planning and prioritization have been 
examined frequently by this committee and others, as well as by 
independent organizations such as the Government Accountability Office, 
the National Academy of Public Administration, and the National Academy 
of Sciences. Among the issues these examinations have raised are the 
adequacy of the S&T Directorate's strategic planning; the effectiveness 
of its portfolio review process; the sufficiency of the Department's 
risk analysis efforts and the extent to which those efforts inform R&D 
priorities; and the mechanisms for ensuring alignment between the S&T 
Directorate's R&D priorities and the needs of its customers, including 
other DHS components as well as State and local first responders.
    The planning and prioritization of work at the DHS-owned 
laboratories and work funded through non-competitive awards to the DOE 
Laboratories raise a number of additional questions for the committee 
to consider:
  <bullet> Has DHS developed a strategic plan for the DHS 
        Laboratories?\12\
---------------------------------------------------------------------------
    \12\ There are strategic plans for at least some of the individual 
laboratories. For example, see Department of Homeland Security, Science 
and Technology Directorate, National Urban Security Technology 
Laboratory, National Urban Security Technology Laboratory Strategic 
Plan FY2009-FY2013; and Battelle National Biodefense Institute, 
National Biodefense Analysis and Countermeasures Center (NBACC) 
Strategic Plan, June 2009.
---------------------------------------------------------------------------
  <bullet> Has it developed a strategic plan for its use of the DOE 
        Laboratories?
  <bullet> What is the appropriate content for such plans?
  <bullet> What mechanisms are in place to ensure that they are 
        implemented?
  <bullet> How does DHS determine whether to assign work to a DHS 
        Laboratory, a DOE Laboratory, or another organization, such as 
        a private-sector company or a university?
  <bullet> What policies, procedures, and criteria are in place to 
        guide these decisions?\13\
---------------------------------------------------------------------------
    \13\ In 2004, the S&T Directorate reported on four criteria for 
choosing to execute work at DHS and DOE Laboratories: Inherent Federal 
responsibility, maintenance of enduring capabilities, limited private-
sector interest, and leveraging of other Government investments. A 
number of other policies described in the 2004 report have since 
changed. It is unclear whether the four criteria are still in effect. 
See Department of Homeland Security, Science and Technology 
Directorate, Utilization of the National Laboratories: Report to 
Congress in Response to House Report 108-541 to the Fiscal Year 2005 
Department of Homeland Security Appropriations Bill, October 2004.
---------------------------------------------------------------------------
  <bullet> How does the Office of National Laboratories ensure DHS-wide 
        coordination of planning and prioritization?
  <bullet> How do DOE and DHS planning efforts fulfill the Homeland 
        Security Act's mandate (in Section 309(h)) to ensure that all 
        homeland security research, development, test, and evaluation 
        activities conducted by DOE, whether funded by DOE, DHS, or any 
        other organization, are fully coordinated between DOE and DHS 
        to minimize duplication of effort and maximize the effective 
        application of Federal resources?
                   efficiency and cost-effectiveness
    Finally, the committee asked CRS to address the efficiency and 
cost-effectiveness of DHS's use of the DHS and DOE Laboratories.
    At the DOE Laboratories, work is generally done on a cost-
reimbursement basis, with overhead rates and other conditions 
determined by the laboratory's management and operating contract with 
DOE. Management efficiency, cost, and related issues have been 
discussed from time to time throughout the history of the DOE 
Laboratories.\14\ Congress and the administration have addressed these 
through a variety of mechanisms, including the recompetition of 
management and operating contracts and the establishment of 
performance-based fees. Many questions remain unanswered, however. A 
recent report by the DOE Inspector General raised the following 
concerns:\15\
---------------------------------------------------------------------------
    \14\ See, for example, General Accounting Office, DOE's National 
Laboratories: Adopting New Missions and Managing Effectively Pose 
Significant Challenges, GAO/RCED-94-113, February 1994; Secretary of 
Energy Advisory Board, Task Force on Alternative Futures for the DOE 
National Laboratories, Alternative Futures for the DOE National 
Laboratories, February 1995; Department of Energy, Report of the 
Department of Energy for the Interagency Federal Laboratory Review in 
Response to Presidential Review Directive NSTC-1, March 1995; General 
Accounting Office, Department of Energy: Uncertain Progress in 
Implementing National Laboratory Reforms, GAO/RCED-98-197, September 
1998; National Research Council, Preliminary Assessment of DOE Facility 
Management and Infrastructure Renewal, 2004; and National Research 
Council, Maintaining High Scientific Quality at Los Alamos and Lawrence 
Livermore National Laboratories, 2004.
    \15\ Department of Energy, Office of Inspector General, Management 
Challenges at the Department of Energy, DOE/IG-0858, November 2011.
---------------------------------------------------------------------------
  <bullet> Can DOE sustain all its current facilities?
  <bullet> Are there opportunities for consolidation and realignment?
  <bullet> Are laboratory efforts aligned with agency priorities?
  <bullet> Are laboratory missions clear and well-coordinated?
  <bullet> Is the laboratory complex appropriately-sized?
  <bullet> Could alternatives to the usual management and operating 
        contracts enhance efficiency and economy?
  <bullet> To reduce overhead costs, should DOE make more use of non-
        DOE facilities, such as universities and non-profit research 
        centers?
    Under current circumstances, DOE is probably more able to address 
issues of cost and efficiency at the DOE Laboratories than is DHS. 
Although the Homeland Security Act gives DHS special status with 
respect to work at the DOE Laboratories, it does not give DHS a direct 
role in their management.
    While many studies of the DOE Laboratories have addressed 
efficiency and cost-effectiveness, there has not been comparably 
detailed scrutiny of the management of the DHS-owned laboratories. 
However, an extensive body of related work exists that could provide 
relevant insights:
  <bullet> There is an academic literature on mechanisms for measuring 
        R&D productivity and effectiveness.\16\ Some of this work could 
        assist DHS in developing metrics for the efficiency and cost-
        effectiveness of its laboratories.
---------------------------------------------------------------------------
    \16\ See, for example, Mark G. Brown and Raynold A. Svenson, 
``Measuring R&D Productivity,'' Research Technology Management, 
November-December 1998, pp. 30-35; Martin Karlsson, Lars Trygg, and 
Bengt-Olof Elfstroem, ``Measuring R&D Productivity: Complementing the 
Picture by Focusing on Research Activities,'' Technovation, 2004, pp. 
179-186; and Albert Sciarretta, et al., ``A Methodology for Assessing 
the Military Benefits of Science and Technology Investments,'' Center 
for Technology and National Security Policy, National Defense 
University, September 2008.
---------------------------------------------------------------------------
  <bullet> Federal organizations such as the Government Accountability 
        Office and the agency Inspectors General have often assessed 
        the laboratories of other agencies.\17\ These assessments may 
        contain lessons learned that could be applied to the DHS 
        Laboratories.
---------------------------------------------------------------------------
    \17\ See, for example, Government Accountability Office, Department 
of Energy: Additional Opportunities Exist for Reducing Laboratory 
Contractors' Support Costs, GAO-05-897, September 2005; Department of 
Defense, Office of the Inspector General, ``Evaluation of the 
Department of Defense Forensic Laboratories,'' September 16, 1998; and 
Lawrence Berkeley National Laboratory, DOE Best Practices Pilot Study, 
LBNL/PUB-865, February 2002.
---------------------------------------------------------------------------
  <bullet> Outside organizations have also conducted assessments of the 
        laboratories of other agencies. The National Academy of 
        Sciences, for example, issues periodic evaluations of the 
        National Institute of Standards and Technology (NIST) and the 
        Army Research Laboratory (ARL), and from time to time 
        undertakes similar assessments for DOE, the Environmental 
        Protection Agency, and other agencies.\18\
---------------------------------------------------------------------------
    \18\ See, for example, the assessments of NIST and ARL listed on 
the website of the Academy's Laboratory Assessments Board, http://
sites.nationalacademies.org/DEPS/LAB/DEPS_047831; and National Research 
Council, Evaluating Research Efficiency in the U.S. Environmental 
Protection Agency, 2008.
---------------------------------------------------------------------------
    There are some general considerations for Congressional 
policymakers in comparing the potential for efficiency and cost-
effectiveness between the DHS Laboratories and the DOE Laboratories. 
First, the DOE Laboratories are generally operated by contractors 
rather than directly by the Government. This may provide some 
opportunities for management and personnel flexibility that are not 
available to most DHS Laboratories. On the other hand, to the extent 
that the operating contractors of the DOE Laboratories earn fees over 
and above the costs they incur, that may increase their cost relative 
to the Government-operated DHS Laboratories. Second, the DOE 
Laboratories have an extensive and long-established infrastructure of 
facilities, equipment, and personnel. This may allow them to perform 
some types of work without the cost of acquiring additional 
infrastructure, but it may increase the on-going costs of maintaining 
the DOE Laboratory infrastructure. Third, because the DOE Laboratory 
system is much larger than that of DHS, it may enjoy economies of 
scale, and it may have more capacity to adjust to fluctuations in 
utilization if the resources available to DHS increase or decrease. If 
DHS expenditures at the DOE Laboratories decrease, however, any 
additional infrastructure that the laboratories have invested in to 
meet DHS needs may not be applicable to DOE's own needs. It seems 
likely that these general considerations will be outweighed by the 
specific circumstances of individual laboratories and projects.
                           concluding remarks
    Thank you again for the invitation to testify today. I look forward 
to answering any questions you may have.

    Mr. Lungren. Thank you very much.
    Would you like to make your opening statement now or when 
we come back?
    Ms. Clarke. [Off mike]
    Mr. Lungren. Okay, I am going to recognize Ms. Clarke for 
her opening statement so we can get all of this in before we go 
vote. Then, we will come back and start with our questions.
    Ms. Clarke. I thank you, Mr. Chairman. Thank you for your 
indulgence and I thank our panelists for coming to testify 
today. Mr. Chairman, I too want to welcome our witnesses. Some 
have traveled from the great State of California and we 
appreciate their participation.
    I also want to welcome Deputy Under Secretary Gerstein to 
the subcommittee. He is relatively new to his position, 
obviously well-qualified and, since arriving, has provided 
enthusiastic and knowledgeable leadership efforts to S&T. 
During his short time on the job, he has proven to be a 
valuable asset to the Under Secretary O'Toole. I am looking 
forward to his testimony today.
    The Department and S&T, in particular, supports a broad 
range of scientific and engineering research and development. 
Its purposes are wide-ranging address specific concerns such as 
chemical security, biodefense, transportation security, and 
nuclear detection. An important segment of the Department's 
laboratory--the Department's laboratories' effort is it fosters 
the development of our country's scientific, engineering, and 
technical workforce, which influences students at universities 
and even high schools.
    When teachers and students can see that there is 
interesting and substantial work to be done in the sciences at 
our laboratories, they show an incredible amount of interest in 
striving to work there. Important things go on in our 
laboratories and they are seen as good and significant places 
to work. Our scientists, researchers, engineers, and 
technicians work hard to discover, excuse me--to deliver 
solutions grounded in science and supported by innovative 
engineering. This strengthens U.S. innovation and 
competitiveness in the global economy.
    This committee has a long-standing interest in the strength 
of the Department's research and development enterprise and in 
providing support for its R&D activities. We must anticipate 
the needs of our laboratories and the DOE Labs and provide the 
best support and oversight that can help provide solutions to 
our toughest scientific, technological, and problematic 
challenges.
    However, recent and projected budget cuts passed by the 
Majority are driving difficult decisions, such as 
prioritization and, sometimes, the elimination of R&D projects. 
This is causing stress among competing priorities within the 
Department's S&T Directorate and its R&D portfolio. Congress 
will play a central role in defining the Nation's R&D 
priorities as it makes decisions with respect to the size and 
distribution of Homeland Security R&D funding.
    We have expressed our serious concerns about the drastic 
decreases voted by this Congress and passed by the Majority in 
the level of Federal funding for Homeland Security R&D funding. 
As the fiscal year 2013 appropriations process moves forward, 
it faces two overarching issues; the extent to which the 
Federal R&D investment can grow and what little R&D funding 
available will be prioritized and allocated.
    The Department and, in particular, the S&T Directorate will 
need to justify and make transparent its R&D investments. 
President Obama's Science Advisor, John Holdren, and others, 
have raised concerns about the potential harm of a boom-bust 
approach to Federal R&D funding as seen in the past. Like rapid 
growth followed by much slower growth, flat funding, and even 
decline.
    Critics assert that there has been a variety of damages 
from this bust-boom cycle, including interruptions and 
cancellations of much-needed research projects, decreased 
student interest in pursuing graduate studies, and reduced 
employment prospects for the large number of researchers with 
advanced degrees. More broadly, in a 2009 speech before members 
of the National Academy of Sciences, President Obama put forth 
a goal of increasing the National investment in R&D to more 
than 3 percent of the U.S. gross domestic product.
    But, as they say, the devil is in the details and the 
details are what we are here to talk about today. This 
subcommittee and full committee have been real supporters of 
the Department's R&D and National Labs but we need a better, 
clear understanding of how things have gotten better, how 
management oversight of R&D projects has increased and what is 
the path forward as we look forward--as we look forward and the 
drastic funding cuts coming out of this Congress.
    Mr. Chairman, I yield back.
    Mr. Lungren. Thank you.
    We will take a recess and be reconvened as soon as we get 
back from our vote.
    [Recess.]
    Mr. Lungren. Alright, we will resume and thank you for your 
indulgence in the time that was taken for our votes. We are 
going to try and move along here so that before the next votes 
we are here. So I will recognize myself for 5 minutes.
    Dr. Gerstein, I know this is a general question but do you 
view the job that you have, with respect to the kinds of 
research that we are talking about, to be one of basic research 
or applied science or a mixture of two or is that a 
inappropriate distinction in this environment in which you 
work?
    Mr. Gerstein. Well, thank you. No, that is a great 
question, actually, and it fits very well into our value-added 
proposition and the way we have been thinking about science and 
technology or research and development. So if you looked at our 
organization a couple of years ago, you would have seen much 
more focus on basic research and, then, some applied research. 
But, today, what we are focusing in on is instead of big ``R'', 
big ``D'', we are looking at little ``R'', big ``D''.
    So we are doing less basic and applied research and we are 
looking for more development. The point here is what we are 
trying to do is be very operationally focused. That is to get 
products to the Homeland Security enterprise. To do that at the 
numbers that we are at, you absolutely have to find work that 
is on-going in the community; you have to partner with other 
entities, whether that is the DOE Labs, whether that is other 
interagency partners, international partners.
    So it is absolutely essential that we continue to focus on 
this later-stage development and move things forward where it 
can be commercialized and brought forward.
    Mr. Lungren. Same question for you, Dr. Gowadia.
    Ms. Gowadia. Gowadia.
    Mr. Lungren. Gowadia.
    Ms. Gowadia. It is a strange name, I will give you----
    Mr. Lungren. No, no, people mess my name up too. I don't 
know how they do that but they do. But go ahead.
    Ms. Gowadia. Yes, we, actually, have been fortunate in that 
we have the entire scope of effort for the nuclear threat in 
DNDO. So we are able to take a holistic, integrated approach to 
the countering nuclear threats mission. As such, we make sure 
that our sustainment of the early R&D in our transformational 
research portfolio stays consistent. Also, our forensics 
mission. Of course, it is all driven from an analysis of the 
architecture.
    So we have vulnerabilities that come up from analyzing the 
gaps in the architecture and our close coordination with our 
partners, so we know what is needed operationally to deliver. 
So we have tried, actually, to have a fair balance between the 
early research and the applied end.
    Mr. Lungren. Look, we can all talk about budgets and so 
forth. The fact of the matter is we are in a budget crisis; we 
are all looking at tougher decisions than we have ever had to 
make, I believe, if we are going to be serious about this. So 
you are not going to have all the money you want to have. My 
question is, therefore, Dr. Gerstein, in the area of Plum 
Island and, then, its successor, now, as I understand it, you 
are asking the National Academy of Sciences to assess the very 
need for the successor and development of an analysis of 
alternatives, delineating all options to meet the threat.
    It is easy to do Monday-morning quarterbacking but have we 
made a mistake in saying that we had to go to an alternative to 
Plum Island? Did we make a mistake in deciding that we were 
going to site in Kansas and not do the proper development that 
we needed? Or is this the result of budget reality staring us 
in the face that causes us to reassess?
    Because, you know, we were bragging about this just a 
couple years ago and now we are saying we have got to reassess 
the whole thing. That might be an intelligent decision; it 
might be a statement that we wasted a pile of money that we 
can't afford to waste. Where are we on that?
    Mr. Gerstein. So, a fair question, and what I would like to 
do is start off with the strategic context and say that Plum 
Island is 58 years old. It has been a magnificent facility; we 
have done great work there. We are continuing to do great work 
there, as evidenced by the Foot-and-Mouth disease vaccine work 
and the eventual licensure that we are going to get.
    On the other hand, there are some limitations with Plum 
Island; they are significant limitations and we are continuing 
to modernize the facility even as we look to move to a new 
facility with the NBAF. By ``modernize'', I mean we are looking 
at putting in a new wastewater treatment handler so that we can 
ensure that the products that come out of the experimentation 
is all safely put through and there are no pathogens 
contaminates in that. That is just one example of the 
modernization.
    So what are some of the limitations? Well, Plum Island 
doesn't have the highest containment level, or BSL-4 
capability; that is a major drawback, giving the infectious 
emerging diseases, such as NIPA and Hendra, and even some of 
the old-world diseases, such as Rift Valley and West Nile 
Virus.
    In fact, we are so concerned about this lack of capability, 
that I have recently been to Canada and talked to them in 
Winnipeg about their one health facility that deals with 
agricultural contaminates by biological pathogens. They can 
handle a BSL-4. On the other hand, they can handle one cow at a 
time; in our studies, we are handling 100 cows at a time, 
multiple rooms, and doing herd analysis. So very different 
level of scale.
    I am also going to Australia to talk to them about their 
BSL-4 Ag. They are working on diseases that we simply do not 
have the capacity for. Our facility right now, at Plum, we are 
only looking at three diseases; the Foot-and-Mouth Disease and 
we are doing the vaccine trials, we are looking at classic 
Swine Fever and African Swine Fever, where we are doing--
development.
    So here is the NAS study that we have asked for. It is not 
to say, ``Do we need this facility?'' it is to say, ``In view 
of the current fiscal environment, is it going to be 
affordable?'' So we have asked NAS to look at three basic 
options: One is to build NBAF as it is originally intended and 
as it is currently designed; to build a smaller version of 
NBAF; or to keep--and to try to leverage the foreign MOUs and, 
therefore, not build NBAF.
    But, in terms of protection of our $1 trillion agricultural 
industry, we know that there is a valid requirement to have a 
capacity for a BSL-4, high-containment facility, dedicated to 
agriculture.
    Mr. Lungren. I thank you and my time is expired but I would 
like, at some point in time to get around to the question of 
when is that study going to be done and when do you think you 
can act on it?
    Mr. Gerstein. May I just follow up on that because that is 
a short answer. The study should be done by the 30th of June.
    Mr. Lungren. Of this year?
    Mr. Gerstein. Of this year. We intend to have that to the 
Secretary and then a decision will be made on affordability.
    Mr. Lungren. Okay, we will be very interested in looking at 
this as soon as that comes up.
    The Ranking Member is recognized for 5 minutes.
    Ms. Clarke. Thank you, Mr. Chairman.
    Dr. Gerstein, I wanted to just ask a couple of questions 
relative to ONL. In addition to the oversight at S&T 
Directorate Laboratory Operations, ONL is to coordinate 
homeland security-related activities and Laboratory Directorate 
research, conducted within the DOE's National Laboratories. So 
I was wondering if there is a--if ONL has a current list or 
breakdown of the DHS research and development projects 
conducted at the S&T-owned National Laboratories and at the 
DOE-owned Laboratories. If so, how much does DHS spend annually 
on R&D at the National Labs?
    Mr. Gerstein. Okay, so let me begin by talking about the 
total spending and some of the trends. So for fiscal year 2010, 
at the DOE Labs, we spent $152 million. In 2011, it was $103.6 
million and, this year, year-to-date, we have spent $10.1 
million. That is a reflection of the down-sizing of the number 
of projects. We have gone from, approximately, 250 projects in 
fiscal year 2010 to 63 projects today.
    So that is why you see the numbers change. Now, that is the 
S&T spending in the DOE Labs. If you were to back out, or if 
you were to add, all the spending to the DOE Labs from the 
Department of Homeland Security that number would be $312.7 
million and it cuts across seven different components from 
within the Department of Homeland Security. So your first part 
of the question, though, was on this idea of ONL and 
authorities and whether or not they have the appropriate 
authorities.
    Here, I would say that I think we are actually well-endowed 
with our authorities, in that we, under the Homeland Security 
Act of 2002, were given authorization under section 309, to 
have direct funding into the Department of Energy Laboratories. 
That has been very powerful and that has been augmented with a 
management directive, 143, from within the Department of 
Homeland Security, that gives us the ability in ONL and S&T to 
look at the appropriateness of the work that is being conducted 
in the DOE Laboratories.
    So let me make clear, though, this is not a go, no-go, but 
if we are presented with a project and we look at it and we 
say, ``You know, this is not really in the laboratory sweet 
spot,'' we do not feel any degree of bashfulness about saying 
this is not the right performer. Now, we will not be able to 
stop that if the component were dead-set.
    Now, most recently, our Secretary has said she wants to 
have greater visibility into the work that is being done at the 
Federally-funded research centers, or FFRDCs. To that end, to 
gain that greater visibility, she has put in place that S&T 
will assist the components in developing a portfolio review 
process, which is very similar to the process that we have. She 
is not going to have it directed so that everyone will look 
identically but the requirement to have a portfolio review 
process and to gain visibility of the work that is being done 
in research and development across the components will, indeed, 
become part of our culture.
    Ms. Clarke. Let me just follow up with a couple of other 
questions here. The development of the Homeland Security 
workforce, including the next generation of scientists and 
researchers engaged in homeland security activities, has one 
goal of DHS. How are DNDO and the S&T Directorate engaging 
scientists at the DHS Laboratories and the DOE National 
Laboratories to foster homeland security scientific workforce? 
What programs or activities does DHS have that leverage the 
scientific capabilities of these facilities to strengthen 
outreach to other scientists, for example, in academia?
    Ms. Gowadia. I will take this question----
    Ms. Clarke. Thank you.
    Ms. Gowadia [continuing]. First. At DNDO, we actually have 
a legislative mandate and two strong programs that are focused 
specifically at the intellectual infrastructure of developing 
sciences for our nuclear detection and forensics mission. The 
first is a legislatively-mandated program--is the National 
Nuclear Forensics and Expertise Development program--every 
aspect of the program is close-coupled with the National 
Laboratories, we are looking for maintenance of our Nation's 
capabilities for geochemical sciences, nuclear sciences, to 
make sure that our forensics expertise pipelines is consistent.
    We have students--170, actually, have come through our 
process so far and we have five universities, major 
universities, involved in the program and additional 10 summer 
interns, all the way from undergraduate through graduate 
school, post-Docs and faculty, are encouraged and, actually, 
stipulated that they have to work with the National 
Laboratories on their research. We continue to assess the needs 
of the program based on the mission, as well as the supply and 
demand of the human capital chain. So that is the legislative 
part.
    In addition to the forensics mission, of course, we have 
this large nuclear detection responsibility. For that, we have 
our academic research initiative. This is a joint partnership 
we have with the National Science Foundation and we select 
programs or projects from the universities. It is specifically 
with the universities; we are looking for our next generation 
of researchers in the nuclear detection realm.
    Not only do we weigh the proposals on their technical 
merits but, also, we look to see what support the university 
will give the student and, thereby, develop a career path, 
ensuring that the innovative solutions that can come from this 
next generation will be made available to us.
    Ms. Clarke. Thank you, Dr. Gowadia.
    Thank you, Dr. Gerstein.
    I yield back, Mr. Chairman.
    Mr. Lungren. Thank you, the gentlelady's time has expired.
    The gentleman from Missouri, Mr. Long, is recognized for 5 
minutes.
    Mr. Long. Thank you, Mr. Chairman.
    Dr. Gowadia, on the National Laboratories--everybody knows 
that they have been around for 60 years, or whatever, and, kind 
of, the centerpiece of R&D capabilities. What steps are the 
Department of Energy that has those National Labs now or 
their--has the jurisdiction over them, what steps are they 
taking to partner with you all, with DHS?
    Ms. Gowadia. Thank you, Representative Long. My colleague, 
Dr. Gerstein, mentioned the Mission Executive Council. So that 
is just one of the many interagency--we have, where we look at 
not just the relevant capabilities that are relevant to our 
projects immediately, but what needs to be sustained for the 
long-term, the maintenance, development, and sustainment of the 
facilities, the people, the resources, the knowledge base.
    We work very closely with the National Laboratories to make 
sure that those interagency--are well-supplied with information 
to make the right strategic decisions at the U.S. Government 
level. Of course, we involve the laboratories in everything we 
do at DNDO, based on their unique and special expertise in the 
nuclear realm. So all the way from planning through assessment 
through operation support, of course, the research and 
development. So we have a very good partnership there, not just 
with our Federal partners but, also, with our laboratory 
partners.
    Mr. Long. So, as far as defining the mission that you are 
confident, or you are pleased that they are working together 
with DHS?
    Ms. Gowadia. Yes, sir. Yes, they are very dedicated to the 
nuclear mission.
    Mr. Long. Okay, thank you. Pronouncing Dr. Gowadia is one 
thing but I am still caught up on the fact people mispronounce 
``Dan.'' I don't understand how that happens but--I yield back.
    Mr. Lungren. Well, all I can say is the former Governor of 
Mississippi used three syllables to say ``Dan,'' if you ever 
heard him talk--``Da-a-an''. So that is how it is.
    All right, gentlelady from California is recognized for 5 
minutes.
    Ms. Richardson. Well, my first question I would like to ask 
of the Chairman. That is, for those of us who participated 
today, do we get extra brownie points for showing up 2 days in 
a row and----
    Mr. Lungren. Absolutely, and, particularly----
    Ms. Richardson. [Off mike]
    Mr. Lungren [continuing]. If the quality of the questions 
are good.
    [Laughter.]
    Ms. Richardson. Oh, okay, that is why you are the Chairman.
    Representatives of the DOE National Laboratories serve 
within DHS in advisory roles, often temporary IPA employees. 
The National Academy of Public Administration and DHS Office of 
Inspector General and the GAO office, all have highlighted the 
need for DHS to maintain strong managerial controls, in order 
to maintain transparency and funding activities and to avoid 
conflicts of interest.
    My question is: Please describe how DNDO and the S&T 
Directorate ensure that these representatives avoid conflicts 
of interest.
    How is that, Mr. Chairman?
    Mr. Lungren. Well, we will see what the answer is.
    Ms. Richardson. All right.
    Mr. Gerstein. Could I ask you to clarify which 
representatives are you referring to?
    Ms. Richardson. Specifically, I was referring to the IPA 
employees that are often temporary.
    Mr. Gerstein. Well, so, when we look at this, obviously, 
and we decide who is going to be a performer and what projects 
are going to be worked on, there is an analysis that gets done. 
Through our portfolio review, what we have done is to look and 
pare down those projects. Based on that, we make a corporate 
decision on who the performers are going to be.
    We are not placing people in a position where a conflict of 
interest is likely to occur. So we wouldn't want, for example, 
an IPA to be directly working on something that they had worked 
on in their previous incarnation at the laboratory where they 
serve. So----
    Ms. Richardson. Do you keep records, though, to verify 
that, in fact, is not occurring?
    Mr. Gerstein. Well, because of the number of projects we 
are dealing with, we actually have very few IPAs that come from 
the DOE Labs. So this does not serve to be a major problem.
    Ms. Richardson. But do you have records to determine if 
that could occur?
    Mr. Gerstein. We certainly do know where people work. Yes, 
we do keep those records.
    Ms. Richardson. You keep it into consideration?
    Mr. Gerstein. We absolutely do. We look to see who the best 
performer is and, based on that, we make the assessment of 
whether or not we go with the DOE Lab, whether we go with a--
typical contractor, whether or not we go to an interagency 
partner or an international partner.
    Ms. Richardson. Okay, could you specifically reference the 
NAPA study, though, and the concerns that they provided in 
our--let us see, I am having National Academy of Public 
Administration, the Department of Homeland Security, your 
department--June 2009--the Office of Inspector General had a 
report and it said, ``DHS needs to improve ethics-related 
management controls for the Science and Technology 
Directorate.'' Also, referenced December 22, 2005.
    Mr. Gerstein. Yes, so, let me say, I would like to take 
this for the record but I do believe that our management 
controls have greatly improved with the entire process of 
conducting a systems analysis, doing the portfolio reviews, 
ensuring that we are working towards projects that will, 
indeed, transition long-term. But I would like to provide a 
more detailed answer to you.
    Ms. Richardson. Sure, well, if the Chairman does not 
object, I would suggest that you review those two reports, June 
2009 and December 2005, and come back to the committee based 
upon those recommendations and see if they have, in fact, been 
addressed.
    My next question is--the DHS budget, especially that for 
research and development within DHS, is experiencing great 
fiscal pressure. I heard you saying ``greatly endowed.'' I 
thought that that was interesting. But, for all of us, there is 
extreme pressures of what gets funded. What procedure does DHS 
have in place to guide program managers regarding performing 
research and development?
    Mr. Gerstein. So we have instituted a number of what we are 
calling ``knowledge management activities'' and, really, the 
centerpiece is the portfolio review process and the way we 
select those programs that we are going to put into as a 
portfolio.
    As we mentioned earlier, we have come down from $1 billion, 
of which about $600 million was dedicated to R&D, and we had 
250 projects down to, current year, 63 projects and $265 
million. Through that portfolio process, we have pared back 
considerably. So we also have, in addition to the portfolio 
review process, a program manager handbook, which is designed 
to tell program managers what their duties and responsibilities 
are as part of the enterprise that we are running.
    Ms. Richardson. Mr. Chairman, could I have an additional 10 
seconds?
    Mr. Lungren. Yes.
    Ms. Richardson. Thank you, sir.
    What criteria, though, building upon that, does the DNDO 
and S&T Directorate use to determine whether industry, 
academia, or DOE National Laboratory or the DHS Laboratory 
should perform the research and development?
    Mr. Gerstein. So that is a great question. Let me start by 
saying that there are certain activities that are ideally 
suited for the Department of Energy Laboratories and our 
consortium of laboratories' internal labs. So, what we do is we 
think about what project and what is the problem we are trying 
to solve through our systems analysis approach.
    But what it comes down to is this--that if you are looking 
for something that is multi-dimensional, highly complex, it is 
going to be a long-term effort--that is something that is 
ideally suited to the DOE Labs and our internal labs. On the 
other hand, if you are looking for just simple program 
management, there are many contractors who can perform that 
role and probably do it at a more cost-effective basis.
    Ms. Gowadia. We have a very disciplined approach, ma'am, at 
DNDO, for going through our entire portfolio on an annual 
basis. Our requirements are based entirely on the analysis of 
the global nuclear detection architecture for which we are 
responsible. We seek to address the vulnerabilities, both in 
the long-term research portfolio and in our shorter-term fixes, 
not just by way of research and development but, also, by way 
of operational changes and non-material solutions.
    We have found that we are able to actually tap nicely into 
the laboratory structure, academia, and industry as 
appropriate. As Dr. Gerstein mentioned, some of the shorter-
term engineering development is done in industry but the long-
term challenges that require the lab's expertise, access to 
special nuclear material, assessments, et cetera. We certainly 
work with the labs on those things.
    Ms. Richardson. Sure, my time is expired.
    Thank you, Mr. Chairman.
    Mr. Lungren. Thank you very, very much. I apologize for the 
shortness of time because of the votes. We are going to have 
votes later and I want to make sure we get the second panel. 
Dr. Morgan, I apologize for us not asking you any questions 
here. I believe there will be questions submitted by the panel 
in writing and we would ask you to respond to them.
    Dr. Gerstein, I am going to ask a question in writing with 
respect to our inability to get spreadsheets from you in terms 
of exactly how much is being spent by DHS to the labs over the 
past number of years; there was some question about different 
analyses from DOE versus DHS. But it is disappointing for us so 
we are going to submit a specific series of questions to you on 
that. We would appreciate a response in a timely fashion. Other 
Members may also ask questions as well.
    Again, I thank you for appearing before us. I thank you for 
the work that you are doing. These are difficult budget times. 
This is very important work for us, spanning all the way from 
nuclear threat to the threat to agriculture and everything in 
between.
    Dr. Morgan, thank you for the work that you are doing to 
help us get a--sort of, a third voice and third set of eyes 
there. Thank you very much.
    We would dismiss the first panel now and call forward the 
second panel, Ms. Jill Hruby, Vice President, International, 
Homeland and Nuclear Security Management Unit at Sandia 
National Laboratories and Dr. Michael Carter, Senior Leadership 
Staff, National Ignition Facility, Lawrence Livermore National 
Laboratory.
    Once again, thank you for being here and thank you for the 
work that you are doing. We are trying to make sure we get 
between two sets of votes on what is known as a ``getaway day'' 
for Congress. So I know I have four of us here now. After the 
votes, I am not sure we would have too many folks here. So we 
are going to try and proceed very quickly.
    Ms. Jill Hruby is the Vice President of International, 
Homeland and Nuclear Security at Sandia National Laboratories. 
Ms. Hruby focuses on nuclear security, including non-
proliferation, technology support to arms control activity, 
global nuclear security and threat reduction, nuclear asset 
protection, detention and response to weapons of mass 
destruction.
    In addition, she is also Vice President for Energy Security 
and Defense Technologies, has been with Sandia more than 25 
years, and previously serving as director of homeland security 
and defense systems and director of materials in engineering 
sciences. Over the course of her career, she has been actively 
engaged in nanoscience research, hydrogen storage, solar energy 
research, mechanical component design, Thermal Analysis, and 
microfluidics.
    Dr. Michael Carter is the Senior Scientist for the National 
Ignition Facility and Photon Science Directorate at Lawrence 
Livermore National Laboratory. Prior to this appointment, he 
served as a deputy principal associate director for program, 
within the laboratory's Global Security Principal Directory. He 
came to Lawrence Livermore National Laboratory after working 
for more than 3 years at Department of Homeland Security, was 
the deputy director of the Domestic Nuclear Detection Office 
and Nuclear--and director of the DHS Science and Technology 
Directorate's Nuclear and Radiological Countermeasures Program.
    He has also served as technical advisor, for 8 months, at 
the White House's Transition Planning Office for the 
Establishment of the Department. Again, as I mentioned, your 
written statements are made a part of the record in their 
totality and we would ask you to summarize in 5 minutes.
    Thank you, Ms. Hruby, and we would now recognize you.

  STATEMENT OF JILL M. HRUBY, VICE PRESIDENT, INTERNATIONAL, 
  HOMELAND AND NUCLEAR SECURITY, SANDIA NATIONAL LABORATORIES

    Ms. Hruby. Chairman Lungren, Ranking Member Clarke, and 
distinguished Members of the committee, thank you for the 
opportunity to testify. I am Jill Hruby, the Vice President of 
Sandia National Laboratory's International, Homeland and 
Nuclear Security Strategic Management Unit. Sandia is a multi-
program National security laboratory owned by the United States 
Government and operated by Sandia Corporation for the National 
Nuclear Security Administration.
    Sandia supports multiple Government agencies, providing 
science and end-to-end, engineering solutions for complex and 
high-risk systems to protect the Nation from the worst, often 
existential, threats. I appreciate the opportunity to speak to 
you today concerning the best use of the DOE National Security 
Labs, that help address the mission challenges at DHS.
    The labs, acting in their role as R&D, Federally-funded, 
research and development centers, help DHS more effectively get 
ahead and stay ahead of threats to our homeland by filling the 
need for a science, technology, and engineering enterprise, 
dedicated to their mission. An example of why enduring S&T 
enterprise is so important was highlighted in the aftermath of 
the 2001 Anthrax attacks.
    Because our scientists anticipated the threat of deliberate 
use of pathogens against civilian populations, we had to 
develop foam that was used to safely and effectively 
decontaminate many of the contaminated buildings in the 
District of Columbia. There was no commercial market for the 
foam, nor was there yet any perceived urgency about the 
biological threat. But, because of the special nature of the 
DOE National Security Laboratories and their enduring focus on 
National security challenges, the Nation had, in its hip 
pocket, a novel technology to immediately mitigate the 
consequences of the attack.
    The National Academies wrote, in their post-9/11 report, 
that it is critical to establish a flexible supporting science 
and technology enterprise. The unique nature and capabilities 
of the DOE National Security Labs make us natural partners in 
this enterprise. Congress also recognized the capabilities the 
DOE Labs had applied to DHS, recognizing that the mission space 
could not be covered simply by adapting solutions developed for 
other reasons, but required solution providers to develop and 
maintain considerate domain knowledge and expertise.
    An ability to see the art of the possible. They understood 
the benefits of leveraging knowledge and solutions across the 
homeland security place, including DOE, DOD, and the IC. That 
is why Congress explicitly created pathways that would 
facilitate DHS access to, and use of, these labs through 
legislation. Clearly, the labs do not fulfill all homeland 
security technology needs; the private sector and academia 
supply important element of the continuum of technology needs 
from near- to long-term.
    What we do fill is a crucial niche by acting as an 
objective brain trust, with extensive domain knowledge and 
broad and deep technical expertise, to help buy down risk and 
understand the role science and technology can play in real-
world solutions. We are available 24/7. While DHS and the 
Nation have benefitted from many technical solutions, resulting 
from long-term research and development performed by the labs 
before and after 2002, I fear the pipeline may be drying up.
    The role that the labs play for DHS today is not one of 
R&D, Federally-funded research and development centers. Now, we 
are mainly contractors on competitively-bid research projects, 
which is not optimum. The very best use of the special 
character of the labs, which will simultaneously sustain the 
scientists and engineers, is to focus the labs on understanding 
the mission needs by working with operators and assessing 
threats and using the knowledge of the mission and threat 
realities to suggest and, in some cases, pursue long-term 
innovation to fill major gaps.
    Finding the right balance between harvesting available 
technologies and driving innovation for the long term is 
fundamental to success in securing the homeland. There are some 
on-going efforts between DHS and the labs that begin to model 
what partnership could look like. For example, development of 
an integrated bio security strategy for the S&T Directorate--
excuse me, helping TSA develop risk-based systems and working 
with FEMA to establish a longer-term modeling and simulation 
agenda, are good applications of the labs.
    Secretary O'Toole has expressed an interest in engaging 
with the labs to articulate major emerging homeland security 
challenges, along with the R&D required to address those 
challenges. We are committed to the homeland security mission. 
We can make a difference. It is what we strive to do; provide 
exceptional service in the National interest.
    Thank you, again, for the opportunity I am privileged you 
have afforded me today. I welcome your questions.
    [The prepared statement of Ms. Hruby follows:]
                  Prepared Statement of Jill M. Hruby
                             April 19, 2012
                              introduction
    Chairman Lungren, Ranking Member Clarke, and distinguished Members 
of the House Committee on Homeland Security Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security Technologies, 
thank you for the opportunity to testify. I am Jill Hruby, Vice 
President of Sandia National Laboratories' International, Homeland and 
Nuclear Security organization. Sandia is a multi-program National 
security laboratory owned by the United States Government and operated 
by Sandia Corporation for the National Nuclear Security Administration 
(NNSA).
    I appreciate the opportunity to comment on a topic that is so 
important to the long-term security of our Nation. I hope my statement 
today, along with those of my colleagues in the Department of Homeland 
Security (DHS) and from the National security science and technology 
provider community, will result in concrete actions to ensure that DHS 
can provide science and technology (S&T) solutions that allow our 
Nation to get, and stay, ahead of threats to our homeland. In order to 
do this, I believe DHS needs to create and foster an enduring 
environment where dedicated, outstanding scientists and engineers can, 
as providers of solutions that will deter acts of terrorism, enable 
resilience to natural disasters and other incidents, and facilitate 
trade and travel while enhancing security.
    One example of how dedicated scientists made a difference in urgent 
circumstances was the decontamination foam that was used to clean up 
nearly all the contaminated buildings in Washington, DC after the 
anthrax attacks. Our scientists had been watching the biological threat 
for years--concerned that pathogens would someday be used against our 
population--and that we would need to rapidly respond. When the attack 
came, we had already developed a novel, effective technology to quickly 
mitigate the consequences. That kind of threat awareness, and the 
ability to do something concrete about it, comes from a special type of 
person in a special type of institution. The DOE National Security 
Laboratories cultivate those committed people and establish and 
maintain those capabilities. My hope is that, with a shift in the way 
DHS and these labs engage with each other, we will realize a robust and 
enduring approach to ensure our Nation is always prepared.
                     major points of this testimony
  <bullet> The only way DHS can get ahead of the threat is with a 
        dedicated and flexible science and engineering enterprise 
        focused on solutions for the long term and the unique nature 
        and capabilities of the DOE National Security Laboratories 
        makes us natural partners in this dedicated enterprise.
  <bullet> DHS has benefitted from many technical solutions that the 
        DOE National Security Laboratories contributed as a result of 
        long-term research and development performed for other agencies 
        long before its creation, but that pipeline is not being 
        sustained.
  <bullet> DHS as a whole is not taking advantage of the systems 
        analysis and long-term innovation that the DOE National 
        Security Laboratories are best-suited to provide; however, 
        there are some on-going efforts that begin to model what the 
        partnership could look like--and lead to enduring solutions to 
        hard homeland security mission challenges.
     need for dedicated homeland security research and development
    In the aftermath of 9/11 and the Amerithrax attacks, the National 
Academy of Sciences completed a rigorous assessment of major Homeland 
Security challenges. ``Making the Nation Safer''\1\ described in detail 
how important technical approaches were to effectively managing the 
risks in the homeland security mission space--especially since many of 
the most consequential threats are posed by technology. The report 
pointed out what we now accept as a basic truth--that our society and 
infrastructures are very complex and completely interconnected. 
Understanding threats and potential consequences to these systems, as 
well as understanding how to optimally balance the components of the 
systems--technologies, people, and concepts of operations--is the 
fundamental first step in changing the risk equation in our favor. And 
although the National Academies proposed a suite of near-term, high-
priority research and development activities, they also stated it was 
critical to establish a flexible supporting science and technology 
enterprise that could change and adapt as circumstances change. Getting 
in front of the threat--and staying there--is what the DOE National 
Security Labs were created to do--and what we have been doing well for 
over 60 years.
---------------------------------------------------------------------------
    \1\ Making the Nation Safer: The Role of Science and Technology in 
Countering Terrorism, Committee on Science and Technology for 
Countering Terrorism, National Research Council, http://www.nap.edu/
openbook.php?record id=10415, 2002, The National Academies Press, 440p.
---------------------------------------------------------------------------
    Congress recognized the capabilities the DOE Labs could apply and 
explicitly created pathways that would facilitate the new Department's 
access to and use of these labs in the 2002 enabling legislation--Pub. 
L. 107-296, Sec 309. This legislation was remarkably forward-looking, 
and explicitly gave DHS direct access to the DOE Labs' unique 
expertise, knowledge base, and experimental and computational 
facilities--developed over years of taxpayer investments--to help with 
needed science and technology for homeland security on an equal basis 
with other missions. As a result, it provided a direct path to 
establishing a cadre of experts with an enduring focus on the hard 
problems in homeland security within the DOE National Laboratories.
    Today, the DHS and laboratory community recognize the unique nature 
of homeland security work relative to other National security 
challenges. When supplying technical solutions for homeland security, 
consideration must be given to the operator and his or her environment 
and training, to individual freedoms and U.S. public acceptance, to 
interagency coordination, and to other practical and policy 
considerations. In addition, the homeland security missions are broad 
including everything from natural disaster preparation to protection 
from, response to, and recovery from the use of a weapon of mass 
destruction against the U.S. civilian population. This is not a mission 
space that will be covered simply by adapting solutions being developed 
for other reasons--it is a unique mission space requiring solution 
providers with considerable domain knowledge and expertise.
                  doe national laboratories construct
    Let me start with a brief summary of the DOE Laboratories for those 
of you who are unfamiliar with us. DOE manages 17 National 
Laboratories, 3 being managed under the National Nuclear Security 
Administration (NNSA). Sandia and our two sister NNSA Labs--Lawrence 
Livermore and Los Alamos--are large, multidisciplinary research and 
development (R&D) institutions wholly dedicated to the National 
security. Most of the DOE Laboratories have missions devoted to science 
and energy, although two of those--Pacific Northwest National 
Laboratory and Oak Ridge National Laboratory--have significant 
footprints in National security. All of the National Laboratories have 
operated as Federally Funded Research and Development Centers (FFRDCs) 
since our creation about 65 years ago during the Manhattan project. 
Today, Sandia's prime sponsor is the NNSA and we work with support from 
multiple Government agencies to provide science and engineering 
solutions for complex and high-risk systems, endangered by often 
existential threats.
    The FFRDC construct has served the Nation exceptionally well for 70 
years. The core tenets of FFRDCs (from FAR Title 48CRF35.017) govern 
the practices and culture of the National Laboratories:
  <bullet> An FFRDC meets a special long-term research or development 
        need,
  <bullet> An FFRDC is required to conduct its business in a manner 
        befitting its special relationship with the Government, to 
        operate in the public interest with objectivity and 
        independence, and
  <bullet> A long-term relationship between the Government and FFRDCs 
        should provide the continuity that helps the FFRDC both attract 
        and retain high-quality personnel. This relationship should 
        also be of a type to encourage the FFRDC to maintain currency 
        in its field(s) of expertise, retain its objectivity and 
        independence, preserve its familiarity with the needs of its 
        sponsor(s), and provide a quick response capability.
    The fact that we are FFRDCs, coupled with the nature of our work 
over decades, has created a truly valuable and unique resource for the 
U.S. Government to meet its special long-term needs for science, 
technology, and engineering. Efforts at the DOE National Security Labs 
span the complete technology life-cycle from basic research and 
development to testing and evaluation, modeling and simulation, 
technology system deployment, operator and decision-maker support and 
training, and policy advice. Our special relationship with the 
Government provides for independence and objectivity--and our bottom-
line commitment is to the mission rather than the shareholder. This 
creates a different mindset among our staff, one of total commitment to 
sponsors' needs and to the security of the Nation. The labs do not 
compete with industry; rather we partner with them to pave the way for 
commercialization of technology once it is sufficiently mature to 
become operationally viable. We do not fulfill all of the needs for 
homeland security technology solutions--but we fill a crucial niche as 
a brain trust of homeland security domain expertise and deep and broad 
science and engineering in addressing both urgent and long-term needs 
for science, technology, and systems advice.
    Each of the DOE National Security Laboratories has unique strengths 
and capabilities. At Sandia, our culture of both scientific excellence 
and large-scale systems engineering drives us to think about the 
totality of a problem and to understand what will really make a 
difference; not to simply reach for ``low-hanging fruit'' but to really 
explore how to change the game. Nothing is more likely to inspire lab 
staff to innovation than stating an important problem is too complex to 
solve. All of the DOE National Security Labs have the ability to bring 
together interdisciplinary teams to tackle problems that are beyond the 
scope of academic institutions--although we frequently partner with 
academia to feed the innovation pipeline, to keep our skills sharp, and 
to develop future generations of laboratory staff. Sandia creates and 
maintains large facilities for the U.S. Government such as 
environmental test ranges, including those for testing novel 
explosives; nano- and micro-fabrication facilities capable of producing 
both research prototypes and unique, radiation-hardened 
microelectronics; and high-performance computing. These facilities can 
be used for high-risk, classified experiments and push the envelope 
beyond the scale of those existing at purely academic or commercial 
entities.
      a brief summary of sandia's homeland security contributions
    All of the DOE National Security Laboratories have applied their 
unique expertise individually and in collaborative partnerships over 
the years to create solutions to high-impact homeland security 
problems. The examples below are a subset of the areas in which Sandia 
has contributed. Each of the labs could share a similar list of 
contributions.
Looking Over the Horizon--Biological Risk
    The long-term relationship codified by the FFRDC construct provides 
for an enduring focus on significant National security issues that 
creates the deep and broad knowledge base that not only enables the 
labs to understand the immediate threats, but also to look over the 
horizon and anticipate future risks. Before the creation of DHS, the 
labs anticipated the potential for a biological threat to be used on 
civilian populations in the United States, and invested in solutions to 
use if needed--such as the specialized foam (mentioned earlier) used to 
decontaminate 53 of the 56 Washington, DC-area buildings that were 
contaminated by the 2001 anthrax attacks. Our microanalytical methods 
that allowed characterization of the Amerithrax material were 
incorporated into specialized equipment and transferred to DHS' 
National Bioforensics and Analysis Center (NBAAC) for routine use in 
the investigation of biocrime and bioterror events. We were engaged in 
developing the first generation of the BioWatch program, which placed 
detectors in locations around numerous U.S. cities to rapidly detect 
the release of pathogens into the air. As DHS is now enhancing the 
system, the labs are performing trade-off studies to inform the 
requirements for the next-generation system to ensure performance 
metrics for response time and detection sensitivity are understood and 
incorporated. Today, rapid advances in biology have opened the door to 
the possibility that terrorists might engineer existing or develop 
novel organisms to enhance their efficacy and evade current detectors 
and countermeasures. Sandia is investing in methods to rapidly identify 
new threat organisms to allow response to these new potential threats.
Leveraging and Coordinating Efforts--Nuclear and Cyber Risk
    Another key strength of our National security laboratories is the 
ability to leverage across the breadth of related National security 
missions--helping to create a more consistent and robust system across 
multiple U.S. Government agencies and international partners. As 
expected, the labs have contributed to the current goals of nuclear and 
radiological risk reduction beginning with aggressively accelerating 
research to modify radiological detection technologies originally 
developed for DOD and NNSA for use in homeland security applications. 
DHS operations required that equipment originally capable only of 
identifying specific radionuclides in controlled lab conditions rapidly 
evolve for effective deployment in the noisy, environmentally variable 
real world and for use by non-technical operators. The DOE National 
Security Labs were key to this technology transition.
    The labs continue to work with the Domestic Nuclear Detection 
Office (DNDO) to build the Global Nuclear Detection Architecture (GNDA) 
and develop international guidelines documents on core concepts related 
to nuclear detection. DNDO's ``Model Guidelines Document'' is currently 
being adapted by the International Atomic Energy Agency (IAEA) to be 
part of its Nuclear Security Series. DHS has been able to leverage 
capabilities and past experiences at Sandia including those gained from 
supporting the NNSA's nuclear non-proliferation efforts such as Second 
Line of Defense (SLD), the Department of State's Export Control and 
Related Border Security Assistance (EXBS), the Department of Defense 
CENTCOM workshops on weapons of mass destruction (WMD) interdiction and 
border security, IAEA initiatives, and others. The benefit to DHS 
includes not only specific technologies but also technical bench 
strength that have been built by the DOE National Security Laboratories 
for other agencies to apply to the unique problems in homeland 
environments. Those agencies, in turn, benefit from the contributions 
sponsored by DHS--resulting in an overall uplift of the Nation's 
nuclear security capabilities.
    Because of our long history in cybersecurity for a variety of 
sponsors and beginning with our responsibility for the security of the 
command and control of the U.S. nuclear weapons, DHS' National 
Protection and Programs and Science and Technology Directorates are now 
leveraging Sandia's knowledge of the most sophisticated cyberthreats to 
perform adversarial analyses on potential new cybersecurity approaches 
before they are deployed for use by Government and industry. We also 
use our deep knowledge base and ties to other Government entities to 
develop and extend tools for analysis of risk factors, to perform 
threat assessments, and conduct vulnerability assessments on systems of 
interest to the DHS.
The Nation's Technical First Responders--Urgent Response to Natural and 
        Man-Made Incidents
    Our enduring focus provides an ability to quickly respond to urgent 
needs--and this is particularly true for WMD and other high-consequence 
threats. The labs are the Nation's technical first responders. In the 
aftermath of Hurricane Katrina, the Christmas day bombing attempt, and 
the Deepwater Horizon and Fukushima disasters, our deep technical 
expertise was used as an immediate and integral part of the overall 
response to guide executive leadership in characterizing the situation, 
predicting the evolution of the incident, and advising on appropriate 
response and consequence management approaches.
Applying System Solutions and Developing Requirements Informed by 
        Domain Knowledge--Border and Aviation Security
    No homeland security solution exists in a vacuum. These solutions 
are all part of complex, interdependent systems that include 
technology, human operators and decision makers, environmental and 
operational constraints, policy drivers, and many other competing and 
reinforcing requirements. Sandia systems analysts work with both DHS 
S&T and DHS operational components to refine the understanding and 
definition of problem space, create and apply an analytic framework 
that utilizes ``measures of effectiveness'' germane to stakeholders' 
objectives, analyze options within that framework, and then explain 
options, insights, and trade-offs to enable action.
    The highly complex and enduring challenge of enhanced border 
security requires developing a detailed and accurate understanding of 
the global systems architecture and all of its important components: 
Ports of entry and unattended borders at the ground level and below, in 
the air and on the water, across all modes of transportation and 
conveyances, moving legitimate and illegitimate people and goods. The 
border is a complex interdependent system that can only be addressed 
through a multidisciplinary, sustained, and long-term effort. For over 
60 years, Sandia has been providing trusted National service in the 
form of end-to-end analysis and full life-cycle support solutions for 
safeguarding critical National assets.
    In the early 1990s, Sandia performed a mile-by-mile analysis of the 
Southwestern U.S. Border for the Immigration and Naturalization 
Service. The study assessed the impact of potential technological and 
operational changes, and made specific recommendations such as the very 
successful multi-layer San Diego fence. The 1993 report continues to be 
frequently requested and referenced by DHS and others interested in 
understanding the border system.
    More recently, Sandia led a team to contribute to aviation security 
by performing system modeling and analysis of the TSA airport 
checkpoint system in order to understand the effect of deployment of 
new systems on the checkpoint operations. As a result, a decision 
framework and prototype tool was provided to TSA to apply a structured 
approach for evaluating system impacts and tradeoffs among key aviation 
security objectives. And when TSA starts its next system acquisition, 
it will know in advance how effective it will be for the dollars 
expended and how best to deploy the systems so the technologies and its 
human operators work smoothly together.
      dhs relationship with the doe national security laboratories
    As discussed above, Sandia worked on many homeland security 
challenges long before the September 11 attacks and we have been 
committed to DHS since its inception. Our lab, along with other DOE 
National Security Labs, provided scientists who established the 
framework for the S&T Directorate (and later DNDO) and who also filled 
key roles in the initial senior leadership team. The labs played a 
foundational role in creating the systems configuration and enabling 
the technical basis for major homeland security capabilities in use 
today, including the BioWatch System, radiation detection technologies 
used at major points of entry, and the technical basis for assessing 
aircraft vulnerability. Sandia remains firmly committed to the homeland 
security mission, even though DHS work is a very small and decreasing 
percentage of our work.
    While the 2002 legislation creating DHS authorized utilization of 
the DOE National Laboratories as R&D FFRDCs for DHS that is not the 
role that we have today. Now our laboratories are used predominantly as 
contractors on competitively bid research projects. We perform discrete 
research and technology development in response to specific technical 
requirements. While the labs have been relatively successful in 
competing for projects on a transactional basis, this model fails to 
utilize the unbiased technical advice and analysis for systems-based 
solutions based on a thorough understanding of the mission and the 
operational needs of the sponsor, deep scientific understanding, and 
multidisciplinary National security expertise unique to these 
laboratories. In fact, working on projects rather than mission is 
precisely the wrong use of these labs.
    Part of the issue with appropriate use of the DOE National Security 
Labs is it requires coordination between S&T and the operational 
components in a way that doesn't exist today. The S&T Directorate is 
responsible for R&D efforts and priorities in support of DHS' mission, 
and performing associated demonstration, testing, and evaluation and 
assessing threats and vulnerabilities. But the responsibility for 
understanding the systems-level mission challenges lays with the 
operational components--e.g., CBP, TSA, and FEMA.
    Mission-relevant R&D must have an integral connection to the needs 
of the operational components and the environments in which they work. 
Solving major homeland security challenges requires systems-level 
solutions enabled by a combination of thorough understanding of 
operational missions, subject matter expertise, and R&D focused on core 
challenges. The most fruitful collaborations begin with scientists and 
engineers working directly with the operators. The depth of insight 
gained during these collaborations is invaluable in characterizing the 
entire system, determining the most crucial needs, and creating a 
vision of what is possible. If the operational components directly 
access the DOE National Security Labs as FFRDCs to support them in 
developing their systems requirements--the result could be avoiding the 
monetary and security costs incurred with suboptimal systems.
    Another issue has occurred because of the shift in the S&T 
Directorate, an almost exclusive focus on foraging for existing 
technologies that can be rapidly adapted and integrated into existing 
systems. It is not surprising that in today's operationally dominated 
homeland security environment, the operational components and the S&T 
Directorate are driven by immediate needs and have neither the time nor 
an ingrained cultural inclination, to focus on systems-level solutions 
for the rapidly evolving global environment. While this approach can be 
a useful part of overall solutions, it is equally also important to 
find the right balance between harvesting available technologies and 
driving innovation for the long term.
    Many of the most impactful technical solutions to the homeland 
security problem arose from investments made by the Government before 
DHS stood up. That pipeline that benefitted from long-term R&D has 
dwindled or, in some cases, perhaps even been lost. If technology 
foraging is the sole focus of DHS, then it will fall farther and 
farther from achieving the levels of risk reduction required to protect 
the Nation now and in the future. The lack of interest in the type of 
creativity the labs bring to bear on the homeland security problem 
coupled with the lack of DHS commitment reflected in intermittent and 
unpredictable funding has resulted in lab staff, who had previously 
dedicated themselves to this mission, walking away to work on other 
important National security problems. The longer this absence of 
enduring mission partnership continues, the less likely will we be able 
to recapture the most talented scientists and engineers to attack 
problems unique to the homeland security mission and operational 
environments--and drive the innovation required to stay ahead of the 
rapidly adapting adversaries and effects that propagate through our 
highly interdependent systems.
    For all of these reasons, if DHS can institutionalize the FFRDC 
partnership relationship with the DOE National Security Laboratories 
that was envisioned and authorized in the 2002 Homeland Security Act, 
we can provide a very important capability for meeting homeland 
security challenges and fill the keystone niche that bridges the gap 
between what we have and what we need in terms of effective security 
technology systems.
    Presently there are some activities that show promise to result in 
mission-level work that takes advantage of the character of a FFRDC 
relationship and that would provide substantial benefit to the homeland 
security mission.
  <bullet> In biosecurity, DHS S&T has recently engaged a few DOE 
        National Security Laboratories in the on-going development of 
        an integrated biosecurity strategy.
  <bullet> A group of DOE Labs together with the Homeland Security 
        Systems Engineering and Development Institute and the Homeland 
        Security Studies and Analysis Institute has been working with 
        TSA to develop systems analysis resources for the development 
        and implementation of risk-based screening.
  <bullet> S&T and FEMA have engaged Sandia, not just as a technology 
        provider for technologies used by emergency preparedness 
        professionals to enhance their training, but also as a long-
        term strategic partner to help create a roadmap for development 
        and utilization of technology to enhance the Nation's emergency 
        preparedness. This partnership has also allowed S&T and FEMA to 
        demonstrate several near-term wins, while continuing to pursue 
        a longer-term R&D agenda to address tomorrow's technology 
        needs.
  <bullet> Recently, Under Secretary Tara O'Toole has asked a group of 
        DOE National Security Laboratories to articulate major emerging 
        homeland security challenges, along with the capabilities and 
        R&D that will be required to address those challenges.
   a future with dedicated homeland security research and development
    The pace of technology change and the increasing complexity and 
interdependence of the systems homeland security manages and employs 
demands that DHS moves to the forefront of innovation to keep in front 
of the threat--and even more importantly, to shape the environment 
which the threat operates and affects. As stated by the National 
Academy of Sciences back in 2002, it is critical to establish a 
supporting science and technology enterprise that could change and 
adapt as circumstances change.
    The only way to move from a reactive to an anticipatory posture in 
the homeland security mission space is to establish and sustain a 
dedicated R&D enterprise that is a full partner in creating the future. 
This partnership can help ensure that not only the urgent--but also the 
most important and enduring problems are addressed. This partnership 
can ensure that dedicated scientists and engineers develop and preserve 
familiarity with the needs of its DHS sponsors, establish a long-term 
enduring relationship that keeps high-quality personnel engaged in 
addressing mission challenges, maintain currency in fields of expertise 
important to the mission, can provide a quick yet deeply knowledgeable 
response capability, and can provide the advice and systems 
understanding needed to implement solutions that truly address the most 
important risks.
    With a full partnership with the DOE National Security Labs, we can 
imagine a future where:
  <bullet> We no longer simply reacted to novel explosive threats in 
        the months and years after they have been used--but rather 
        developed in advance synthesized information from intelligence 
        assessments, detection R&D, explosive performance R&D, and 
        advanced detection concepts. This information could drive 
        development and prioritization of mitigation methods for 
        various adversary threat pathways, concealments and threat 
        materials. The labs already created the structure to accomplish 
        this task and have many of the component parts, which could be 
        resourced and sustained as an integrated capability.
  <bullet> We could enhance security without disrupting the flow of 
        people or commerce. We have already begun working with TSA and 
        industry to develop risk-based, threat-informed screening 
        architectures and enabling technologies that enable graded 
        passenger screening, with maximum screening of only the 
        highest-risk passengers. A systems approach would consider the 
        entire system and not just the checkpoints. Protective measures 
        throughout the airport and aircraft could eventually lead to 
        the point that you won't have to take off your belt and shoes--
        and perhaps you can even carry a bottle of shampoo on board the 
        plane with little or no risk that a terrorist could smuggle in 
        enough liquid explosives to bring down an airplane.
  <bullet> The labs have applied their expertise to push the envelope 
        on data to decisions--enabling the analysis of enormous and 
        diverse data sets and quickly providing the most important 
        elements of the information to decision makers in order to 
        react to events in near-real time. For instance, it were 
        possible to pull together the vast array of data on nuclear 
        materials that is currently collected and stored in hundreds of 
        different locations in different formats; synthesize and 
        analyze it and then push actionable information out to front-
        line operators in near-real time.
  <bullet> A biosurveillance system and key enabling technologies 
        provide a cost-effective risk-based mix of environmental 
        monitoring and medical diagnostics and surveillance to give 
        early warning of attacks to major population centers--saving 
        countless lives by allowing timely medical intervention for 
        those people who have actually been exposed and require 
        medication.
  <bullet> A National-level analysis capability for understanding the 
        impacts of cyber attacks across interdependent U.S. 
        infrastructure elements allows us to defend our civilian 
        infrastructure against asymmetric and ubiquitous cyber threats.
  <bullet> Analysis tools and subject matter experts decipher the 
        complex interdependencies of our critical infrastructure, 
        assess vulnerabilities and potential cascading effects, thus 
        enabling the Government, private sector, and citizens to 
        dramatically increase resilience saving lives, property, and 
        services.
    We are committed to the homeland security mission; we can make a 
difference. It is what we strive to do--provide exceptional service in 
the National interest.

    Mr. Lungren. Thank you very much.
    Now, Dr. Carter.

  STATEMENT OF MICHAEL R. CARTER, SENIOR SCIENTIST, NATIONAL 
  IGNITION FACILITY AND PHOTON SCIENCE DIRECTORATE, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Mr. Carter. Hi, good morning, Chairman Lungren, Ranking 
Member Clarke, and distinguished Members of the committee. I 
also thank you for the opportunity to testify before you today 
on this important relationship between the Department of 
Homeland Security and Department of Energy's National 
Laboratories.
    I bring a unique perspective to today's hearing, having 
served as a scientist at Livermore for more than 40 years, and 
in a Government role, as the first Director for their 
Radiological Nuclear Countermeasures, in the Department of 
Homeland Security's Science and Technology Directorate and, 
subsequently, as the first Deputy Director of DNDO. Having 
served in these roles, I have an appreciation for both the 
requirement and challenges at DHS and the roles and scientific 
capabilities that the National Labs have, that are best suited 
to help fulfill the DHS mission.
    My recommendations today are based on my experience from 
both of these phases in my career. This is especially true for 
the protections against the determined and adaptive adversaries 
intent on the use of weapons of mass destruction. Over the last 
10 years, the Department of Energy Labs have developed many 
technical solutions in support of DHS. These contributions 
include innovation in biodefense, nuclear detection and 
forensics, aviation security and explosive countermeasures, 
infrastructure protection and support to on-going DHS 
operations.
    I will briefly mention just a few of these and then I will 
speak a little bit more about today's challenges. Prior to the 
Anthrax attacks in the Fall of 2011, the National Laboratories 
were funded by internal laboratory--director of research and 
development funds and Department of Energy, and were already 
pioneering the field of rapid, DNA-based, detection of 
biological pathogens. These detection methods became the basis 
for the Nation's Biowatch program.
    In the last decade, more than a million samples, from over 
30 U.S. cities, have been analyzed for the signatures of a 
biological tag, without a single false alarm. In the subsequent 
decade, the Department of Homeland Security has supported the 
laboratories in the development of autonomous, biological 
detection systems and, also, invested in bioinformatics and DNA 
microarrays. These microarrays provide the potential for the 
detection and, also, identification of both engineered or 
previously unknown pathogens, by searching for DNA similarities 
with thousands of known viruses and bacteria.
    In 2004, the Department of Homeland Security established a 
Bio Defense Knowledge Center at Livermore. The BKC has produced 
more than 100 studies for the biodefense community, served as a 
technical reach-back center for DHS, and has recently partnered 
with CVP's initial targeting center to develop methodology for 
the interdiction of bioterrorism-related materials at our U.S. 
borders.
    Similarly, the DHS entity has established a tri-lab program 
focused on aviation security countermeasures. Leveraging the 
extensive experience and infrastructure for explosives research 
for our nuclear weapons program, the lab scientists have turned 
their attention to the home-made explosive threats. Scientists 
are working to understand the formulation, the energetic 
properties and the detection methods, for hundreds of potential 
home-made explosives, with the goal of--you know, again, 
keeping TSA ahead of an ever-attacking adversary.
    Similarly, the nuclear security R&D programs, which began 
over a decade ago, are beginning to bear fruit. The development 
of new detection materials for both gamma ray and neutron 
detection systems are setting the foundation for improved 
systems deployed at our borders and with our State local law 
enforcement community. But major gaps in our capability remain. 
In particular, stand-off detection and detection of shielded 
nuclear materials remain grand challenges, with very little 
support in the R&D community.
    Because of cuts, by nature, in nuclear weapons, the 
National Laboratories are the Nation's repository of expertise 
and are the natural partners in development of next generation, 
radiological, nuclear countermeasures. I urge the Congress, the 
Department of Homeland Security and the DOE Labs to not lose 
focus on the difficult challenges that pertain to the homeland, 
especially against the threat of weapons of mass destruction.
    The DOE Labs bring unique, specialized, S&T capability and 
expertise to the DHS mission, yet with reduced budgets and 
increasingly near-term priorities, the resources available for 
these partnerships with the laboratories are in significant 
decline. I believe the Department of Homeland Security should 
utilize the National Labs for enduring, difficult problems 
where multi-disciplinary teams are required to anticipate, to 
innovate, and deliver solutions.
    I also encourage the DHS to partner with the National 
Laboratories as that party sees, and bring together the 
operational elements of the Department and its stakeholders 
with the S&T workforce from the labs, to ensure the technology 
that is developed is focused on the Department's unique 
requirement. We should all work to make homeland security 
mission a career path choice for scientists and engineers at 
the laboratories. I encourage this committee's continued 
support and I thank you, again, for the opportunity to testify 
today.
    [The prepared statement of Mr. Carter follows:]
                Prepared Statement of Michael R. Carter
                             April 19, 2012
                        introduction and summary
    Good morning Chairman Lungren, Ranking Member Clarke, and the 
distinguished Members of the committee. Thank you for the opportunity 
to testify before you today on the critically important relationship 
between the Department of Homeland Security (DHS) and the Department of 
Energy (DOE) National Laboratories.
    I am Dr. Michael Carter, currently a Senior Scientist at Lawrence 
Livermore National Laboratory (LLNL). In 2002 I had the privilege to 
serve as a technical advisor to the DHS Transition Planning Office and 
served as the first director of radiological and nuclear 
countermeasures in DHS S&T Directorate (DHS S&T) and subsequently as 
the deputy director of the Domestic Nuclear Detection Office (DNDO). I 
returned to Livermore in 2006 and have since served in multiple 
capacities including the program director for counterterrorism programs 
at LLNL. The recommendations I provide are based on my experience and 
knowledge gained from these activities.
    DHS has been tasked with a very broad mission including the 
responsibility for homeland defense against determined and adaptive 
adversaries and preparation for and response assistance to natural 
disasters. ``Making the Nation Safer,'' a National Academy of Sciences 
report prepared soon after the events in 2001, stated ``strengthening 
the National effort in long-term research that can create new solutions 
should be a cornerstone of the strategy for countering terrorism.'' 
This need for long-term research prompted the establishment of an S&T 
Directorate within DHS.
    The DOE National Laboratories--principally the National Nuclear 
Security Administration (NNSA) Laboratories (Livermore, Los Alamos, and 
Sandia) and two Office of Science laboratories (Oak Ridge and Pacific 
Northwest)--have provided critical support to the DHS S&T over the past 
decade. Their focus has been on S&T development to tackle some of our 
Nation's most difficult challenges, which are typically longer-range 
than the immediate day-to-day operational issues facing DHS. I will 
highlight in my testimony examples involving efforts at LLNL.
    As the tenth anniversary of the founding of DHS approaches, I look 
ahead with concern. Determined and adaptive adversaries--now and in the 
future--pose some truly drastic threats to our Nation which we 
currently have no way to stop, inadequate means to mitigate the 
effects, and insufficient concerted investment in S&T to devise systems 
and technologies to improve our defensive and responsive capabilities. 
The Nation would greatly benefit from increased DHS attention to 
sustained, focused investments in S&T to address threats such as an 
engineered or emergent biological pathogen and a smuggled improvised 
nuclear device. These are examples of specific areas where the DOE 
National Laboratories are prepared to deliver unique S&T support to our 
National security. However, in response to changing priorities and 
reduced resources, the funding from DHS to LLNL has decreased from its 
peak in fiscal year 2006 of $131 million to an estimated funding level 
of $40 million in fiscal year 2012.
    I believe that the DOE National Laboratories are well-suited to 
shoulder responsibility for providing research and development (R&D) to 
counter serious homeland security threats. DHS reliance on the 
capabilities of the DOE Laboratories is a workable, effective answer to 
a pressing National need. I base this recommendation on four points:
  <bullet> Solving hard, enduring S&T problems.--The DOE National 
        Laboratories were established to serve the National interest by 
        solving challenging S&T problems best tackled by multi-
        disciplinary teams using state-of-the-art research 
        capabilities. Many of the challenging S&T issues facing DHS 
        fall into this category. Overcoming these challenges will 
        require sustained investment in R&D suitable for the DOE 
        National Laboratories and aligned with their National security 
        mission.
  <bullet> Leveraging existing S&T investments.--The DOE National 
        Laboratories perform considerable work for Federal sponsors in 
        mission areas closely aligned with those of DHS, develop 
        technologies that can be adapted to DHS missions, and/or have 
        special research capabilities that can be applied to unique DHS 
        mission needs. It is advantageous and cost-effective for the 
        Nation and DHS to leverage these previous investments.
  <bullet> Providing an S&T expertise base focused on homeland security 
        issues.--Working with diverse set of law enforcement and 
        emergency response agencies, DHS has unique needs for S&T 
        solutions that fit within their operational requirements. This 
        calls for the S&T professionals supporting DHS to understand 
        its operational needs, help shape requirements, and execute R&D 
        programs to meet DHS mission challenges. These S&T 
        professionals would also be available to provide technical 
        assistance to support on-going operations and prepared to 
        assist the Department's response to a terrorist event or 
        natural disaster.
  <bullet> Developing trusted partnerships.--DHS would benefit from an 
        enduring relationship with FFRDCs that understand their unique 
        operational requirements and can serve as ``honest brokers'' 
        and trusted partners. The DOE Laboratories are also natural 
        partners in establishing and sustaining a pipeline of young 
        scientists and engineers emerging from our Universities 
        interested in careers in S&T dedicated to National security 
        missions. The laboratories have served these roles for the DOE 
        since their creation.
    These benefits were implicitly recognized by the Homeland Security 
Act of 2002, which established the Department and set the foundations 
for DHS S&T through the transfer of funding, responsibility, and key 
technical capabilities to counter nuclear and biological terrorism from 
DOE to DHS. The Homeland Security Act also authorized DHS to establish 
contracts with one or more Federally-funded research and development 
centers (FFRDCs) to carry out its responsibilities. Congress 
specifically authorized multiple methods, including a joint sponsorship 
agreement, for DHS to utilize the DOE National Laboratories. The 
examples I provide demonstrate that the partnership between DHS and the 
DOE National Labs has proven vital in leveraging the Nation's S&T 
capabilities to protect the homeland. This partnership needs to be 
rejuvenated and continued.
                              bio security
    In the immediate aftermath of 9/11 and the anthrax attacks, the DOE 
National Laboratories were called upon to provide the technology for 
the Nation's biosecurity program. They were ready to do so because the 
underlying technical foundation for the Biowatch program was in place. 
The technology development for Biowatch started through Laboratory 
Directed Research and Development (LDRD), an internal investment 
program at the DOE Laboratories targeting exploratory S&T to meet 
current and emerging mission needs. Scientists at the laboratories 
recognized Biosecurity as a critical National security need and 
pioneering work began on the technology for rapid agent detection via 
polymerase chain reaction methods (PCR) in the 1990s. The LDRD work led 
to program support from NNSA's Office of Non-Proliferation Research and 
Development's Chem/Bio program.
    Thanks to exploratory investments and the existence before 9/11 of 
a DOE program focused on a critical National security need, these DNA-
based PCR detection methods quickly became available and have 
demonstrated the capability to detect, identify, and characterize a 
threat organism in less than an hour. Detection systems have now 
operated for almost a decade, analyzing more than a million samples 
without a false alarm. Biowatch samplers are now located in more than 
30 U.S. cities monitoring for the early signs of bioterrorism enabling 
early treatment and intervention.
    The DOE Laboratories continue to lead the way in the development of 
advanced assays and DNA-based detection methods by leveraging their 
expertise in microfluidics and bioinformatic analysis of DNA sequences 
utilizing high-performance computing. Researchers have developed 
massively parallel, high-density DNA microarrays able to detect 
thousands of potential viruses and bacteria. This capability provides 
the potential for the detection and identification of previously 
unknown pathogens by searching for similarities in genetic sequences of 
known pathogens. Advances in detection technology funded by DHS S&T 
also provide benefit to the public health community. These DNA 
microarray-based detection methods have been used to identify a 
contaminating pig virus in a human vaccine for rotavirus.
    In 2004, DHS S&T established the Biodefense Knowledge Center (BKC) 
at LLNL to develop and deliver knowledge products critical for 
anticipating, preventing, characterizing, and responding to an attack 
using biological warfare agents. BKC personnel have authored dozens of 
rapid-turnaround analyses and in-depth threat and capability-based 
technical assessments on biodefense topics; published awareness 
bulletins focused on technical analysis of the potential for nefarious 
uses of biotechnologies; and developed information management tools 
that provide unique knowledge discovery capabilities for biodefense 
analysts Nation-wide. They have also authored 12 Material Threat 
Assessments, 26 Awareness Bulletins, 55 agent-specific factsheets; 
published a biothreats agent factbook; and responded to more than 100 
technical reachback requests from DHS and other operational entities. 
In addition, the BKC maintains an information system at three security 
levels with more than 34 million documents from a wide variety of 
Government sources.
    More recently, under sponsorship from DHS S&T, the BKC has 
partnered with the U.S. Customs and Border Protection (CBP) 
Agricultural and Biological Terrorism Countermeasures (ATBC) Program to 
develop improved methodology to intercept suspicious enabling 
biological material and equipment that could support bioterrorism. This 
new capability has been integrated into the Automated Targeting System 
for routine use at the National Targeting Center and will be accessible 
to all 22,000 CBP Officers at our Nation's ports of entry. This 
successful partnership between CBP and the BKC was acknowledged in a 
commendation letter from then Assistant Commissioner Thomas Winkowski 
to DHS S&T. Mr. Winkowski specifically called out the need to ``further 
build this partnership, one that bridges science and law enforcement, 
to undertake the daunting tasks and vital work that remain in 
preventing ag/bio-terrorism.''
                            nuclear security
    In the aftermath of 9/11, nuclear terrorism emerged as a top threat 
to our National security. Early assessments identified key weaknesses 
in the technology base for detecting and interdicting a smuggled 
nuclear device, including the ability to robustly detect shielded 
nuclear material at our borders. DHS S&T developed an R&D roadmap to 
improve the radiation detection technology base with particular focus 
on the operational needs of the DHS components. This roadmap identified 
the need to develop better gamma and neutron detection methods to 
dramatically improve detection sensitivity and reduce false alarms from 
other radioactive but non-threatening materials. Because of the 
classified nature of nuclear weapons, the fundamental understanding of 
the signatures of special nuclear material and nuclear weapons resides 
primarily at the DOE/NNSA Laboratories (Los Alamos, Livermore, and 
Sandia). These laboratories therefore played a key role in developing 
the R&D roadmap and investigating potential solutions to improve 
detection systems performance.
    The Nuclear Security R&D programs that began almost a decade ago 
are beginning to bear fruit with the development of new detector 
materials and detection methods. These new materials provide dramatic 
improvements in affordability, operational utility, and effectiveness 
in detecting and discriminating materials that could be part of a 
weapon from other radiation sources. In particular these more effective 
radiation detection materials enable the next generation of hand-held 
detection systems for secondary inspections at our ports of entry. New 
detection methods and advances in signal processing enable significant 
improvements in detection and identification of threat materials and 
significant reductions in false alarms rates. DHS DNDO has also 
supported R&D on alternative neutron detection methods in response to 
the worldwide shortage of Helium-3 used for conventional neutron 
detection systems.
    The R&D has resulted in dramatic improvement in detection and 
identification capabilities, but major challenges remain. However, 
resources for the DNDO's Transformational and Applied R&D program have 
been significantly reduced in the last 2 years and a focus on near-term 
solutions has replaced attention to the enduring challenges of stand-
off detection and detection of shielded materials. Agencies such as the 
DOE and DoD continue to pursue R&D in radiation detection but this 
research is often directed toward a set of requirements that do not 
necessarily fit DHS operational needs. DHS, DOE, DoD, and the Director 
of National Intelligence (DNI) work closely together to leverage scarce 
R&D resources to meet urgent needs in domestic nuclear security but in 
order to ensure effective technology development and deployment, DHS 
must sustain an R&D program focused on the unique operational 
requirements of the Department and its stakeholders.
    The National Laboratories have also played a key role in training 
and supporting DHS operational elements in their front-line role of 
detection and interdiction of nuclear material. Working closely with 
CBP, DNDO established a technical reachback network at the laboratories 
with trained scientists available for technical assistance to front-
line law enforcement officers 24 hours a day. This reachback support 
network has fielded hundreds of support requests and continues to work 
with DNDO, CBP and other DHS entities to support and improve the alarm 
adjudication processes. DOE Laboratory scientists bring a unique 
understanding of the signatures of nuclear materials and weapons as 
well as experience with the detection technologies deployed in the DHS 
operational environment. The training and technical support network 
will be critical if and when we are faced with our first domestic 
nuclear smuggling event.
    Scientists and engineers at the National Laboratories have also 
worked with DNDO in creating and assessing the Global Nuclear Detection 
Architecture (GNDA). This global view of the radiation detection 
systems deployed both domestically and internationally enables 
considered assessments of the capabilities and vulnerabilities in our 
collective abilities to detect and interdict a nuclear terrorist 
attempt. Working with partners across the interagency the laboratories 
have supported the integration of this network of systems and, through 
detailed technical assessments and operational analysis, have developed 
options to expand the deployed detection architecture to further reduce 
the risk of nuclear terrorism. Understanding the signatures of nuclear 
materials and the operational effectiveness of deployed systems and 
inspection processes is key to an ``honest broker,'' independent 
assessment of the capabilities and gaps of the GNDA. LLNL is now 
developing a searchable database and visualization system to help DNDO 
visualize and interrogate the GNDA and provide enhanced insight into 
detection assets world-wide.
    The National Laboratories are uniquely positioned to perform such 
systems analysis in support of DNDO and its interagency partners. LLNL, 
in particular, has played a critical and unique role in support of 
DNDO's red team efforts. LLNL has partnered with DNDO in understanding 
the nuclear threat space, designing and developing surrogates for the 
key nuclear signatures, planning and executing red-team operations, and 
developing lessons learned. This program has successfully worked within 
DHS and across the interagency bringing credible, independent 
assessment of technology and field operations dedicated to detection 
and interdiction of nuclear smuggling.
    Another example of a successful partnership model is the National 
Technical Nuclear Forensics Center (NTNFC) within DNDO. The NTNFC has 
two major roles: Acting as the lead for interagency coordination in the 
nuclear forensics arena and supporting a wide variety of expertise-
based programs including exercise development and planning. These 
programs include the Nuclear Forensics Science Panel, the Federal 
Expertise Development Program, and pipeline development activities 
(e.g., university fellowship programs). NTNFC leadership is clearly 
committed to their mission and has worked to create strong partnerships 
across the interagency as well as with the DOE Laboratories that 
provide the enduring technical capabilities that support the mission.
    This success, however, is limited. While the NTNFC plays a key 
coordination role, the center is not a majority stakeholder in the 
forensics community, either in budget or scope. This limits their 
ability to affect the priorities of their interagency partners 
including the FBI, DOE, DoD, and the DNI. Efforts have been made to 
create a coherent set of requirements for both pre- and post-detonation 
nuclear forensics, but local priorities at each agency still have a 
strong influence on how they expend their resources. The DOE 
Laboratories act as integrator, working across this space, but often 
without the integrated programs to invest in the required laboratory 
infrastructure, drive innovation, and solve grand challenge problems.
            aviation security and explosives countermeasures
    In response to the liquid explosives threat in London in 2006 and 
the prospect of a broad suite of home-made explosives threats, DHS 
turned to the DOE Laboratories within NNSA, which have a deep 
scientific understanding of explosives stemming from 60 years of work 
in the nuclear weapons program and other DoD missions. These 
laboratories are home to an extensive experimental infrastructure and a 
multi-disciplinary scientific and engineering staff with expertise in 
development and characterization of explosive compounds, explosive 
detection, modeling and simulation of explosive properties using high-
performance computing, and assessment of explosive effects.
    Livermore's High Explosive Applications Facility (HEAF) is one 
example of a $100 million facility, constructed for and operated by the 
LLNL's nuclear weapons program, that supported activities focused on 
the improvised explosive device threat to aviation security. 
Researchers in HEAF and other similar facilities at Los Alamos National 
Laboratory and Sandia National Laboratories teamed together to provide 
technical support to DHS. The Department sought to establish guidelines 
for allowed liquid quantities through passenger checkpoint screening 
and enhancement of technology and screening protocols for both checked 
baggage and passenger screening.
    Scientists at HEAF have formulated hundreds of home-made explosive 
compounds (HMEs), characterized their explosive properties, and 
evaluated their potential risk to aviation security. LLNL has also 
tested explosive screening technologies to understand and improve their 
detection performance against a broad array of military-grade and home-
made explosive materials. In DHS S&T-sponsored Project Newton, the 
laboratories are developing structural models of aircraft and the 
evaluating the effect of explosive blasts on the structure to determine 
the mass of conventional high explosives required for catastrophic 
damage. Laboratory characterization of HME properties are then used to 
establish the equivalent mass of different HMEs that would result in 
the same level of catastrophic damage. This work at the 
DOE/NNSA Laboratories complements live-fire aircraft testing, detection 
development, and certification testing done at the DHS Transportation 
Security Laboratory. This R&D supporting DHS S&T and the Transportation 
Security Administration (TSA) has had significant impact protecting the 
Nation's aviation infrastructure and passengers from ever-evolving 
terrorist tactics.
    The DOE/NNSA Laboratories have also worked with DHS S&T, TSA, and 
several mass transit agencies across the Nation to secure mass transit 
systems from asymmetric attacks using high explosives. The laboratories 
have assembled multi-disciplinary teams of structural engineers, 
computational scientists, physicists, mathematicians, and statisticians 
to assess vulnerabilities and mitigation methods. This work includes 
system-wide vulnerability assessments, non-destructive and destructive 
analysis of construction materials and methods, simulation of explosive 
properties and potential failure modes, and development and deployment 
of solutions that significantly reduce system vulnerabilities. These 
DHS-sponsored programs have resulted in improved measures to ensure 
public safety and protect billions of dollars of infrastructure at a 
cost of a few tens of millions of dollars in security and safety 
enhancements.
                     need for enduring partnerships
    In each of the programs above, a key enabler to success is 
partnership between the Federal program managers and the scientists and 
engineers at the National Laboratories. In the decade since 9/11, these 
partnerships have made critical contributions to the Nation's homeland 
security efforts. The DOE National Laboratories have deep technical 
capabilities, particularly in the area of countering weapons of mass 
destruction, which are key to the DHS efforts to develop effective, 
sustainable countermeasures against the threats of WMD. The 
laboratories have established extensive capabilities in high-
performance computing, precision measurement science, nuclear and 
radiological materials, high explosives, and modeling and simulation 
expertise, which would not be affordable otherwise. These technical 
capabilities are a direct result of investments made by multiple 
Government agencies, as well as investments from the laboratories 
themselves in directed R&D programs to address key National security 
priorities. Because of these and other investments, DHS's programs are 
highly leveraged.
    In our most successful programs, our scientists and engineers work 
with DHS to understand the threat space, develop an understanding of 
the operational requirements, evaluate alternatives, research and 
develop technology, test potential solutions in an operational 
environment, provide training and operational support to front-line 
operations, and develop lessons learned. These end-to-end programmatic 
partnerships have near-term impact and provide a basis for sustainable 
mission roles for the laboratories. The National Laboratories can bring 
unique, core capabilities to bear, partner with DHS, develop technical 
solutions to difficult National security challenges and develop a 
dedicated, knowledgeable workforce focused on mission success.
    The Nation would be best served if the relationship between DHS and 
the DOE National Laboratories were more than just a contractual 
relationship. A partnership with joint, enduring commitment between DHS 
and the DOE Laboratories would ensure focusing the laboratories' 
expertise and unique capabilities on S&T needs for homeland security 
with requisite sustained support from DHS. Reducing the risk of WMD 
requires a sustained effort to develop effective solutions, which in 
turn, require the mission-focused research, development, testing, and 
evaluation that the DOE National Laboratories offer. The combination of 
the right technologies, in the hands of a trained, equipped, and 
supported front-line workforce will be a key component of interdicting 
or responding to the WMD threat.
                         what's facing us now?
    Concurrently, the Nation is facing serious Federal budget issues 
and a dangerous, evolving WMD threat. As Congress and the Executive 
Branch work to tighten Federal discretionary expenditures, we as a 
Nation must not lose sight of the requirements to protect the homeland 
against the threats of catastrophic terrorism. The nature of the WMD 
threat, especially biological terrorism, continues to evolve and our 
ability to counter it lags further and further behind.
    At the same time, the threat grows more formidable and more 
sophisticated. Recent trends in explosive threats to commercial 
aviation have demonstrated that our adversaries adapt to our deployed 
countermeasures. Recent work on genetic modifications to pathogens such 
as the H5N1 virus highlight the increasing risk of an engineered 
pathogen deliberately or accidently introduced into the environment. 
DHS efforts to develop technologies for early detection and 
characterization of emergent pathogens are critical to our ability to 
stay ahead of the threat. An attack using an engineered biological 
agent or a smuggled nuclear device would result in human and economic 
consequences that are orders of magnitude more severe than anything we 
have experienced to date.
    To be successful in protecting the homeland, DHS must be ahead of 
the evolving threats and adaptations of our adversaries. Effective and 
enduring solutions are science-based, intelligence-informed, and 
developed with the DHS end-user community requirements in mind. 
Enduring solutions to difficult problems take time to mature. The 
typical technology maturation times from the beginning of an R&D 
program to the transition to the operational community can often be 
more than a decade.
                           concluding remarks
    The threat of the use of WMD, rather than fading with time, is 
growing more serious; yet, the focus on the S&T required to effectively 
counter the WMD threat has eroded. Since the stand-up of DHS, DOE no 
longer provides R&D funding to the National Laboratories in chemical, 
biological, and explosives countermeasures. There is increasing 
downward pressure on S&T resources within DHS as focus turns to near-
term technology gaps in the day-to-day operational missions of the 
Department and its stakeholders.
    DHS and Congress should not lose focus on the difficult challenges 
in protecting the homeland from the threat of WMD. I believe DHS should 
partner with the DOE National Laboratories as FFRDCs to meet critical 
National needs in homeland security. The laboratories have demonstrated 
that they bring unique, specialized S&T capability and expertise to the 
mission. In particular, DHS should:
  <bullet> Utilize the DOE National Laboratories for enduring, 
        difficult problems where multi-disciplinary teams are required 
        to anticipate, innovate, and deliver solutions to meet the most 
        demanding DHS mission needs.
  <bullet> Work with the DOE National Laboratories as FFRDCs and enable 
        program partnerships which bring together the operational 
        elements of DHS with the S&T workforce from the National 
        Laboratories to better ensure technology development focused on 
        the Department's unique requirements.
  <bullet> Leverage investments in the DOE National Laboratories made 
        by other sponsors (DOE, DoD) and adapt technology to Homeland's 
        unique mission requirements.
  <bullet> Develop a sustainable, mission-focused set of homeland 
        security S&T professionals with deep understanding of the DHS 
        operational environment and solutions that can be incorporated 
        into the homeland security operations and culture.
    By strengthening the partnerships between DHS and the DOE 
Laboratories, we will be able to better serve the mission of DHS to 
defend the homeland. I encourage this committee's continuing support of 
S&T activities supporting the DHS mission, and I thank you for the 
opportunity to testify before the committee.

    Mr. Lungren. Thank you very much for your testimony.
    I will now recognize myself for the first 5 minutes of this 
round of questioning. Back in the 1980s, when I happened to 
serve here the first time around, I remember holding some 
hearings on the nature of our National Labs and whether we 
appreciated them and whether there was an ability to transfer 
knowledge out of them into the commercial sector. You know, 
creatives and all sorts of things, that we developed at that 
time or extended development of that time.
    We are in a different world now at the National Labs. We 
had a re-organization--I call it a ``re-organization''--of 
National Labs a few years ago. In a sense--and, again, this is 
just a generalization but it is almost as if the National Labs 
were required to stand on their own in a new way. I will put it 
this way, with DHS being a partner or a client or a client 
partner, in some ways I can see relying more on that as a 
funding source and, therefore, being very responsive to the 
immediate needs, as we have asked DHS to be involved in 
immediate needs application, as we have dealt with the post-9/
11 world.
    So the question of how you maintain your capacity for self-
initiative in terms of the areas of research versus responding 
to the immediate requirement that you get from a client 
partner, is a difficult one, I would think. So let us go back 
to that Anthrax question. As I understand it, it was not 
because the Federal Government had directed you to do Anthrax 
research; it was as a result of larger-scale, general analysis 
of potential threats, as unknown as they could be, that you had 
continued with research--that when we had the Anthrax attack, 
you were able to respond with this foam as you said, is that 
correct?
    Ms. Hruby. The Anthrax foam was, indeed, an idea that was 
created through the Laboratory Directorate research and 
development efforts. But it was also supported at that--before 
the stand-up of DHS by the Department of Energy, who had a very 
small chem bio program, which helped get the technology to the 
stage where it could be deployed.
    Mr. Lungren. So, I guess, my question would be--was that 
was a success? We don't want to not have those successes in the 
future. You seem to caution, or give us some alarm, that, 
perhaps, the balance is not quite the one that you would 
foresee in terms of us responding more to the immediacy of a 
particular problem as opposed to, I would call, a basic 
research and development.
    But you also said, in your written testimony, that the 
enabling legislation that established DHS' relationship with 
the labs was remarkably forward-looking. So, I guess, with a 
benefit of 10 years of hindsight, do you have any 
recommendations for any legislative changes that would make 
that balance more possible or is this just going to be a 
continuing problem we are going to have as we deal with the 
reality of budgets and the idea of deal with the immediate 
versus the potential, long-range, unknown?
    Ms. Hruby. Let me say that I do think that the legislative 
framework exists for this to--the work between--you know, the 
work for DHS to be appropriate. There are practices that are 
difficult for the labs. So, you know, we have a portfolio of 
projects and the total amount of funding--you know, it has gone 
down but, okay--you know, it is a tough economic time.
    But, if you look at the size of the average project 
contract, if you will, that the labs contracted to for DHS, it 
is small. A half--I mean, even if I just use the numbers that 
Dr. Gerstein just reported--a couple hundred thousand dollars--
a $500,000, sort of, on-average, size of project, that is small 
for our workforce. It makes it hard to sustain scientists and 
engineers doing this, you know, as multi-disciplinary teams. It 
is not the right way to use the labs for such small projects.
    So it is not about the overall, total amount of money; it 
is about the kind of work. Part of this is a better 
relationship between DHS, S&T, and DNDO. This is more S&T 
because of the nature of their business, the labs and the 
operating units, so that the labs can understand deeply the 
needs of the operating units, can see what is possible in the 
long-term, can figure out the gaps and fill those gaps, as 
opposed to responding to detailed needs through proposals to 
fill shorter term gaps.
    Mr. Lungren. Okay, I don't want to put any words in your 
mouth but my sense, from what I take out from this, is we still 
need more effort of an integration of the mission of DHS in a 
science and technology arena and your operation, or the 
operation of the National Labs, that is not a--I wouldn't view 
that as a criticism; it is a suggestion of a larger, 
collaborative environment in which you might work. How you get 
there, of course, is the question that we would love to be a 
part of the participancy in coming to that. I don't view that 
as a criticism, I view that as a maturation of our 
responsibilities in a fiscally challenging time.
    Ms. Clarke is recognized for 5 minutes.
    Ms. Clarke. Thank you. Thank you, Mr. Chairman.
    This is very interesting because its really an evolutionary 
question that we are dealing with here. Many of the products of 
research and development that is taking place and has been 
taking place for quite some time in our labs, now it is where 
the rubber meets the road because a lot of what we could only 
envision has become reality in our lives as Americans.
    So it's about, you know, how we now come into the 21st 
Century understanding that reality and then integrating it in a 
way in which its productive. So I want to thank you for your 
testimony here this morning because you have brought a lot of 
clarity to what, you know, has been, I guess, sort of--you have 
an agency that is relatively young and you have National 
Laboratories that have been on this mission for quite some time 
now trying to be of mutual support to one another in fiscally 
austere times.
    So I want to get your viewpoint, both of you, on a couple 
of things. The DOE National Labs have very broad capabilities 
that may overlap with the needs of multiple DHS components and 
offices within the DHS components. So multiple laboratories may 
be well-positioned to provide services to DHS, the previous 
administration aligned the DOE National Laboratory capabilities 
with specific S&T Directorate technology divisions.
    This served to clarify which laboratories might be 
appropriate recipients of funding for certain topics. But it 
may have failed to recognize the unique contributions available 
at specific laboratories. Again, just an outgrowth of where we 
are in the 21st Century. Can you give me your viewpoints on 
that?
    Mr. Carter. Yes, I think it is also important to realize 
that, you know, in a lot of fields, in response to an urgent 
need or a long-term use in the Department of Homeland Security, 
what the laboratories are often able to do is partner with each 
other. So we know our relative strengths and weaknesses and 
gaps and vulnerabilities, you know, as well as anybody, if not 
better. What we find is when we partner with the laboratories--
Livermore, for example, has a long track record of partnering 
very closely with Sandia National Labs. What you would end up 
with is the best technologies and the best cultures and 
behaviors from each laboratory integrated into one collective 
partnership to execute an important mission.
    When the Federal Government tries to stovepipe one 
particular laboratory to be, you know--for example, the sole 
provider or the prime provider of a particular approach, those 
partnerships can break down. I think that is to the disservice 
for our Government sponsors and also to the laboratories, which 
would then build up multiple, duplicative--areas of expertise 
instead of taking the efficiencies that often come with 
partnering. So I think it is important to keep these partnering 
options and opportunities in the right perspective too.
    Ms. Hruby. Let me just add, that is a great question 
because that was an effort that held some promise to focus but 
it wasn't really successful and, therefore, was dropped. The 
alignment to specific areas--one of the things that happened is 
there are some large, dedicated National security laboratories, 
certainly the three NNSA Labs--PacificNorthwest Labs, Oak Ridge 
National Labs--that are really dedicated, wholly, to the 
National security; that is what we do.
    There are other great DOE Laboratories that have missions 
in energy and science, that have great capabilities to apply to 
some specific homeland security problems. But when they did 
this by--this alignment by divisions, there was no distinction 
between any of these labs in terms of their, you know, sort of, 
mission space and commitment to the area. There just, frankly, 
isn't enough money to have a wide--to have everybody play equal 
roles.
    So this is a very difficult situation because, of course, I 
have high regard, we all have high regard for each other's 
expertise, but we have to say that missions for National 
security and the labs that do that are distinct from the labs--
some other labs that have other primary missions in Energy 
Science and other things. So, I think, it is a matter of 
recognizing that in addition to things like focus and 
alignment.
    Ms. Clarke. It really becomes a matter of flexibility as 
well.
    Ms. Hruby. Absolutely.
    Ms. Clarke. You are tied into a commitment and you know 
that the expertise is resident in a smaller lab that has been 
working on a project, but you don't have the flexibility to 
incorporate that. It doesn't serve us any well and it may be 
even more costly to try to wield out the capacity that already 
is resident in another lab.
    Ms. Hruby. Yes.
    Ms. Clarke. Okay, so--I have more--okay, sure.
    What process has the S&T Directorate established to align 
the DOE National Labs with the S&T Directorate's requirement? 
What is your understanding of that? When conducting reviews of 
statements of work, how does the Office of National 
Laboratories align the DOE National Laboratory capabilities 
with the needs of DHS components outside of the S&T 
Directorate? If you have any knowledge of either of those, 
please.
    Ms. Hruby. To the best of my knowledge, in the competitive 
processes, DHS looks for what they consider to be the best 
proposal. It is this issue of alignment to a certain area, I do 
not believe, exists from my perspective. With respect to 
components, the labs, of course, do work with components that 
S&T is not very involved in.
    But S&T has a responsibility to review and make sure that 
mission is aligned. I commend the Office of National 
Laboratories for doing that effectively and efficiently and 
allowing the work to continue but, to the best of my knowledge 
with transparency perspective, it is about the best idea and 
not about an institution.
    Mr. Lungren. Okay.
    Mr. Long is recognized.
    Mr. Long. Thank you, Mr. Chairman.
    My question is similar to the one that I asked the first 
panel, from the other side of the coin, and that is: Are the 
Department of Homeland Security and Department of Energy 
working together to define your mission in your opinion?
    Doc Carter, I will start with you.
    Mr. Carter. So there are certainly activities between the 
two Federal agencies that help bring awareness to the 
Department of Homeland Security other than, for example, the 
Department of Energy's Laboratories' capabilities. Of course, 
in the end, the Department of Homeland Security contracts to 
the National Labs, you know, through the Department of Energy 
and Department of Energy site offices.
    But, as far as developing a joint strategy with respect to 
homeland security technologies joined between the Department of 
Energy and the Department of Homeland Security, I don't know of 
any process outside the Mission Executive Council process, 
which is relatively new, that begins to pull that strategic 
alignment of the laboratories together to meet the mission 
needs of, for example, the Department of Homeland Security.
    I believe the Mission Executive Council is one opportunity 
for the Deputy Secretary to level within multiple departments 
to at least begin to communicate and develop, you know, a joint 
understanding of what the relative, important, unique 
priorities for the departments are. But, as yet, we haven't 
seen that process actually come to much--that actually impacts 
the laboratory's work with the respect to the departments to 
date.
    Mr. Long. Okay.
    Ms. Hruby.
    Ms. Hruby. I agree with Dr. Carter. The best hope here is 
the Mission Executive Council to have all the National security 
agencies compare notes, think about the health and the 
capabilities at the National Laboratories to make sure they are 
properly utilized and funded. That has been a slow start and, 
in part, there hasn't been much engagement of the labs directly 
in that. So the assessment of the health of our capabilities 
have not yet entered into that discussion.
    I would say that----
    Mr. Long. Precipitate that, how can we get that to moving?
    Ms. Hruby. Well, your interest in it, I am sure, will be 
important. I would say that I do think that the collaboration 
between DNDO and NNSA has been significant over the years and 
is quite good.
    Mr. Long. Okay, thanks, you all, and thanks for being here 
and your testimony.
    Mr. Lungren. The gentlelady from California is recognized.
    Ms. Richardson. Thank you very much, Mr. Chairman.
    I would like to clarify--as you can tell, some of the 
questions are following some of the same areas and I would like 
to talk about, in your view, some of the competitiveness that 
DOE, in fact, has to go through in order to receive some of the 
DHS funding for contracts.
    Specifically, I am referring to, like, the DHS might rely 
upon the expertise of DOE National Laboratories in specific 
topic areas because of their long history of work in a 
particular area and we heard that from the first panel--their 
special relationship with Federal agencies and/or their ability 
to perform classified National and homeland security work.
    In other cases, the DOE National Laboratories may be one of 
many possible performers that could have performed that same 
job. In your opinion, how much of DHS funding to the DOE 
National Laboratories is awarded on a competitive basis and how 
much is it not?
    Ms. Hruby. I don't have any numbers, although I can 
certainly get back with you on those specifics. But it is the 
case that most, well over 50 percent, of the work that we do 
for DHS is based on a competitive process, which, by the way, 
we don't mind. I mean, we do--we don't mind competing, you 
know, we like competing. The issue, really, is, you know, we 
want to make sure we are competing for the best ideas while 
balancing that with maintaining a dedicated science and 
technology enterprise.
    What we have found is because of the small size and very 
specific nature of some of the competition, that our scientists 
and engineers are not always that interested. They don't feel 
that is the best use of their talent. That is why I make 
statements that I fear that the pipeline could be drying up, is 
because we are finding our scientists and engineers turning 
away from those mission, small, specific projects to work at 
other areas where they have more flexibility and long-term 
commitment.
    Ms. Richardson. So would you be able to provide to this 
committee, without the objection of the Chairman, a percentage 
of how many of these you think you receive and how many go 
outside?
    Ms. Hruby. I would be happy to.
    Ms. Richardson. Okay. Then, building upon that same idea, 
it is my understanding that the Office of National Laboratories 
does not have an official gatekeeper role, is how I would 
describe it, in determining whether a contract may be provided 
to a DOE National Laboratory. Do you agree with that? Also, 
what oversight mechanisms does the laboratory then have in 
place to track or assess DHS' investment in the DOE National 
Laboratories?
    Mr. Carter. I would say, yes, since the formation of the 
Office of National Laboratories, they have played a 
coordination role to be primarily not in oversight and 
governance role of the works that we do for DHS S&T. They do 
provide a valuable conduit, now, into Department of Homeland 
Security science and technology but, also, to the other 
operational components of the Department. They are often there 
in place to help us understand what the operational needs of an 
operational agency might be and assess, or at least help us 
assess, whether or not the micro trace capabilities are 
appropriate to offer up to the component of the Department as a 
potential solution.
    Ms. Richardson. So are you suggesting that, in fact, they 
have given you other options to consider?
    Mr. Carter. They have, actually, connected us in many cases 
with operational gaps across the Department and that helps us 
develop our strategies. Our technology base could, ultimately, 
be applied to those challenges.
    Ms. Richardson. How much of a percentage of time would you 
say that is actually implemented? One, that you receive the 
feedback and two, that you follow it.
    Mr. Carter. So I am not sure I completely understand the 
question. But they probably help us with about half of the work 
that we do outside the S&T Directorate and outside DNDO. So 
they help us with that alignment in that strategy.
    Ms. Richardson. Okay, and can you tell me--do you know of 
whether the percentage of where you are being suggested 
something else or have you been?
    Mr. Carter. No, I don't know that number directly. You 
know, typically, the Office of National Laboratories won't make 
those kinds of detailed suggestions but they will connect us 
with the operational elements that would have feedback and we 
would, of course, listen to that.
    Ms. Richardson. The operational elements within where?
    Mr. Carter. Within the departments so that that might be 
FEMA or CVP or GSA or whatever it might be.
    Ms. Richardson. So, then----
    Mr. Carter. [Off mike]
    Ms. Richardson [continuing]. Based upon my questions, and 
my time is running out, it sounds like to me that, in fact--the 
initial of how I lined up this question, it doesn't appear that 
there is a real true gatekeeper.
    Mr. Carter. So they don't play an official gate-keeping 
role, i.e. we are not required to check in with them before you 
talk to an operational agency outside S&T, but they play an 
advisory and assistance role, a coordination and collaboration 
role.
    Ms. Richardson. Okay, thank you.
    I yield back.
    Mr. Long [presiding]. I thank the gentlelady and I thank 
the witnesses for their valuable testimony and the Members for 
their questions.
    The Members of the committee may have additional questions 
for the witnesses and we will ask you all to respond to those 
in writing. The hearing record will be open for 10 days. This 
subcommittee stands adjourned.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

    Questions From Chairman Daniel E. Lungren for Daniel M. Gerstein
    Question 1. This committee has been unable to obtain detailed 
budget numbers from the Science and Technology (S&T) Directorate on how 
much money goes from the Department of Homeland Security (DHS) to the 
labs each year for the past few years. The numbers that were provided 
were insufficiently detailed, and took a week for S&T to pull together. 
This is concerning is because your office has the statutory role as 
coordinator of all Departmental research to the labs.
    Please explain why the office in S&T (Office of National 
Laboratories) that is legally charged with coordinating Departmental 
research to the labs cannot easily delineate annual expenditures to the 
labs. (Please do not address the discrepancies between DHS and 
Department of Energy (DOE) expenditure records until the next 
question.)
    Answer. In accordance with Section 309(g) of the Homeland Security 
Act of 2002 (Pub. L. No. 107-296) the Science and Technology 
Directorate's (S&T) Office of National Laboratories (ONL) was 
established within S&T, and is responsible for the coordination and use 
of the Department of Energy (DOE) National Laboratories to create a 
``networked laboratory system for the purpose of supporting the 
missions of the Department.'' S&T's performs appropriateness reviews of 
the tasks components send to the laboratories. S&T has not tracked DHS 
expenditures at the laboratories. Components requesting the work track 
the funds spent at the laboratories. Therefore, providing total DHS 
expenditures at the labs requires time to compile expenditure data from 
all components with work at the labs.
    ONL's role, working with DOE and its laboratories and sites, has 
resulted in the establishment of processes and procedures that have 
enabled the Department of Homeland Security (DHS) Components to engage 
with and use the DOE National Labs to meet their respective R&D and 
technology needs.
    To this end, ONL reviews all statements of work issued from DHS and 
directed to DOE National Labs prior to the preparation and submission 
of the final requisition package. The purpose of this review is to 
ensure the proposed work is within scope of and complies with the terms 
and conditions of the prime contract between DOE and the respective 
laboratory operator (Federally Funded Research and Development Center).
    Question 1b. In addition, can you please explain the nature of the 
discrepancies between DHS and DOE expenditure records? What is the 
delta, in dollars, for each of the last 3 fiscal years between the 
records of the two agencies? Are these differences of concern to you?
    Answer. Nature of discrepancies.--The difference between DOE and 
DHS funding records is that DOE reports Homeland Security Activities as 
DOE ``direct-funded,'' non-DOE ``direct-funded,'' and DOE ``indirect-
funded'' activities which includes Work for Others (WFO), Laboratory 
Directed Research and Development, Cooperative Research and Development 
Agreements, and Interagency Personnel Agreements. The expenditures 
reported by DHS have been DHS sponsored WFO categorized as DHS 
``direct-funded'' expenditures. Also, DHS does not fund all work 
categorized by DOE as ``Homeland Security''. It is also possible that 
other agencies fund work that fall into this category. In addition the 
DOE report has been developed for the current year and during execution 
of that year these numbers will have been estimates. These are the 
likely sources of discrepancies between reported numbers.
    Question 1c. Please provide a detailed breakdown of all 
Departmental expenditures from fiscal year 2010 through fiscal year 
2013 (expected) for both the DHS Labs and the DOE Labs. Please include 
the components by name, the laboratories they fund by name, and the 
amount funded. Please also include the type of project or the name of 
the project that was funded.
    Answer. Below is a list of DHS expenditures at DHS and DOE 
Laboratories. A detailed breakout of expenditures is attached.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal Year
                                                    Fiscal Year     Fiscal Year     Fiscal Year     2013 Amount
                 DOE Laboratory                     2010 Amount     2011 Amount     2012 Amount       Funded/
                                                     Obligated       Obligated      Funded YTD       Projected
----------------------------------------------------------------------------------------------------------------
Ames Laboratory.................................         $70,899        $179,101              $0        $186,279
Argonne National Laboratory.....................      30,522,882      33,680,703      22,470,776      17,226,679
Brookhaven National Laboratory..................         784,592         369,581         988,000         322,000
Idaho National Laboratory.......................      25,027,463      27,393,413      27,848,993      25,100,843
Lawrence Berkeley National Laboratory...........       5,332,220       5,935,540       2,759,418       5,404,328
Lawrence Livermore National Laboratory..........      67,045,723      59,319,013      25,207,559      51,227,295
Los Alamos National Laboratory..................      38,616,545      32,531,836      21,791,440      22,046,279
National Energy Technology Laboratory...........         515,000         500,000         495,000         520,039
National Renewable Energy Laboratory............               0       1,095,000               0       1,138,886
Nevada National Security Site...................       3,960,000       3,161,660       5,173,470               0
New Brunswick Laboratory........................       2,407,000               0       1,045,000       1,218,000
Oak Ridge National Laboratory...................      70,045,542      37,653,430      30,788,549      26,307,490
Pacific Northwest National Laboratory...........      50,213,479      53,690,126      28,223,479      28,572,888
Remote Sensing Lab..............................       5,282,000       1,047,000               0       1,088,962
Sandia National Laboratories....................      74,481,969      63,421,006      45,810,564      41,727,829
Savannah River National Laboratory..............      11,220,486      12,053,424       4,090,000       4,700,000
Y-12 National Security Complex..................         684,375         708,000         470,000         420,000
TBD.............................................               0               0               0       8,823,000
                                                 ---------------------------------------------------------------
      Total.....................................     386,210,175     332,738,833     217,162,248     236,030,797
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal Year
                                                    Fiscal Year     Fiscal Year     Fiscal Year     2013 Amount
DHS Laboratory Operation and Maintenance Funding    2010 Amount     2011 Amount     2012 Amount       Funded/
                                                     Obligated       Obligated      Funded YTD       Projected
----------------------------------------------------------------------------------------------------------------
Chemical Security Analysis Center...............      $5,370,000      $4,236,277      $5,005,409      $5,005,409
National Biodefense Analysis and Countermeasures      45,360,842      41,035,903      36,500,000      41,035,903
 Center.........................................
National Urban Security Technology Laboratory...       3,778,560       6,054,795       5,183,036       6,054,795
Plum Island Animal Disease Center...............      38,612,282      41,756,527      42,016,557      42,016,557
Transportation Security Laboratory..............      24,316.530      16,122,783      22,579,361      22,579,361
----------------------------------------------------------------------------------------------------------------
Below is the programmatic funding provided to the S&T Laboratories outside of operation and maintenance:


 S&T DOLLARS OBLIGATED TO S&T LABS BY DIVISIONS OTHER THAN S&T'S OFFICE OF NATIONAL LABORATORIES  TO DATE 5/15/
                                                      2012
----------------------------------------------------------------------------------------------------------------
                                                Fiscal Year 2010
-----------------------------------------------------------------------------------------------------------------
                Division                                    Project                     DHS Lab
----------------------------------------------------------------------------------------------------------------
Explosives..............................  Air Cargo Systems Integrated Approach......        TSL      $1,862,177
                                          Automated Carry-on Detect..................        TSL         402,764
                                          Explosives Trace Detect....................        TSL         585,000
                                          Next Generation Passenger Checkpoint.......        TSL         137,500
Borders and Maritime....................  Container Security Test Bed (CSTB).........        TSL          35,000
Chem/Bio................................  Foreign Animal Disease Vaccines and              PIADC       7,032,237
                                           Diagnostics (Near/Long Term).                   PIADC         642,325
                                          Agrodefense Basic Research.................       CSAC       5,760,000
                                          CSAC.......................................       CSAC       1,335,000
                                          Model Large Scale Toxic Chemical Transport        CSAC       3,503,450
                                           Release.                                        NBACC      21,931,350
                                          Chemical Infrastructure Risk Assessment....      NBACC      14,105,150
                                          Bio Threat Characterization................      NBACC       1,918,800
                                          National BioForensics Operations...........
                                          NBFAC......................................
                                         -----------------------------------------------------------------------
      TOTAL.............................  ...........................................  .........      59,250,753
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                Fiscal Year 2011
-----------------------------------------------------------------------------------------------------------------
                Division                                    Project                     DHS Lab
----------------------------------------------------------------------------------------------------------------
Explosives..............................  Check Point/Detection......................        TSL      $2,684,890
                                          Next Generation Passenger Checkpoint.......        TSL         258,922
                                          Mass Transit...............................        TSL         921,899
                                          Air Cargo Systems Integrated Approach......        TSL         811,597
Chem/Bio................................  Foreign Animal Disease Vaccines and              PIADC       9,366,434
                                           Diagnostics (Near/Long Term).                   PIADC         641,333
                                          Ag Screening Tools.........................       CSAC       3,936,263
                                          CSAC.......................................       CSAC         860,000
                                          Model Large Scale Toxic Chemical Transport        CSAC       1,100,000
                                           Release.                                         CSAC       1,577,200
                                          Increase Safety of Hazardous Materials.....       CSAC         300,000
                                          Chemical Infrastructure Risk Assessment....      NBACC      12,933,936
                                          IT Security Services.......................      NBACC       9,541,486
                                          National BioForensics Operations...........      NBACC         306,000
                                          Bio Threat Characterization................
                                          BioForensics Research and Development......
                                         -----------------------------------------------------------------------
      TOTAL.............................  ...........................................  .........      45,239,960
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                Fiscal Year 2012
-----------------------------------------------------------------------------------------------------------------
            Division                            Project                 DHS Lab       To Date         Planned
----------------------------------------------------------------------------------------------------------------
First Responder Group...........  Rad/Nuc Recovery Plan..............      NUSTL              $0        $150,000
Explosives......................  Next Generation Passenger                  TSL         631,558               0
                                   Checkpoint.
                                  Checked Baggage/Next Generation            TSL         423,228               0
                                   Passenger Checkpoint/PBIED.               TSL         492,370               0
                                  Checked Baggage....................
                                  Air Cargo/Algorithm and Analysis of        TSL         294,139               0
                                   Raw Images/Next Generation                TSL         594,705               0
                                   Passenger Checkpoint.                     TSL         321,349               0
                                  Air Cargo/Checked Baggage..........
                                  Air Cargo/TSL Operations...........
Chem/Bio........................  Foreign Animal Disease Vaccines and
                                   Diagnostics (Near/Long Term).           PIADC       3,412,744         211,000
                                  Ag Screening Tools.................      PIADC         188,003               0
                                  Chemical Security Analysis Center..       CSAC       3,545,360               0
                                  Bio Threat Characterization........      NBACC       6,180,042               0
                                  Bio-Defense Knowledge Center             NBACC         800,000               0
                                   Analyses and Assessments.               NBACC       7,303,572               0
                                  National BioForensics Operations...      NBACC         351,157               0
                                  BioForensics Research and
                                   Development.
                                 -------------------------------------------------------------------------------
      TOTAL.....................  ...................................  .........      24,538,227         361,000
----------------------------------------------------------------------------------------------------------------


             FUNDING FROM OTHER THAN S&T TO S&T LABORATORIES
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal Year 2012--From USDA to PIADC:
    FADD School Operations/animal care..................         $44,082
Fiscal Year 2011--From USDA to PIADC:
    FADD school operations, overtime hours, contractor            22,688
     costs, materials, and supplies.....................
    Animal per diem, copier charges, employee physicals,          36,300
     and DNA analyzer maintenance.......................
    Animal per diem, copier charges, and employee                 91,130
     physicals..........................................
    USDA APHIS International Services...................          22,163
Fiscal Year 2011--From DNDO to NUSTL:
    Securing the Cities program.........................         120,000
Fiscal Year 2011--From NPPD to NUSTL:
    Shielded Nuclear Alarm Resolution Technology                  83,922
     Demonstration and Characterization.................
Fiscal Year 2010--From USDA to PIADC:
    Animal care.........................................          78,403
    Costs associated with animal care, employee                   27,179
     physicals, and DNA analyzer........................
    Foreign Animal Disease Diagnostics..................          28,144
    North American Foot-and-Mouth Bank..................          23,051
Fiscal Year 2010--From TSA to TSL:
    Determine the security applications of a CAT/BPSS          2,076,073
     device.............................................
    Develop an initial baseline standard image format...         325,000
    TSA requires continued support for the additional          1,000,000
     functionality of the development of the Fedtrak
     system.............................................
    Supplemental tests for the Chlorine Rail Tank Car            100,000
     Vulnerability Assessment...........................
Fiscal Year 2010--From DNDO to TSL:
    Computed Tomography.................................         544,701
------------------------------------------------------------------------

    Question 2. In your analysis, where can cost savings be found with 
respect to the Department's work with the DHS and DOE Laboratories?
    Answer.
DOE Labs
    Cost savings occur when DHS leverages existing technologies, 
capabilities, and infrastructure at the DOE National Laboratories. If 
DHS did not leverage the DOE National Labs, DHS would have to create 
the needed capability at great cost. In addition, DHS leverages basic 
research that is performed at the DOE Labs that other components and 
Government agencies fund.
    In addition, cost savings are being realized when the Department of 
Homeland Security (DHS) applies a systems approach to Department of 
Energy (DOE) Labs working in multiple laboratory teams. This approach 
allows DHS to take advantage of the core competencies of each lab, 
while accessing the body of work performed by respective team members, 
and taking advantage of identified synergies.
    The Science and Technology Directorate's (S&T) sponsored program to 
develop Rapid Diagnostic Tools is an example of realizing costs savings 
through the systems approach and teaming with the right lab partners. 
Working with Lawrence Livermore National Laboratory (LLNL) and Sandia 
National Laboratory (SNL), S&T is accessing the wealth of genetic 
sequencing work performed by LLNL and coupling it with the 
photolithography and micro-fabrication capabilities of SNL to develop 
peptide microarrays for rapid diagnostic tools. Additional savings are 
being realized through S&T's leveraging of SNL's existing 
photolithography and micro-fabrication capacity for the research and 
development, prototyping, and ultimate manufacture of the microarrays.
DHS Labs
    To maximize the facility use/scientific deliverables and minimize 
risk, S&T's Office of National Laboratories (ONL) has:
  <bullet> Initiated performance-based operations and maintenance 
        contract at Plum Island Animal Disease Center.
  <bullet> Looked at consolidating and minimizing the number of support 
        contracts at all DHS Laboratories.
  <bullet> Developed a work for others operational requirement, 
        primarily at the National Biodefense Analysis and 
        Countermeasure Center (NBACC) (Located at Ft. Detrick, Maryland 
        and contains the National Bioforensics Analysis Center [NBFAC] 
        and the National Biological Threat Characterization Center 
        [NBTCC]) to use the capacity of labs and increase mission 
        support with small increases in fixed operational costs.
    <bullet> The Federal Bureau of Investigations (FBI) provides 
            funding for their casework done by NBFAC.
    <bullet> Because of the unique capabilities of the NBACC facility, 
            other Federal agencies have expressed an interest in having 
            NBACC staff perform mission work in biocontainment space 
            (under the caveat that this work is consistent with the 
            facility mission and/or special expertise, the work must 
            not affect the achievement of DHS work requirements, the 
            sponsor's proprietary data will be protected, etc.).
    <bullet> Memorandum of Understanding between S&T and another 
            Federal Agency was signed in February 2012 for 
            collaboration on biological defense countermeasures test 
            and evaluation (e.g., leverage existing facility space, 
            programs and trained staff at NBACC with respect to 
            Biosafety Level 4 Good Laboratory Practice procedures).
  <bullet> Decreased rented space for the National Urban Security 
        Technology Laboratory (NUSTL) (Located in New York City), 
        resulting in reduced rent and security payments to the General 
        Services Administration.
  <bullet> Formed an IT Working Group to leverage certification and 
        accreditation work and lessons learned at one DHS Laboratories.
    Question 3. What rigorous process is S&T using to ensure that 
mission and research requirements are driving capacity (in terms of 
what labs get built and how large they are) for any new labs?
    Answer. All construction programs (new laboratories and additions 
to laboratories) within the Science and Technology Directorate's (S&T) 
Office of National Laboratories are managed using the Acquisition Life-
cycle Framework (ALF) as defined in the Department of Homeland 
Security, Acquisition Management Directive 102-01.
    The ALF is a template for planning and executing acquisitions, 
which ensures mission requirements are defined, validated, and then 
translated into what is built.
    Question 4a. S&T recently released its new strategic plan, which 
lays out its vision for meeting its mission to provide knowledge and 
technology solutions for the homeland security enterprise. Goal 4.6 is 
explicitly to ``improve S&T's knowledge and use of . . . research 
facilities with a focus on DOE National Labs and DOE efforts.''
    In what ways does S&T believe it stands to improve its knowledge 
and use of the DOE Labs?
    Question 4b. How can S&T take advantage of the labs more as a 
partner, and less as a contractor, if there would be value in such a 
thing?
    Answer. The Department of Homeland Security's (DHS) Science and 
Technology Directorate (S&T) continues to evolve its relationship with 
the Department of Energy (DOE) Laboratories, moving away from being a 
``performer'' and towards the role of ``partner.'' S&T values the 
strategic perspective resident in the DOE Labs and recently, in the 
case of S&T's Technology Foraging effort, has sought their advice.
    S&T's Office of National Laboratories is extending and deepening 
our strategic partnership with the DOE Labs, we are also undertaking to 
increase awareness of the DOE Labs' capabilities in the Homeland 
Security space with our own DHS Components. In fiscal year 2012, S&T is 
embarking on an educational and awareness drive through briefings and 
``road shows'' to inform S&T's Homeland Security Advanced Research 
Projects Agency Division and DHS Components about the research 
opportunities at the labs. In addition, S&T has put in place an agency-
to-agency master agreement that streamlines the business processes 
around contracting to simplify collaboration and use of DOE Labs. 
Information, forms, templates, guides, and relevant resource documents 
are all available on-line.
    In the last 6 months, S&T has called on the DOE Labs to share their 
``best guess'' on emerging over-the-horizon technologies that can be 
put to use for the Homeland Security Enterprise. The applications of 
the technologies are in the areas of border security (air-based 
technologies, ground-based technologies, maritime-border security); 
bio-agent detection; chemical detection; explosives detection; 
biometrics; cyber security; disaster relief, first responder equipment 
and capabilities; and information sharing, analysis, and 
interoperability.
    As noted earlier, in order to increase the value-added received 
from the labs, S&T encourages the labs to work in teams or consortia. 
This approach allows S&T to receive the benefit of a broader knowledge 
and skill base that may be resident in several labs as opposed to 
sourcing a project to just one lab or having to select a single lab 
capability.
    For example, the exceptional capabilities at one lab in high-
performance computing can be paired with another's excellence in 
modeling and simulation to create disaster training scenarios for first 
responders. Currently, S&T is working with a consortium, the National 
Explosives Engineering Sciences Security Center (NEXESS) made up of 
Sandia, Los Alamos, and Lawrence Livermore Laboratories. NEXESS's work 
is focused on characterizing specific home-made explosive threats, and 
providing technical, test, and evaluation services to DHS's 
Transportation Security Administration.
    Question 5a. Dr. Gerstein's written testimony stated that ``in the 
current budget environment, there will be a temptation to fund near-
term priorities while sacrificing the future. In my judgment, this 
would be a mistake.'' And yet, the DHS S&T technology foraging strategy 
and the proposed budget emphasis away from transformational projects 
does just that.
    Can you explain this discrepancy? Is S&T's approach a long-term or 
a short-term one?
    Question 5b. Can you please describe the rigorous process you have 
in place to ensure that all of these funds would go to projects that 
the end-users ultimately need, and that they will reliably work in the 
field? How are the labs partners in this process?
    Answer. In general, funding for future efforts such as research and 
development are sacrificed in austere budget environments in favor of 
operational funding. While operational funding is imperative, we must 
make every effort to look into the future, anticipate threats, and fund 
longer-term efforts. In recent years the Science and Technology 
Directorate (S&T) discretionary research and development budget saw a 
decrease of nearly 56 percent; from $598 million in fiscal year 2010 to 
$265 million in fiscal year 2012. To minimize the impact of the budget 
decrease on near-term R&D, S&T reduced the basic research funding.
    With this budget environment, we have established a process of on-
going reviews of our entire research and development portfolio to 
ensure that we are: (1) Investing in technologies that will 
significantly improve DHS's efforts to help secure the country, and (2) 
meeting the goals established by our partners in the operating 
components and the broader homeland security enterprise. We have 
committed to an annual review of our portfolio of basic and applied 
research and development and all proposed new projects. During this 
annual review we study written materials, hear a presentation by the 
project manager, and carefully analyze the project's likely impact and 
feasibility (or ``riskiness''), judging these attributes against 
specific metrics determined by the Science and Technology Directorate 
(S&T) with input from the operating Components. S&T also reviews other 
basic research portfolios in other agencies. For example, ONL 
participates in reviews at the DOE Laboratories to identify 
opportunities to leverage on-going research or identify partnership 
opportunities for future investments.
    These metrics establish a framework to address elements essential 
to programmatic success in the context of the DHS missions spelled out 
in the Quadrennial Homeland Security Review. The framework assesses the 
project's overall impact on customer mission; transition of products to 
the field; investment in technology to position S&T for the future; 
coordination with customers to align projects with their requirements; 
and application of an innovative strategy. Each project is evaluated by 
a review panel composed of S&T leaders, DHS component representatives, 
and independent experts. By measuring all of S&T's projects against the 
framework, we establish a transparent view of all research and 
development within S&T to enable more strategic, longer-term budget 
decisions; ensure efficient delivery to the component or individual 
user; and cultivate effective communication. These are the same review 
model and framework used by both Federal and private research and 
development organizations, including the award-winning Army Engineer 
Research and Development Center.
    Having an adequate infrastructure for a viable R&D capability 
requires long-term investment. Currently, S&T puts priority on R&D 
investments with an 18-24 month transition time to maximize impact in a 
difficult economic time, but the on-going investment in DHS Labs, DOE 
Labs, and University Centers of Excellence show a commitment to 
maintain long-term effectiveness.
    Question 6a. The work that DHS does with the labs can statutorily 
be performed under three mechanisms: No. 1, joint sponsorship with DOE; 
No. 2, direct contract with the lab; or No. 3, ``work for others.''
    How often are these three options utilized? If work for others is 
used the most often, what is the basis for that?
    Question 6b. Would there be benefit to taking advantage of the 
other types of contracting mechanisms?
    Answer. The Homeland Security Act of 2002, (Pub. L. No. 107-296) 
authorizes four mechanisms for utilizing the Department of Energy (DOE) 
Labs, the three listed above and any other method provided by law, 
which includes Cooperative Research and Development Agreements (CRADA). 
Work for Others is the easiest and most straightforward mechanism for 
conducting work at the DOE Labs.
    The bulk of the Department of Homeland Security (DHS) sponsored 
work is performed on a ``work for others'' basis with the remainder 
being performed under CRADAs. Using a modified work for others basis 
was included in implementation of the February 2003 DOE/DHS Memorandum 
of Agreement that established a framework to ensure that the 
capabilities of the DOE Labs and sites were made available to DHS. The 
processes and procedures associated with the work for others basis is 
routinely reviewed by DHS and DOE to ensure their efficiency. For 
example, in an effort to enhance the work for others process, DHS and 
DOE implemented a master Interagency Agreement that provides standard 
contract terms and conditions for all DHS-sponsored work.
    While the Homeland Security Act of 2002 authorizes direct 
contracting, the Act further specifies that direct contracting only 
applies to programs or activities transferred from DOE to DHS that were 
being carried out through direct contracts. As a result this method is 
not applicable for ``new'' DHS-sponsored programs or activities.
    Joint Sponsorship Agreements have a significant disadvantage in 
that DHS would be responsible for associated infrastructure costs. 
However, in order to assure alliance between DHS's and DOE's National 
Laboratory's future research agendas, along with those of other Federal 
agencies with similar research concerns, DHS is a member of the four-
agency governance charter that led to the Mission Executive Council 
that includes DOE, DOD, and DNI. Through this mechanism, DHS and DOE 
coordinate critical science and technology issues that currently meet 
this need. DHS will continue to evaluate opportunities and situations 
where these mechanisms could be used.
    Question 7a. Three entities within DHS are understood to formally 
perform or fund research and development: S&T, the Domestic Nuclear 
Detection Office, and the Coast Guard. But the list is actually much 
longer, and includes the Office of Health Affairs, Customs and Border 
Protection, the Secret Service, and a number of others. S&T has the 
statutory role of coordinator of all research and development at the 
Department.
    How does ONL ensure DHS-wide coordination of planning and 
prioritization?
    Answer. The statutory authority to coordinate all research and 
development in the Department of Homeland Security (DHS) lies within 
DHS's Science and Technology Directorate (S&T), not S&T's Office of 
National Laboratories (ONL) specifically, and the Directorate has been 
taking a larger role in this responsibility.
    The past Integrated Product Teams (IPT) and current S&T Resource 
Allocation Strategy STRAS processes help S&T maintain awareness of not 
only the needs and requirements of Component partners, but also their 
own research and development activities.
    In addition, as noted earlier, ONL is meeting with other DHS 
components to make them aware of the capabilities that reside in DOE's 
National Laboratories and of processes that ONL has lead to systematize 
and simplify the administrative processes for getting work underway at 
DOE's laboratories.
    Question 7b. Is there a compliance check in place on ONL's part? 
What procedures allow S&T to manage the role of DHS in using the labs, 
particularly in the context of ``One DHS''?
    Answer. S&T is the primary DHS focal point for work to be performed 
by the Department of Energy (DOE) National Laboratories pursuant to a 
``work for others'' arrangement formalized by the Memorandum of 
Agreement Between Department of Energy and Department of Homeland 
Security dated February 23, 2003, and in accordance with 6 U.S.C.  
189(a)(1)(c).
    ONL is the primary point of contact to conduct reviews and 
recommend approval of work by DOE National Laboratories. As noted 
earlier, ONL reviews all statements of work issued from DHS and 
directed to DOE National Laboratories to ensure the work complies with 
the terms and conditions of the prime contracts between DOE and each of 
the National Laboratory operators.
    As noted above, ONL is meeting with DHS's components to advance 
their knowledge of the National Laboratories's capabilities and 
processes that would simplify the placement of work.
    Question 7c. Can you provide any example of capabilities that have 
slipped through the cracks or projects that have not been done well 
because components did not coordinate with S&T?
    Answer. We do not have detailed insight into what might be viewed 
as other DHS components' lost opportunities for improved products had 
work otherwise contracted for been performed at a DOE National 
Laboratory.
    In addition, in fulfillment of the Science and Technology 
Directorate's role under section 302 of the Homeland Security Act of 
2002, it has engaged in the operational testing and evaluation aspects 
of acquisitions of a certain size through S&T's Test and Evaluation and 
Standards Office. Moreover, the Directorate has become increasingly 
engaged in the design and implementation of the Department's 
acquisition process. As this process evolves, we will play an on-going 
role.
    The Department recognizes the need to improve the acquisition 
process; accordingly, it is implementing improvements to reduce cost 
and schedule overruns. DHS recently published an Integrated Strategy 
for High-Risk Management. That report provides a comprehensive vision 
and strategy to manage all Department-wide investments. We will be a 
prominent member at the beginning of the acquisition cycle and remain 
involved throughout the acquisition cycle, working closely with four 
groups: The Department Strategy Council, Capabilities and Requirements 
Council, Program Review Board, and Investment Review Board.
    Question 8. Please describe S&T's process for determining how to 
allocate projects to the different research entities at its disposal. 
What are the guiding principles for project prioritization, and how do 
these map to your new strategic plan?
    Answer. The Department of Homeland Security's (DHS) Science and 
Technology Directorate (S&T) has a mission to strengthen America's 
security and resiliency by providing knowledge products and innovative 
technology solutions for the Homeland Security Enterprise (HSE). To 
achieve this mission, S&T has outlined three critical areas of 
strategic focus. First, S&T will pursue technology options and process 
enhancements that are operationally-focused. Second, S&T will seek 
innovative, systems-based solutions to complex problems. Third, S&T 
will foster robust partnerships across the Federal Government, State, 
local, and Tribal governments, universities, private sector, and 
internationally in order to leverage expertise and solutions and share 
resources. S&T priorities for areas of research, development, and 
analysis are derived from an understanding of near- and long-term 
threats, National needs, and DHS mission needs and operational 
vulnerabilities, as articulated in the administration's National 
Security Strategy, the Quadrennial Homeland Security Review (QHSR), and 
the capability gaps and operational requirements of DHS Components and 
first responder communities. S&T has established a rigorous portfolio 
review process. Each proposed ``new start,'' as well as each on-going 
project in our research and development portfolio, undergoes an on-
going review to ensure that it remains relevant, feasible, and 
effective.
    In reviewing the portfolio, we study written materials, listen to 
the project manager's oral presentation, and carefully analyze the 
project's likely impact and feasibility (or ``riskiness''), measuring 
these attributes against specific metrics determined by S&T with input 
from the operating Components. These metrics establish a framework to 
address elements essential to ensuring that the program will help DHS 
meet one or more of its missions, as defined in the QHSR. These 
elements include:
    Systems Analysis.--How well does the project's product(s) align 
with a customer's existing operational context/concept of use or an 
alternative that is agreeable to the customer?
    Customer Buy-in.--Have the project objectives been developed 
through close consultation with appropriate decision authorities?
    Efficiency.--What level of savings can be achieved by this project 
with respect to the customer's operations?
    Capability.--To what extent does this project provide risk or 
threat reduction 
and/or improved fidelity, performance, etc.?
    Technical/Research Feasibility.--How likely is it that the team 
will overcome the technical and/or research challenges facing this 
technology and/or knowledge product?
    Transition Likelihood.--Is there a clear path/mechanism to enable 
transition/commercialization? Customer readiness? Are there any 
secondary issues related to the concept of use, prepotency, budgeting, 
affordability, regulatory or statutory realities, or business value?
    Timeline.--When will the project achieve either an efficiency or 
capability improvement, as defined on the Impact page, as part of 
normal operations? Or, when will the first demonstration of the 
capability/efficiency be observed in an operational context?
    Innovation.--Does the project attempt to realize its objectives in 
a way that others have not previously considered or exploited?
    Resource Leverage.--What level of interaction exists between the 
project team and the target component or customer?
    Foraging.--Does the project exploit existing technology or 
research, and/or new or existing partnerships to minimize time and 
expense?
    Cost Realism.--Is the cost projection credible?
    Project Clarity.--How well is the project described, laid-out--is 
it clear what the team will do? Is the problem well-defined and the 
approach clear? Has a letter of intent or TTA been obtained?
    Each project is evaluated and rated by a review panel composed of 
S&T leaders, DHS component representatives, and independent technical 
experts. By measuring all of S&T projects against the framework, we 
establish a shareable view of all research and development within S&T. 
In so doing, we enable more strategic, longer-term budget decisions; 
ensure efficient delivery to the component or individual user; and 
cultivate effective communication throughout the process.
    Question 9. How much money per year do the DOE Labs typically spend 
on LDRD projects that are applicable to the homeland security mission? 
What has been the return on investment, if any, from this independent 
R&D?
    Answer. Laboratory Directed Research and Development (LDRD) is a 
critical component of keeping the laboratories at the forefront of 
basic research relevant to the Homeland Security Enterprise. LDRD has 
provided the laboratories with the opportunity to recruit and retain 
staff and acquire and build foundational tools necessary to ensure 
their long-term vitality at the leading edge of technical fields 
relevant to the Homeland Security mission area. In a typical year 
assuming $360 million in total program funds at the laboratories from 
the Department of Homeland Security, LDRD would be about $18 million at 
the laboratories. The laboratories had $192 million of LDRD projects 
applicable to DHS science, technology, and engineering missions. 
Technical contributions have included:
  <bullet> Enabling research in Rapid Bio-Diagnostics;
  <bullet> Enabling research in Home-made Explosives characterization;
  <bullet> Basic materials research that has led to enhanced personnel 
        protection equipment for first responders;
  <bullet> Advanced computing, modeling, simulation, and virtual 
        training;
  <bullet> Data analytics resulting in visualization and situational 
        awareness tools;
  <bullet> Battery and renewable power solutions for remote sensors.
    Question 10a. S&T operates about ten test beds around the Nation.
    What is the rationale for establishing test beds, rather than 
contracting with DOE Labs, DHS Centers of Excellence, or other existing 
entities for the work?
    Question 10b. Does the funding for these test beds come from ONL?
    Answer. Test beds provide controlled environments in which 
scientific testing, evaluation, and demonstration can take place. To 
ensure the highest return on the time and resources invested in a 
project, the Science and Technology Directorate (S&T) uses the most 
appropriate facility for each project, including using existing 
capabilities whenever possible. However, in some cases, projects 
require test beds that do not exist for certain operational 
environments to assess continuity of operations, live demos, human 
response, etc., and in many cases a lab or Center of Excellence cannot 
meet these needs.
    In fiscal year 2010, the Resilient Tunnel Project constructed a 
full-scale test tunnel at West Virginia University in Morgantown, West 
Virginia, and configured it with an internal geometry that closely 
matches tunnels of a mass transit partner. In this case, the West 
Virginia University test bed has the capability to allow testing with 
water pressures equivalent to those expected in a breached underwater 
transit tunnel. Such simulation could not be accomplished without 
severe disruption to services and risk of significant damage in an 
actual transit tunnel. The test tunnel also provides ready access and 
observation of both sides of the inflatable tunnel plug during its 
deployment.
    The DETER test bed is a shared cybersecurity facility globally 
accessed through the internet by the research community for the 
research, development, testing, and education of cybersecurity 
technologies. DETER is a unique facility that provides researchers with 
secure environments that can replicate different portions of the 
internet, allowing safe exploration of new defenses against emerging 
cyber threats. DETER's computing infrastructure and software is 
developed and maintained by the University of Southern California's 
Information Sciences Institute and the University of California, 
Berkeley. Research at both institutions provides constant improvements 
and allows the test bed to keep pace with the technology developments, 
support increasingly larger experiments, and efficiently develop and 
execute experiments. DETER is the largest, unclassified public test bed 
and this on-going research ensures that it is also one of the most 
advanced.
    The inherently distributed design and virtual nature of the test 
bed has allowed for additional computing resources, from National Labs 
and educational institutions, to be seamlessly integrated over the 
internet and made accessible through DETER.
    Funding for the individual test beds can come from a variety of 
sources including Department of Homeland Security (DHS) and non-DHS 
sources. Generally, S&T's Office of National Labs does not fund test 
beds.
    Question 11a. The National Biodefense Analysis and Countermeasures 
Center (NBACC) has endured considerable delays due to infrastructure 
problems. It also has a lot of unused space.
    How much square footage is vacant at the NBACC? Please provide a 
break-down by biosafety level, and indicate how this figure will change 
when the lab space is fully accredited. Was the excess space 
unintended? What is DHS' plan for leasing the space to other entities?
    Answer. Currently 10,500 square feet of BSL-4 space and 11,000 sq. 
ft. of BSL-2 space are being utilized at NBACC for BSL-2, 3, and 4 
operations. Approximately 20 percent of the total National Biodefense 
Analysis and Countermeasures Center (NBACC) Laboratory capacity of 
55,000 sq. ft. (including 34,000 sq. ft. of BSL-3 space being activated 
in calendar year 2012) may be available for additional research and 
development to support the Department of Homeland Security (DHS) and 
non-DHS entities.
    The strategy is for NBACC staff to perform work for other entities 
in the NBACC Laboratories rather than leasing space. DHS and NBACC have 
developed Memoranda of Understanding with multiple Federal agencies to 
fund externally-sponsored program activities in the near term (i.e., 
fiscal year 2013) as well as part of potential strategic 
collaborations.
    DHS envisions that this approach will address additional National 
biodefense priorities, enhance the competencies and capabilities 
available at NBACC, and increase the overall use of the facility. NBACC 
was always intended to be a National resource available to support 
other entities. Due to DHS's Science and Technology Directorate (S&T) 
funding reductions and delays in registering some of the laboratories, 
the current annual investment is below the intended DHS level when 
fully activated.
    Question 11b. Please provide the total cost of remediation of the 
laboratory due to piping problems. Please also indicate how far back, 
in terms of time until full operational capability, these problems have 
set the lab.
    Answer. Remediation of the stainless steel pipes cost $563,000. The 
corrosion was identified in August 2010, and remediation was completed 
in March 2011 resulting in a 7-month delay in laboratory activation. 
NBACC submitted the Centers for Disease Control and Prevention (CDC)/
U.S. Department of Agriculture (USDA) registration for the BSL-4 in 
April 2011 and received registration in September 2011. The delay due 
to corrosion remediation was partially mitigated by using the time to 
conduct additional planning, documentation, training, reviews, and use 
of the laboratories at BSL-2 (already activated) to ensure readiness 
for the CDC/USDA registration process.
    Remediation of the glass piping system cost $913,000. The piping 
installation issues were identified in August 2010, and remediation was 
completed in April 2012 resulting in a 20-month delay in laboratory 
activation.
    NBACC is scheduled for submittal of the CDC/USDA registration for 
the BSL-3 in June 2012 with projected registration in December 2012. 
The delay due to glass piping remediation was partially mitigated by 
conducting BSL-3 activities inside the BSL-4 laboratories allowing 
critical work to proceed.
    Question 12. What office has final oversight of NBACC activities? 
What is the difference between the roles of the Chemical and Biological 
Division and ONL with regard to NBACC oversight and management?
    Answer. The Science and Technology Directorate's (S&T) Office of 
National Laboratories (ONL) has responsibility for the overall 
execution of the NBACC mission. ONL oversees and manages the NBACC 
Laboratory including planning, staffing, funding, and utilization. In 
addition, ONL has responsibility for the facility operations, including 
safety and security regulations are met.
    S&T's Chemical and Biological Defense Division (CBD) is a customer 
of the NBACC. CBD oversees the technical management of specialized 
research and development projects in the bio-threat characterization at 
NBACC as well as requests work to be completed on CBD division-level 
goals and objectives.
    Question 13. Many foreign animal diseases are emerging that could 
impact livestock and human health. Given that the terrorist threat 
should be a primary focus of DHS' involvement in agricultural security, 
how do the Plum Island Animal Disease Center and the presumptive 
National Bio- and Agro-Defense Facility contribute to this security 
mission in a way that is unique from the Department of Agriculture's 
approach to agricultural security?
    Answer. Plum Island Animal Disease Center (PIADC) represents an on-
going partnership between the Department of Homeland Security's (DHS) 
Science and Technology Directorate (S&T), the U.S. Department of 
Agriculture's (USDA) Animal and Plant Health Inspection Service (APHIS) 
and USDA's Agriculture Research Service (ARS).
    PIADC is responsible for conducting research, diagnostics, and 
countermeasure development (e.g., vaccine development) for high-
consequence foreign animal diseases (FAD) with a priority on Foot-and-
Mouth Disease (FMD). S&T is responsible for the operation and 
maintenance of the laboratory, and ensuring a safe and secure 
environment for conducting the mission.
    Due to the threat of agro-terrorism, DHS has supported the 
development of new forensic capabilities at PIADC. In the event of a 
FAD outbreak, the Federal Bureau of Investigations can now work at 
PIADC to conduct forensic testing to investigate whether the incident 
was intentional or naturally-occurring. PIADC programs would transition 
to the National Bio- and Agro-defense Facility.
    S&T's basic role concerning foreign animal disease outbreaks is 
unique and distinct from the USDA mission:

------------------------------------------------------------------------
                  USDA                                 S&T
------------------------------------------------------------------------
Basic research and discovery for         Administer and provide a
 vaccines and diagnostics for foreign     facility for foreign animal
 animal diseases.                         disease laboratory work.
Manage operational response during a     Later development including
 foreign animal disease outbreak.         proof of concept through
                                          commercialization.
                                         Develop modeling, diagnostic,
                                          and screening tools to
                                          minimize the number of animals
                                          affected and limit economic
                                          impact of an outbreak.
                                         Provide scientific and
                                          technical support to
                                          operational response during an
                                          incident.
------------------------------------------------------------------------

    The agricultural sector and food supply are designated critical 
infrastructures by DHS.
    For this reason, PIADC and the presumptive NBAF have a critical 
role in preventing and protecting against devastating animal diseases 
in the United States as well as responding to or mitigating the effects 
of such diseases. Regardless of whether the cause is terrorism or 
naturally-emerging disease, the outbreak of a foreign animal disease 
has the potential to be devastating to critical infrastructure and the 
U.S. economy. In either case, DHS would be responsible for coordinating 
the National response if the event were of sufficient scale and impact.
Questions From Ranking Member Bennie G. Thompson for Daniel M. Gerstein
    Question 1. The Office of National Laboratories has at least two 
major roles: Its statutory responsibility to coordinate and use DOE 
National Laboratories and its DHS-assigned responsibility of 
constructing, operating, and maintaining S&T Directorate Laboratories.
    How are the resources of the Office of National Laboratories 
divided between these functions, in terms of staff, full-time 
equivalents, or budget authority?
    Answer. The Science and Technology Directorate's (S&T) Office of 
National Laboratories (ONL) has two main roles as defined by current 
funding: Construction (including lab upgrades) and Operations. These 
programs are appropriated through the Laboratory Facilities budget 
authority that is part of the S&T appropriations. In fiscal year 2012, 
the total Laboratory Facilities budget was $176.5 million ($50 million 
for construction, $18.2 million for upgrades, and $108.3 million in 
operations).
    The coordination and utilization of the Department of Energy (DOE) 
National Laboratories and the Department of Homeland Security 
Technology Transfer program do not have assigned budgetary 
responsibilities.
    ONL has a director that oversees the branches and programs to 
execute its mission. The resources of ONL are divided into the 
following areas:
  <bullet> ONL Director: 3 full-time employees; overall budget of 
        $176.5 million.
  <bullet> Operations Branch: 9 full-time employees (budget of $108.3 
        million operations for five S&T Labs).
  <bullet> Constructions/Lab Upgrades: 9 full-time employees (budget of 
        $50 million for the National Bio- and Agro-Defense Facility, 
        $18.2 million for Transportation Security Lab upgrades).
  <bullet> DOE Lab Utilization: 3 full-time employees.
  <bullet> Technology Transfer Program: 2 full-time employees.
    Question 2a. The S&T Directorate realigned itself in late 2010. 
Some S&T Laboratories are associated with the programs they support 
(for example, the National Urban Security Technology Laboratory (NUSTL) 
is aligned with the Homeland Security Enterprise and First Responders 
Group), while others are aligned with the Office of National 
Laboratories (for example, the Chemical Security Analysis Center).
    Why are different approaches taken to the organization of the S&T 
Directorate Laboratories?
    Question 2b. How does the direct connection or lack of a direct 
connection to the programs the laboratories support affect the work 
done by the laboratories?
    Answer. The Department of Homeland Security's Science and 
Technology Directorate (S&T) operates five laboratories: Plum Island 
Animal Disease Center; the Transportation Security Laboratory (TSL); 
the National Urban Security Technology Laboratory (NUSTL); the Chemical 
Security Analysis Center; and the National Biodefense Analysis and 
Countermeasures Center.
    S&T's Office of National Laboratories (ONL) oversees and funds 
operation and maintenance for all five S&T Laboratories through the 
Laboratory Facilities budget.
    Laboratories whose key function is scientific research are 
administered under ONL. Laboratories that have a major non-scientific 
research mission are aligned to the appropriate functional group. For 
example, TSL has a major test and evaluation mission and is aligned to 
S&T's Acquisition Support and Operation Analysis Group that includes 
the Test and Evaluation Standards Office.
    Similarly, NUSTL's major mission is to support First Responder 
activities and is aligned to the Homeland Security Enterprise and S&T's 
First Responders Group. This alignment ensures that these laboratories 
provide the focused support to the specialized non-scientific 
activities needed to ensure success.
    Question 3a. The DHS Congressional budget justifications from 
fiscal year 2009 through fiscal year 2011 provided a break-down of 
operations and maintenance funding for each S&T Directorate Laboratory. 
DHS discontinued this practice in the fiscal year 2012 Congressional 
budget justification, and now doesn't report the amount of programmatic 
funding sent to the S&T Directorate Laboratories. Also, DHS does not 
detail the amount of funding provided by DNDO to its laboratory-like 
facilities.
    Why has DHS changed the amount of information provided to Congress 
regarding the operations and maintenance of the S&T Directorate 
Laboratories?
    Question 3b. How much programmatic funding has been provided to the 
S&T Directorate Laboratories and by what entities both inside and 
outside the directorate?
    Question 3c. Why does DHS not report the total amount of funds 
budgeted annually for each S&T Directorate Laboratory in the same 
manner that DOE reports regarding its laboratories?
    Answer. For fiscal years 2008-2011, the Science and Technology 
Directorate (S&T) included program level funding below the Program/
Project Activity (PPA) level in the President's budget request. 
Beginning in fiscal year 2012, S&T included PPA-level funding 
information in the budget request and separately provided Congressional 
staff a much greater level of detail down to the project level. This 
information provided greater insight into S&T funding requests than was 
previously available in the S&T budget request for fiscal year 2009 
through fiscal year 2011. Attached is the information provided with the 
budget submission. The more detailed information provided includes 
funding information on operation and maintenance of each S&T 
Laboratory.
    Below is the programmatic funding provided to the S&T Laboratories 
outside of operation and maintenance:

 S&T DOLLARS OBLIGATED TO S&T LABS BY DIVISIONS OTHER THAN S&T'S OFFICE OF NATIONAL LABORATORIES  TO DATE 5/15/
                                                      2012
----------------------------------------------------------------------------------------------------------------
                                                Fiscal Year 2010
-----------------------------------------------------------------------------------------------------------------
                Division                                    Project                     DHS Lab
----------------------------------------------------------------------------------------------------------------
Explosives..............................  Air Cargo Systems Integrated Approach......        TSL      $1,862,177
                                          Automated Carry-on Detect..................        TSL         402,764
                                          Explosives Trace Detect....................        TSL         585,000
                                          Next Generation Passenger Checkpoint.......        TSL         137,500
Borders and Maritime....................  Container Security Test Bed (CSTB).........        TSL          35,000
Chem/Bio................................  Foreign Animal Disease Vaccines and              PIADC       7,032,237
                                           Diagnostics (Near/Long Term).                   PIADC         642,325
                                          Agrodefense Basic Research.................       CSAC       5,760,000
                                          CSAC.......................................       CSAC       1,335,000
                                          Model Large Scale Toxic Chemical Transport        CSAC       3,503,450
                                           Release.                                        NBACC      21,931,350
                                          Chemical Infrastructure Risk Assessment....      NBACC      14,105,150
                                          Bio Threat Characterization................      NBACC       1,918,800
                                          National BioForensics Operations...........
                                          NBFAC......................................
                                         -----------------------------------------------------------------------
      TOTAL.............................  ...........................................  .........      59,250,753
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                Fiscal Year 2011
-----------------------------------------------------------------------------------------------------------------
                Division                                    Project                     DHS Lab
----------------------------------------------------------------------------------------------------------------
Explosives..............................  Check Point/Detection......................        TSL      $2,684,890
                                          Next Generation Passenger Checkpoint.......        TSL         258,922
                                          Mass Transit...............................        TSL         921,899
                                          Air Cargo Systems Integrated Approach......        TSL         811,597
Chem/Bio................................  Foreign Animal Disease Vaccines and              PIADC       9,366,434
                                           Diagnostics (Near/Long Term).                   PIADC         641,333
                                          Ag Screening Tools.........................       CSAC       3,936,263
                                          CSAC.......................................       CSAC         860,000
                                          Model Large Scale Toxic Chemical Transport        CSAC       1,100,000
                                           Release.                                         CSAC       1,577,200
                                          Increase Safety of Hazardous Materials.....       CSAC         300,000
                                          Chemical Infrastructure Risk Assessment....      NBACC      12,933,936
                                          IT Security Services.......................      NBACC       9,541,486
                                          National BioForensics Operations...........      NBACC         306,000
                                          Bio Threat Characterization................
                                          BioForensics Research and Development......
                                         -----------------------------------------------------------------------
      TOTAL.............................  ...........................................  .........      45,239,960
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                Fiscal Year 2012
-----------------------------------------------------------------------------------------------------------------
            Division                            Project                 DHS Lab       To Date         Planned
----------------------------------------------------------------------------------------------------------------
First Responder Group...........  Rad/Nuc Recovery Plan..............      NUSTL              $0        $150,000
Explosives......................  Next Generation Passenger                  TSL         631,558               0
                                   Checkpoint.
                                  Checked Baggage/Next Generation            TSL         423,228               0
                                   Passenger Checkpoint/PBIED.               TSL         492,370               0
                                  Checked Baggage....................
                                  Air Cargo/Algorithm and Analysis of        TSL         294,139               0
                                   Raw Images/Next Generation                TSL         594,705               0
                                   Passenger Checkpoint.                     TSL         321,349               0
                                  Air Cargo/Checked Baggage..........
                                  Air Cargo/TSL Operations...........
Chem/Bio........................  Foreign Animal Disease Vaccines and
                                   Diagnostics (Near/Long Term).           PIADC       3,412,744         211,000
                                  Ag Screening Tools.................      PIADC         188,003               0
                                  Chemical Security Analysis Center..       CSAC       3,545,360               0
                                  Bio Threat Characterization........      NBACC       6,180,042               0
                                  Bio-Defense Knowledge Center             NBACC         800,000               0
                                   Analyses and Assessments.               NBACC       7,303,572               0
                                  National BioForensics Operations...      NBACC         351,157               0
                                  BioForensics Research and
                                   Development.
                                 -------------------------------------------------------------------------------
      TOTAL.....................  ...................................  .........      24,538,227         361,000
----------------------------------------------------------------------------------------------------------------


             FUNDING FROM OTHER THAN DHS TO S&T LABORATORIES
------------------------------------------------------------------------
                                                            Amount
------------------------------------------------------------------------
Fiscal Year 2012--From USDA to PIADC:
    FADD School Operations/animal care..............             $44,082
Fiscal Year 2011--From USDA to PIADC:
    11-9100-0900-IA FADD school operations, overtime              22,688
     hours, contractor costs, materials, and
     supplies.......................................
    11-9100-1080 Animal per diem, copier charges,                 36,300
     employee physicals, and DNA analyzer
     maintenance....................................
    60-1940-1-043 Animal per diem, copier charges,                91,130
     and employee physicals.........................
    11-5000-2074-1A USDA APHIS International                      22,163
     Services.......................................
Fiscal Year 2011--From DNDO to NUSTL:
    HSHQDC-11-X-00188 Securing the Cities program...             120,000
Fiscal Year 2011--From NPPD to NUSTL:
    HSHQDC-11-X-00254 Shielded Nuclear Alarm                      83,922
     Resolution Technology Demonstration and
     Characterization...............................
Fiscal Year 2010--From USDA to PIADC:
    60-1940-0-019 Animal care.......................              78,403
    10-9100-1080 Costs associated with animal care,               27,179
     employee physicals, and DNA analyzer...........
    10-9100-0900-1A Foreign Animal Disease                        28,144
     Diagnostics....................................
    10-9100-1194-1A North American Foot and Mouth                 23,051
     Bank...........................................
Fiscal Year 2010--From TSA to TSL:
    HSTS04-09-X-CT4033 Determine the security                  2,076,073
     applications of a CAT/BPSS device..............
    HSTS04-09-X-CT1331 Develop an initial baseline               325,000
     standard image format..........................
    HSTS02-10-X-MLS112 TSA requires continued                  1,000,000
     support for the additional functionality of the
     development of the Fedtrak system..............
    HSTS02-09-X-MLS360 Supplemental tests for the                100,000
     Chlorine Rail Tank Car Vulnerability Assessment
Fiscal Year 2010--From DNDO to TSL:
    HSHQDC-10-X-568 Computed Tomography.............             544,701
------------------------------------------------------------------------

    Question 4a. The DHS budget, and especially that for research and 
development within DHS, is experiencing fiscal pressure. Maximizing the 
value of research and development expenditures is essential.
    What procedures does DHS have in place to guide program managers 
regarding performing research and development?
    Question 4b. What criteria do DNDO and the S&T Directorate use to 
determine whether industry, academia, a DOE National Laboratory, or a 
DHS Laboratory should perform the research and development?
    Question 4c. How have the results from these investments been 
assessed on a cost and performance basis?
    Answer. The Science and Technology Directorate's (S&T) Value-Added 
Proposition guides our efforts to maximize the impact of research and 
development of technologies that will serve DHS's components. The 
Value-Added Proposition is operationally focused, seeking innovative 
solutions, and expanding critical partnerships.
    To support the Value-Added Proposition, we have established a 
process of on-going reviews of our entire research and development 
portfolio to ensure that we are: (1) Investing in technologies that 
will significantly improve the Department of Homeland Security's (DHS) 
efforts to help secure the country and (2) meeting the goals 
established by our partners in the operating components and the broader 
Homeland Security Enterprise.
    We have committed to an annual review of our portfolio of basic and 
applied research and development and all proposed new projects. During 
this annual review we study written materials, hear a presentation by 
the project manager and carefully analyze the project's likely impact 
and feasibility (or ``riskiness''), judging these attributes against 
specific metrics determined by DHS's S&T with input from the operating 
components.
    These metrics establish a framework to address elements essential 
to programmatic success in the context of the DHS missions spelled out 
in the Quadrennial Homeland Security Review. The framework assesses the 
project's overall impact on customer mission; transition of products to 
the field; investment in technology to position S&T for the future; 
coordination with customers to align projects with their requirements; 
and application of an innovative strategy.
    Each project is evaluated by a review panel composed of S&T 
leaders, DHS component representatives, and independent experts. By 
measuring all of S&T's projects against the framework, we establish a 
transparent view of all research and development within S&T to enable 
more strategic, longer-term budget decisions; ensure efficient delivery 
to the component or individual user; and cultivate effective 
communication.
    Feedback from these reviews highlight areas of strength within each 
program but also highlight areas for improvement. This provides 
valuable input to program managers to help improve program management. 
S&T has seen a substantial improvement in quality over the 2 years the 
portfolio review has been conducted.
    The program managers are also guided by the work of S&T's Knowledge 
Movement and Process Improvement Office (KMO). KMO developed a 
comprehensive program management guide; templates for program 
documents; and a framework for information sharing including a new 
Sharepoint site that houses all of the program names, descriptions, and 
key documentation.
    Question 5a. Representatives of the DOE National Laboratories serve 
within DHS in advisory roles, often as temporary ``IPA'' employees. The 
National Academy of Public Administration, the DHS Office of Inspector 
General, and the Government Accountability Office all have highlighted 
the need for DHS to maintain strong managerial controls in order to 
maintain transparency in funding activities and to avoid conflicts of 
interest.
    Please describe how DNDO and the S&T Directorate ensure that these 
representatives avoid conflicts of interest.
    Question 5b. How does the S&T Directorate, in performing 
appropriateness reviews of work sent to DOE National Laboratories, 
assess and address such potential conflicts?
    Answer. The Science and Technology Directorate (S&T) currently has 
one individual detailed under the Intergovernmental Personnel Act 
Program (IPA) whose employer is a Department of Energy (DOE) National 
Laboratory. In accordance with the Intergovernmental Personnel Act, all 
IPAs are legally required to adhere to all of the ethics statutes and 
regulations applicable to Federal employees, including the Standards of 
Ethical Conduct for Employees of the Executive Branch in the Code of 
Federal Regulations and the criminal conflict of interest statutes as 
outlined in Title 18 of the United States Code. For example, IPAs must 
comply with 18 U.S.C. 208 (prohibiting personal and substantial 
participation in a particular matter in which he or she has a financial 
interest).
    All IPAs, before they are assigned to the Department, including the 
sole IPA within S&T from a DOE National Laboratory, are required to 
file an Office of Government Ethics Form 450, Confidential Financial 
Disclosure Report and to discuss the disclosure report with an ethics 
attorney prior to appointment. IPAs are also are required to receive an 
ethics briefing from the Department of Homeland Security's Office of 
the General Counsel (OGC) Ethics Division upon appointment and annually 
thereafter.
    If the Ethics Official identifies a potential conflict of interest 
between the candidate's personal financial interests and his/her IPA 
duties, the Ethics Official notifies the S&T supervisor of the 
potential conflict, reviews possible options to resolve the potential 
conflict, and, in consultation with S&T management, determines the 
appropriate option to resolve the potential conflict.
    The Ethics Official works directly with the IPA candidate to 
resolve the potential conflict.
    Any potential conflicts and necessary remedial measures taken to 
avoid or resolve a conflict are documented by the ethics attorney on 
the IPA's financial disclosure report. New employee and annual ethics 
briefings emphasize that employees are prohibited from participating 
personally and substantially in an official capacity in a particular 
matter that he/she knows will have a direct and predictable effect on 
his/her financial interests to include those of a current employer. In 
addition, the impartiality ethics regulations prohibit an IPA or 
Federal employee from participating in a Government matter if their 
current employer is a party to the matter or is representing a party to 
the matter if a reasonable person would question the IPA's 
impartiality. Both of these restrictions require the IPA to disqualify 
from participating without prior authorization from an agency ethics 
official.
    With respect to the IPA from the DOE National Laboratory, as with 
all IPA appointees, the IPA is bound by the restrictions set forth in 
the Office of Government Standards of Ethical Conduct for Employees of 
the Executive Branch in 5 Code of Federal Regulations Part 2635, and 
the financial conflict of interest statute at 18 United States Code 
Section 208 with regard to any particular matters pertaining to his or 
her employing institution and other conflict of interest laws in Title 
18. IPAs are responsible for adhering to the laws and the standards by 
recusing themselves, if appropriate, if a matter comes to their 
attention that may have a direct and predictable effect on the 
financial interests of their employing institution or if their 
employing institution is a party to a matter to which they are 
assigned, or representing a party to a matter to which they are 
assigned. The IPA should alert his/her supervisor of any potential 
conflicts before participating in a matter. Finally, when the IPA 
leaves the position with DHS, the Ethics Division is available to 
provide post-employment counseling to the departing IPA.
    The appropriateness reviews that S&T performs for work sent to the 
DOE National Laboratories do not specifically address potential 
conflicts of interest. Any conflict of interest would be handled 
through the ethics process described above by the IPA and his/her 
supervisor.
      Questions From Chairman Daniel E. Lungren for Huban Gowadia
    Question 1. In looking at the Domestic Nuclear Detection Office's 
(DNDO) utilization of the labs over the past few years, it looks like 
there has been a substantial decline in funding. In fiscal year 2010, 
your funding to the five Department of Energy (DOE) Labs you use the 
most was $134 million, and that dipped to $91 million in fiscal year 
2011. I understand that fiscal year 2012 will decline further, to 
almost half of fiscal year 2011. Yet, DNDO's total budget has not been 
reduced by half.
    Can you explain the reason for this change? Does it demonstrate a 
shift in DNDO's research budgets to other entities or other priorities?
    Answer. The reduction of funding going to the DOE Labs in fiscal 
year 2012 is projected to be $65 million less than the amount obligated 
during fiscal year 2011. Rather than a shift away from research, this 
lower amount is a direct reflection of the lower amount of funding 
appropriated for research and development in fiscal year 2012.
    The Transformational Research and Development Accounts alone were 
reduced by 58 percent, or ($56 million) from the fiscal year 2011 
funding levels. DNDO historically has sent approximately 30 percent of 
the Transformational and Applied Research (TAR) funding to the National 
Laboratories. In addition, DNDO will spend significantly less than the 
fiscal year 2011 obligations as a result of lower funding levels in our 
Systems Development and Systems Acquisition Accounts.
    Question 2a. Funding put toward DNDO's Transformational and Applied 
(TAR) R&D program has been on the decline.
    How can DHS sustain an R&D program that meets the unique 
operational requirements of the Department and its stakeholders? What 
role do you foresee the labs playing here?
    Question 2b. What is the relationship between the transformational 
research program and DNDO priorities?
    Answer. DNDO's Transformational and Applied Research (TAR) budget 
was relatively level between fiscal year 2007 to fiscal year 2011, but 
was drastically reduced by 58 percent ($56 million) in the fiscal year 
2012 appropriations act. In order to account for this budget decrease, 
many initiatives were terminated and more were delayed with the 
anticipation of higher funding in fiscal year 2013. The fiscal year 
2013 President's funding request restored the TAR budget to $84 
million, which is 87 percent of the fiscal year 2011 level. This 
increased level of funding will meet the unique Research and 
Development (R&D) mission to address gaps in the Global Nuclear 
Detection Architecture (GNDA) and to dramatically improve the 
performance and reduce the operational burden of nuclear and 
radiological detection and technical forensics technologies. DNDO's 
Solution Development Process ensures there is a direct link between 
TAR's program and DNDO priorities by defining and prioritizing research 
needs and by performing reviews of on-going and purposed research 
projects.
    The relationship between TAR and the rest of DNDO is unique within 
the Government, in that TAR work is very closely connected to the 
strategic development, implementation, and enhancement of the global 
nuclear detection architecture and National technical nuclear forensics 
efforts. DNDO brings a holistic approach to the problem of nuclear 
terrorism, combining multiple functions which are necessary to build a 
complete nuclear detection capability. In particular, DNDO brings:
  <bullet> An understanding of the threat with gaps in the architecture 
        to inform current deployment of technology as well as near-term 
        and long-term research, and
  <bullet> Operational support to end-users to help develop CONOPs, 
        training, exercises, and conduct alarm adjudication.
    The National Laboratories play a critical role in support of the 
TAR research and development mission by providing innovative ideas, 
establishing technical feasibility, developing prototype systems, and 
supporting characterization and analysis for transformational and near-
term research and development projects:
  <bullet> DNDO annually releases a competitive Call for Proposals 
        (CFP) for Exploratory Research to the National Laboratories and 
        other Federal centers. The competitive CFP solicits proposals 
        that may lead to dramatic improvements in National capabilities 
        for nuclear/radiological detection and forensics. Topics areas 
        for this research are defined from prioritized gaps in the 
        GNDA, technology needs defined by DNDO and Department of 
        Homeland Security (DHS) operational components, and remaining 
        technology hurdles discovered in prior research.
  <bullet> National Laboratories are encouraged to compete for project 
        funding exploratory research at the early stages of research 
        and development. National Laboratories have contributed to 
        advances in many technical areas including detector materials 
        development, passive detection techniques, neutron detection 
        and helium-3 replacements, shielded special nuclear material 
        detection, modeling and algorithms, and nuclear forensics.
  <bullet> In fiscal year 2012, DNDO is supporting 11 Exploratory 
        Research projects at the National Laboratories, focusing on 
        early-stage and basic research that can be developed into new 
        technologies for improving radiation detection capabilities or 
        operations.
  <bullet> The National Laboratories also provide technical expertise, 
        technology characterization planning, and data analysis support 
        to DNDO's Advanced Technology Demonstration (ATD) Program. This 
        program strives to take innovative technology that has been 
        proven in a laboratory environment from a laboratory bench-top 
        prototype into a full-scale performance test unit, and 
        characterize its performance in a simulated operational 
        environment. Because they have the proper mix of technical 
        expertise and scientific rigor to assist in the development and 
        characterization of advanced technologies, the National 
        Laboratories have played a major role in each of the eight ATD 
        projects initiated to date.
    Question 3a. I understand that DNDO may at times find itself in 
possession of expensive equipment or prototypes that for one reason or 
another do not get deployed. Some of this equipment, or its components, 
can be quite expensive. A good example of this is the radiation 
detection crystals inside portal monitor equipment.
    Does DNDO have a mechanism in place to transfer this equipment or 
its components to the labs, so that even if it is non-deployable, it 
can at least provide some research value?
    Question 3b. If no such mechanism exists, what do you need to make 
that happen?
    Answer. Yes, DNDO has a mechanism to transfer non-deployable 
equipment or system components to the National Laboratories for 
research. Section 302 of the Homeland Security Act of 2002 (Pub. L. 
107-296) granted the Secretary authority for ``establishing a system 
for transferring homeland security developments or technologies to 
Federal, State, local government, and private-sector entities.'' This 
authority is in addition to the property disposal authorities of the 
General Services Administration (GSA). The following generally outlines 
DNDO's process for handling excess equipment, which complies with DHS 
and GSA property policy:
    1. Declare assets ``Excess''.
    2. Determine if the asset should be dismantled for parts/
        components.
    3. Keep desired assets or components in storage.
    4. Determine if other entities can use the assets (in the following 
        order):
        <bullet> Within DNDO;
        <bullet> DHS components;
        <bullet> Federal agencies;
        <bullet> State & local agencies (as applicable);
        <bullet> National Laboratories (emphasis added);
        <bullet> Universities.
    5. Transfer assets.
    As an example, DNDO has transferred excess equipment such as 
Advanced Spectroscopic Portal (ASP) Low Rate Initial Production units 
to the Department of Energy's Second Line of Defense Program and the 
State of Georgia. DNDO has also transferred ASP components (including 
crystals) to labs and universities to support research and development.
    DNDO does not have authority to sell property and retain the 
proceeds to be applied toward other acquisitions or research and 
development projects. DNDO has made use of surplus materials as the 
Government contribution to Cooperative Research and Development 
Agreements, or as outright transfers.
    Question 4. DNDO is fundamentally responsible for helping to 
safeguard the homeland against a nuclear or radiological attack, 
primarily by supporting detection capabilities. Many efforts to detect 
illicit nuclear activities, supported by other U.S. agencies, are on-
going in the international arena.
    Does DNDO take advantage of existing assets fielded by other 
agencies for illicit nuclear activities internationally, and leverage 
them for homeland security purposes? Does it work with the National 
Laboratories to do so?
    Answer. DNDO cooperates extensively with both U.S. and non-U.S. 
efforts in the international arena to detect radiological and nuclear 
material out of regulatory control. Under the framework of the Global 
Initiative to Combat Nuclear Terrorism (GICNT), which currently numbers 
85 partner nations and four international observers including the 
International Atomic Energy Agency (IAEA), DNDO has led the development 
of international guidelines and best practices for nuclear detection 
efforts in the GICNT's Nuclear Detection Working Group chaired by the 
Netherlands. Developed in concert with the GICNT community, these 
guidelines leverage best practices from domestic U.S. efforts to 
enhance our National-level radiological and nuclear detection 
capability as well as the best practices established at the 
international level. The National Laboratories are a critical part of 
the U.S. Government (USG) programmatic assistance to build nuclear 
detection capacity in the international arena, and thus offer insight 
into the USG's myriad nuclear detection assistance efforts and are 
uniquely positioned to inform DNDO's attempts to characterize the GNDA 
through regional architectural analyses and other studies of 
transnational issues related to the GNDA.
    DNDO has also leveraged the experience of the National Laboratories 
in testing and characterizing nuclear detection equipment, gathering 
intelligence information related to radiological and nuclear threats, 
and developing and implementing nuclear detection architectures.
    An example of international and domestic cooperation for 
radiological and nuclear detection capabilities is the Illicit 
Trafficking Radiation Assessment Program+10 (ITRAP+10) program. The 
ITRAP+10 is a partnership between the European Union (EU), the United 
States, and the IAEA to evaluate the performance of available 
commercial radiation detection equipment against accepted standards. 
The EU initiated the program to test EU manufactured equipment to the 
radiological portion of the IEC standards at the Joint Research Center 
(JRC) in Ispra, Italy. Since countering nuclear terrorism is a concern 
to the entire world community, DNDO proposed in 2010 to expand the 
scope of the test to include all instruments regardless of National 
origin, and to conduct testing against all sections of the standards 
(radiological, mechanical, environmental, and electro-magnetic). DNDO 
has committed funding, subject matter experts, and test facilities to 
support the expanded scope.
    Today, ITRAP+10 is a dynamic partnership between the JRC-Ispra, 
DHS/DNDO, Department of Energy's Second Line of Defense program (DOE/
SLD) and the IAEA, that has embarked on the ambitious project to test 
nearly 100 commercially-available systems in nine categories of 
instruments against ANSI and the IEC standards. Presently, testing is 
being conducted at the JRC, Oak Ridge National Laboratory (ORNL), 
Pacific Northwest National Laboratory (PNNL) and the Savannah River 
National Laboratory (SRNL). To harmonize test processes between the 
European Union and all of the U.S. test facilities, the participating 
agencies have agreed to share resources and personnel.
    Question 5. In a budget environment in which funding is on a 
general decline, how does DNDO plan to address serious nuclear and 
radiological threats that academia and the private sector simply do not 
have the infrastructure to study? What efficiencies can you find to do 
more with less?
    Answer. DNDO uses use all sources of assistance to develop 
solutions to address nuclear and radiological threats: Private 
companies, Federal partners, National Laboratories, academia, and our 
own in-house expertise.
    Transformational research and development funding is focused on 
addressing high-risk or longer-term solutions. DNDO engages with the 
private sector, National Laboratories, and the academic community to 
advance fundamental knowledge for nuclear and radiological threat 
detection and related sciences with emphasis on fundamental research to 
solve long-term, high-risk challenges or dramatically improve the 
performance of domestic radiological and nuclear detection systems and 
enabling technologies
    In light of the decreased appropriation for transformational 
research and development, DNDO's strategy is to allocate funds to the 
near-term Advanced Technology Demonstration projects to more readily 
demonstrate the benefits of investment, but at the expense of the much 
longer-term Exploratory Research and Academic Research Initiative 
projects in DNDO's portfolio. DNDO will continue to seek to find the 
appropriate balance between long- and short-term research in this 
current fiscal environment.
    In order to use resources more effectively and capitalize on the 
advances being made by industry, DNDO's acquisition and commercial 
engagement strategy will focus on the ``Commercial First'' initiative 
to leverage industry development of systems and solutions. This 
capitalizes on the great strides made by industry in developing new 
detection technologies and provides insight into operator needs. DNDO 
will work with industry closely, and share technical requirements and 
advances in research and development projects that could potentially be 
integrated into next-generation systems.
       Question From Chairman Daniel E. Lungren for Daniel Morgan
    Question. DHS components may have short-term, urgent needs for 
which they request the help of the labs. It seems that one of the roles 
of S&T, then, should be to infuse longer-term guidance on how to meet 
those needs in the context of longer-term R&D needs and evolving 
threats.
    Do you think that S&T has figured out how to play a role in this 
space?
    Has S&T struck a balance of taking requirements from components, 
integrating them with next-generation threats that components wouldn't 
necessarily know about, and using the labs or other entities to 
facilitate the whole spectrum of needed research in a given area?
    Answer. When the DHS operational components request assistance from 
the DOE National Laboratories, they often seek near-term solutions to 
specific, identified operational needs. This approach may help to 
ensure that the resulting work is relevant and useful. On the other 
hand, some laboratory representatives argue that it fails to capitalize 
on the full range of their scientific and technical expertise. They 
advocate the use of science and technology to identify long-term needs 
and opportunities, not just to supply short-term solutions to needs 
that have already been identified. A longer-term approach could include 
roles for the S&T Directorate as well as the laboratories themselves.
    If the S&T Directorate were to place more emphasis on identifying 
long-term needs and opportunities, it could benefit from a detailed 
understanding of the missions of the operational components, as well as 
from strong relationships with the components to facilitate its 
infusion of scientific and technical guidance. The directorate's on-
going work in systems analysis, which seeks to develop structured 
models of the activities of DHS operational components, will likely 
help it to develop a better understanding of their missions. Stronger 
relationships are explicitly called for by Objective 1.2 of the 
directorate's 2011 strategic plan: ``Strengthen relationships with DHS 
components and the first responder community to better understand and 
address their requirements.''
    The directorate's efforts to meet Objective 1.2 include Apex 
projects, which are agreed to at the leadership level between the S&T 
Directorate and an operational component, and the forging of stronger 
relationships at lower levels between S&T technical experts and front-
line operators. In addition, the Integrated Product Team process for 
involving the operational components in S&T Directorate planning, 
formerly a keystone of the directorate's prioritization efforts, is 
still in effect, though less prominently than before. As currently 
structured, however, all these mechanisms appear to be focused mostly 
on obtaining input from the operational components, to guide the S&T 
Directorate's research and development programs, rather than on 
facilitating a two-way flow of information between S&T and the 
components. A more two-way approach could help S&T provide long-term 
scientific and technical guidance and alert the components to next-
generation threats and new technology opportunities.
    Instead of moving toward a longer-term approach, however, it 
appears that the S&T Directorate has recently increased its focus on 
delivering technologies that can meet immediate operational needs. For 
example, the directorate formerly had a goal of devoting 20% of its 
resources to long-term basic research. According to DHS officials, this 
goal is no longer in effect. Rather, the directorate's emphasis is 
increasingly on near-term technology development, operations analysis, 
and acquisition support. This trend is evident in directorate 
initiatives such as technology foraging, in the establishment of an 
Acquisition Support and Operations Analysis Group in the August 2010 
management realignment, and in the establishment of a separate line 
item for Acquisition and Operations Support in the fiscal year 2012 
budget. This shift toward a near-term focus may, in part, result from 
past criticism by policy-makers that the directorate has been 
insufficiently successful in transitioning the results of its research 
and development into fielded applications.

                                 <all>

</pre></body></html>
